<html>
<title> - INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2017</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



                                
                    INTERIOR, ENVIRONMENT, AND RELATED
                     AGENCIES APPROPRIATIONS FOR 2017

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              SECOND SESSION

                              ______________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES

                    KEN CALVERT, California, Chairman

  MICHAEL K. SIMPSON, Idaho                  BETTY McCOLLUM, Minnesota
  TOM COLE, Oklahoma                         CHELLIE PINGREE, Maine
  DAVID P. JOYCE, Ohio                       DEREK KILMER, Washington
  CHRIS STEWART, Utah                         STEVE ISRAEL, New York
  MARK E. AMODEI, Nevada
  EVAN H. JENKINS, West Virginia

 

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

               Dave LesStrang, Darren Benjamin, Jason Gray,
             Betsy Bina, Jaclyn Kilroy, and Kristin Richmond,
                             Staff Assistants

                             _________________

                                  PART 6

                                                                   Page
  U.S. Forest Service Budget Oversight 
Hearing.................................
                                                                      1
  Indian Health Service Budget Oversight 
Hearing.................................
                                                                     59
  Office of Navajo and Hopi Indian 
Relocation Budget Oversight Hearing.....
                                                                    125
  Department of the Interior Budget 
Oversight Hearing.......................
                                                                    149
  Office of Surface Mining Reclamation 
and Enforcement Budget Oversight Hearing
                                                                    289
  Bureau of Land Management.............
                                                                    331

                             ______________________

          Printed for the use of the Committee on Appropriations

                        ________________________
                        

                    U.S. GOVERNMENT PUBLISHING OFFICE

  20-042                   WASHINGTON: 2016


                            

 
                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey                    NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                            MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                                     PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                              JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                            ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida                                DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas                                  LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California                                SAM FARR, California
  TOM COLE, Oklahoma                                     CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida                             SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania                          BARBARA LEE, California
  TOM GRAVES, Georgia                                    MICHAEL M. HONDA, California
  KEVIN YODER, Kansas                                    BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas                                 STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska                             TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida                              C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee                      DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington                      HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio                                   CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California                           MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland                                  DEREK KILMER, Washington
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

 
  

                William E. Smith, Clerk and Staff Director

                                   (ii)
                                   
                                   
                                   

 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2017

                              ----------                              

                                      Wednesday, February 24, 2016.

                      UNITED STATES FOREST SERVICE

                               WITNESSES

TOM TIDWELL, CHIEF, UNITED STATES FOREST SERVICE
TONY DIXON, BUDGET DIRECTOR, UNITED STATES FOREST SERVICE

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. Good morning. The subcommittee will come to 
order. I would like to extend a warm welcome to my colleagues, 
our witness, and the audience as we begin the Fiscal Year 2017 
appropriations process. Today is the Interior and Environment 
Subcommittee's first oversight hearing of the year.
    Chief Tidwell and Mr. Dixon, I would like to welcome you 
back to the subcommittee. We are pleased to be able to hear 
from you regarding the Fiscal Year 2017 budget request for the 
United States Forest Service.
    Similar to last year, the President requests a total of 
$4.9 billion in discretionary funding for the Forest Service 
for Fiscal Year 2017. This is $150 million less than Fiscal 
Year 2016 enacted. A total of $2.5 billion was requested for 
wildland fire management. This represents nearly 50 percent of 
the entire Forest Service budget. In addition, a budget cap 
adjustment of $864 million is requested.
    This subcommittee continues to be concerned about the cost 
of fighting wildfires and the effects it has on the Forest 
Service's budgets, programs, and management. Technically, the 
2015 fire season is considered below normal at 93 percent of 
the 10-year average for the number of wildfires reported. 
However, the statistic belies a devastating reality. In 2015, 
more than 68,000 fires burned more than 10 million acres, 
causing an agonizing loss of life, destroying more than 4,600 
homes and other properties, and devastating local and regional 
landscapes and communities.
    The toll on our firefighters and supporting staff was also 
severe. According to the National Interagency Coordination 
Center, the request for firefighting resources were right at or 
exceeded the 10-year average, and the requests for air support 
were fulfilled or exceeded their averages.
    So I would like to thank you, Chief Tidwell, for the 
Administration's efforts to change the way we budget for 
wildfires. I would also like to thank Congressman Simpson with 
his dramatic entrance----
    [Laughter.]
    Mr. Calvert [continuing]. For keeping the pressure on 
Congress to address the issue. As of yesterday, I understand 
Mr. Simpson has convinced 145 of our colleagues to co-sponsor 
his bill, including every member of this subcommittee.
    While the issue of how to fund firefighting costs seems to 
dominate most discussions about the Forest Service, there are 
numerous other issues, including air asset management, law 
enforcement, land acquisition, and basic budgeting and program 
management, among others, that need to be attended to. The 
Forest Service must demonstrate that it is accountable, 
transparent, and able to improve the condition of its forests 
while managing unpredictable fire seasons.
    This is a difficult challenge. I realize it is not entirely 
in your hands. Congress must provide the financial resources 
and address policy matters that limit the Agency's ability to 
manage the Nation's forests. But some parts are in your hands, 
especially accounting, budgeting, and program management. I 
look forward to talking to you more about them today as we 
prepare the House bill for Fiscal Year 2017.
    Chief, you and the entire Forest Service staff deserve our 
appreciation for your work on behalf of the American people and 
our Nation's forests. We know you all care deeply for our 
forests and the communities that depend on them. So I thank 
you.
    And now, I am happy to yield to the gentlelady from 
Minnesota, Ms. McCollum, for any opening remarks she might 
make.

                    Opening Remarks of Ms. McCollum

    Ms. McCollum. Thank you, Mr. Chairman, and good morning, 
Chief Tidwell and Mr. Dixon. Thank you for being with us.
    The U.S. Forest Service is charged with sustaining the 
health, diversity, and productivity of our Nation's forests and 
grasslands, and that is no small deed. The responsibilities 
associated with managing 193 million acres of national Forest 
Service lands are significant. The Forest Service has 
established itself as a leader in natural resource conservation 
and recreation management.
    With these responsibilities in mind, the Fiscal Year 2017 
budget request is very conservative. The costs associated with 
fighting wildland fires continues to rise, and, frankly, I am 
concerned that those costs are being met at the expense of 
other important programs. For example, the budget proposes to 
cut the Invasive Species Research Program. Invasive species are 
a major threat to our lands.
    I will just give one example. We are watching emerald ash 
borer decimate American forests, killing 99 percent of the 
trees it affects. That infestation is a wake-up call to the 
devastation invasive species can reap. We need to be investing 
more and not less in such programs. And how do we do more? 
President Obama's budget gives us a way forward in reforming 
the way we fund wildfire costs, and I support that proposal. We 
need a more reliable way of funding wildfires that does not 
continually threaten other important Forest Service programs.
    Last year, as the Chairman has pointed out, wildland fire 
costs made up more than 50 percent of the Forest Service 
budget--50 percent of the Forest Service budget. Experts 
predict that if we do not take action to address these 
problems, it will exceed 67 percent by the year 2025. This 
imbalance would translate to nearly a $700 million reduction to 
non-fire programs.
    Every member of this subcommittee is a co-sponsor of our 
colleague, Chairman Simpson's, wildfire disaster funding bill, 
and the last Senate appropriations mark included reforms that 
are called for in the Simpson bill. I have to say that I am 
particularly disappointed that the final omnibus did not 
include emergency or disaster cap adjustments. I hope we can 
work together, through the authorizers or on this committee, to 
solve this problem. If we continue down the path of 
underfunding programs to manage wildfires, we jeopardize the 
health and the long history that we have had of having great 
American national forests.
    Chief Tidwell, at the Forest Service, you face difficult 
challenges to fulfill your mission in this time of limited 
budgets. I look forward to your testimony and discussing how 
the Agency is going to cope with these challenges, and I thank 
you once again for being here today. Thank you for the courtesy 
of the remarks, Mr. Chairman.
    Mr. Calvert. Thank you. And, Chief, you are recognized for 
your statement.

                    Opening Remarks of Chief Tidwell

    Mr. Tidwell. Mr. Chairman, Ranking Member McCollum, members 
of the subcommittee, thank you again for the opportunity to 
discuss our Fiscal Year 2017 budget request. As you both 
mentioned, this is basically a similar request to last year's 
budget request, which forces us to make some very hard choices 
about where to spend the limited resources.
    It does allow us to continue to increase our pace and scale 
of restoring the Nation's forests. This budget request will 
allow us to treat 2.9 million acres to restore forest health 
and watershed conditions. It allows us to decommission 2,000 
roads that are no longer needed and are just contributing soil 
into our streams. It also allows us to restore 3,450 miles of 
stream to address those aquatic needs and to improve the 
fisheries, and also will produce $3.2 billion board feet of 
timber.
    We do this by maintaining our 23 collaborative forest 
landscape restoration projects, and then being able to expand 
our work through the stewardship contracting authority that you 
provided a few years ago, and also with the farm bill 
authorities when it comes to insects and disease. We are making 
good progress with the States around the Good Neighbor 
Authority. These are the things that are allowing us to be able 
to continue to move forward and be able to get more work done 
every year, even though today we have 30 percent fewer 
employees than we did the last time we ever harvested board 
feet.
    It also allows us to treat 1.6 million acres of the 
highest-priority areas in our wildland urban interface, plus 
another 400,000 acres of areas outside that we need to address 
hazardous fuels. Our State and private programs are taking an 
approach to use more of a landscape-scale restoration approach 
where we can do a better job to work with our State foresters 
to be able to address issues on private forested lands, but 
across much larger landscapes.
    With our research, which is just essential that we be able 
to maintain our Research and Development (R&D) operations, but 
we are focusing on insects and disease, invasives, fire 
behavior, and then also to be able to expand and develop new 
and more markets for wood. If we do not find markets for the 
biomass that needs to be removed off our national forests, it 
is going to be more and more expensive for us to be able to 
restore these forests.
    We are also asking for an increase in law enforcement, and 
this is focused on helping us to reduce and clean up the 
marijuana growths. The data that we have shows that if you just 
get in there and stop the growth, there is a high likelihood 
you are going to be back in there in a few years, versus if you 
can get in there and clean out everything and take away all the 
infrastructure, et cetera, that there is less likelihood they 
are going to come back. So our request would allow us to be 
able to do a better job to clean up those sites.
    This budget provides the suppression resources that we 
need. It provides the air tankers. It provides the helicopters. 
We have 21 large air tankers on contract. We have over 300 
helicopters, over a thousand engines, and our Type 1 crews that 
are necessary to respond not only to our fires, but to fires 
across the landscape in other Federal jurisdictions and also 
with our State and local partners.
    I appreciate the support from this subcommittee and from 
Mr. Simpson when it comes to finding a way to reform how we pay 
for fire suppression. I appreciate the additional funding you 
provided in the Fiscal Year 2016 budget into the FLAME account, 
but I think we are all aware of the history that FLAME is not 
the answer. We have to find a way to be able to move past this.
    You understand the issues. We have got to find an 
alternative to the 10-year average costs. We need to find a way 
so that we never have to deal with transferring funds, shutting 
down operations, putting people out of work every year. This 
takes away your discretion, for you to be able to meet the 
public's needs with the limited resources we have today. It 
takes away your discretion, that all you can do is really, pay 
for fire.
    One statistic that I want you to be thinking about from 
Fiscal Year 2015 to Fiscal Year 2017 with our 10-year average. 
That 10-year average calculation will go up $237 million. And 
we still have 2 more years in the 10-year average that are the 
less expensive years, less than a billion dollars. So there are 
going to be 2 more years that are still going to hit that 10-
year average mark.
    So I just point that out to first of all reinforce the good 
work you are doing, and also to thank you. I tell you, we are 
committed to do everything we can to work with you to be able 
to find a way to be able to reform this so that it really 
provides, I think, the answer to a lot of the other problems 
that we are dealing with.
    So, Mr. Chairman, I appreciate the time you have given us 
this morning to be able to address the subcommittee, and I look 
forward to answering your questions.
    [The statement of Chief Tidwell follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
          
    
    Mr. Calvert. Thank you, we are going to start with Mr. 
Stewart out of courtesy. He has a hearing he needs to attend, 
so I am going to recognize him first. Thank you.
    Mr. Stewart. Thank you, Mr. Chairman. You are very 
generous. And to the other members, thank you for your 
consideration. Chief, thank you. We have had many 
conversations. We appreciate what you do. I recognize you have 
got a tough job, but I hope that we can, through this 
conversation and through these hearings, come to a meeting of 
the minds on some issues that are incredibly important to me 
and to my district.
    I represent the 2nd District in Utah. Nearly 80 percent of 
my district is Federal land, 4 million acres of Forest Service 
lands. To say that tension is simmering in my district would be 
a gracious understatement, as I know you know. Some of the 
things that have made those tensions rise are things that I 
think we could have avoided and should have avoided. They deal 
with three things, and I want to talk about them very quickly. 
The first one would really be just kind of yes/no, and that is 
this issue with the labor rule and overtime for outfitters and 
guides. The second, more deeply felt, are the grazing and the 
water rights.

           LABOR RULE AND OVERTIME FOR OUTFITTERS AND GUIDES

    So let me ask specifically the first one, and that is, and 
I know you know the background on this, so I will just be very 
quick. Do you agree that the intention of Congress on that was 
very clear and that the Forest Service would not proceed with 
implementation of the labor rule?
    Mr. Tidwell. I understand the intent. For me it is clear. 
We are having discussions with our attorneys on that, but I 
definitely understand your intention.
    Mr. Stewart. Okay. And I appreciate you saying that for you 
it is clear, that we agree on that, and I think that we do 
agree. Hopefully we can get others to recognize that as well.

                                GRAZING

    The more prickly issues, and I will not be the first one 
who talks about this I am sure. But I could give you examples 
of people sitting in this room who are here today who have had 
firsthand experiences. For example: a family operation that had 
been accused by really a very aggressive environmental group of 
over-grazing. They voluntarily gave up half of their allotment. 
They requested a hearing with the Forest Service. They were 
given 15 minutes to present their case. The Forest Service then 
spent an hour and a half behind closed doors with this 
environmental group and left them in a very, very precarious 
situation. This is not a huge corporate farm. This is a family 
farm, as I grew up, ranching.
    Help me understand what I can go back and tell my 
constituents to assure them that the Forest Service is not out 
and tipping the scales in favor of radical environmental groups 
against family farms and ranches.
    Mr. Tidwell. Well, my response is simply that grazing is 
part of multiple use. And we believe it is not only a 
legitimate use, but it helps to maintain our communities, and 
it also helps to maintain the wildlife habitat and to maintain 
open space. When we lose the ranching community, we lose a lot 
of benefits that the public takes for granted.
    So what I would like you to share is that we are the 
strongest supporters that they have when it comes to grazing. 
If we need to do a better job to make sure that we are very 
transparent in being able to deal with these issues, then we 
want to take that on.
    Mr. Stewart. And, Chief, I have to say, not you perhaps 
individually, but your organization does need to do a better 
job at that because there is a very broad perception that the 
scales are tilted against them. And, again, if you want to come 
talk to people who are very, very angry right now, come to my 
district. We have got to find a way to defuse that. We have 
already seen the outcome of that, and it is not going to get 
better as long as they feel like the Federal government has a 
boot on the throat of these family ranches.
    Mr. Tidwell. Well, also the governor's office has extended 
his staff to be able to work with us, to be able to sit down 
and actually have the governor's office be able to kind of 
bring people together, to maybe tamp down some of the tension 
and have the dialogues and discussions we really need. So I 
appreciate the governor's staff, the governor being able to 
step up and help in this situation.
    So I am looking forward to that so we can move forward. I 
did meet with several of your county commissioners this past 
weekend, and we had similar discussions about some ideas about, 
okay, how can we just change this so that it is very clear that 
we, of course, need to listen to everyone, but at the same time 
we need to do this in a transparent process. And our intent 
without any question is to maintain livestock grazing.
    Mr. Stewart. We appreciate that, and you are right, the 
governor has been active. We actually held hearings down there 
about a month ago through Chairman Bishop and the Resources 
Committee, and those things make a difference. It gives the 
people that are impacted by this the feeling that at least they 
are being heard and that they are not being ignored, and they 
are not given 15 minutes, and then an environmental group is 
given an hour and a half, again, behind closed doors.
    The third thing if I could, and I do not see a clock. I am 
not sure how much time we have.
    Mr. Calvert. I am the clock. [Laughter.]

                        GRAZING AND WATER RIGHTS

    Mr. Stewart. I will go quickly. The same perception not 
only about grazing rights, but about water rights as well, and 
individuals being told that in order to renew their grazing, 
they have got to give up some of their water allocations. And 
my heavens, you do that in the West, and that is like giving up 
your lifeblood. You cannot survive without those water 
allocations.
    I know some individuals, some sitting here in this room, 
tell me firsthand knowledge of them being told we will 
reallocate your grazing, but you have got to work with us on 
your water rights. Please tell me that that is not a policy 
that the Forest Service would defend.
    Mr. Tidwell. We have had a policy. This policy has been 
around for decades. It is there as kind of a security if there 
is a potential threat of the water being taken away from the 
land so we could not continue grazing. So this is an issue that 
we want to work with folks to find a better solution because 
our intent is one thing. That is to be able to keep the water 
with the land because when you take the water, we are no longer 
grazing.
    So that is our sole intent. We ought to be able to keep the 
water there so we can continue grazing. So I think this is an 
opportunity, we have to be able to move forward together 
because when I talk to ranchers they agree with me. They've got 
to keep the water there because if you take the water they 
cannot use the land.
    I think this is one of those issues where I think there is 
agreement on it. We just need to get to work to be able to make 
some changes so that we are together like this. I think in your 
State we may have even some additional benefit because of some 
of the State laws that are in place. It actually may be very 
helpful.
    Mr. Stewart. Well, Chief, thank you. And, Chairman, again, 
thank you for letting me kind of jump ahead of the line. And I 
will just conclude by saying I grew up ranching, and this is 
not like most other jobs in the country. There is a deep, deep 
culture that means more. This is not just a job. And if we do 
not make some progress in helping these folks feel like they 
are not being ignored and, in fact, being abused by the Federal 
government, then we are going to have situations out there that 
just become worse. So thank you for working with us on those, 
Chief.
    Mr. Chairman, thank you.
    Mr. Calvert. Thank you. Thank you. Ms. McCollum.

                          ABANDONED MINE LANDS

    Ms. McCollum. Thank you. Before I begin my questions, I 
want to revisit quickly a topic that we discussed last year. 
This is controversial mining proposals that the Forest Service 
are dealing with across the country. In northern Minnesota, 
copper-nickel sulfide mining poses a threat to the water 
quality of Voyageurs National Park, and the Boundary Waters 
Canoes Wilderness Area.
    I understand the Forest Service is working closely with the 
Bureau of Land Management on these issues, and I appreciate the 
work that you and your staff at the Forest Service are doing to 
protect these treasures in our park system that all of America 
enjoys, and the Boundary Waters and Voyageurs National Park.
    It is imperative that we find a way to better balance the 
cost of fire suppression with the resources needed for other 
programs that also help you protect, as I said earlier, what we 
expect you to be able to do in the Forest Service. However, 
your budget warns that the shift is eroding our ability to 
serve Americans in a myriad of ways, such as delivering clean 
air and clean water.
    I am troubled by this statement because 180 million 
Americans depend on drinking water that flows through our 
national forests, and that accounts for 20 percent of the 
Nation's clean water supply. It is an estimated value of $7.2 
billion a year. Your budget request states that currently 48 
percent of the watersheds in the national forest and grasslands 
are not functioning properly, and that goes to the discussion 
that you were having with my colleague, Mr. Stewart.
    Along that line, our country has a legacy of abandoned mine 
lands that pose safety risks to public health, with pollutants 
that contaminate water--39,000 abandoned mine sites on our 
national forest lands. Over a third of them produce minerals 
like arsenic and lead that could have significant impacts on 
human health and the environment.
    The budget proposes to increase the funding to mitigate 
safety risks of abandoned mines by $4 million. Additionally, 
the budget requests another $4 million to increase managing 
environmental restoration of these abandoned mines. I am 
pleased that the Administration is requesting these increases, 
but as you know, we need to do more.
    The timeline for your environmental restoration is even 
more disarming. According to the budget request, with what you 
have been able to request, only 150 sites have been cleaned up 
since 1998. This rate is just unacceptable, Chief. What steps 
are the Forest Service taking to create a path forward that 
will accelerate the mitigation and restoration so that we do 
not leave abandoned mines to be a burden for the next 
generations to pay for, quite frankly, with their tax dollars 
and which will put their drinking water at risk?
    Mr. Tidwell. Well, you stated the inventory. That was our 
first step is for us to have an accurate inventory about just 
how many that we have. Then also what is the risk so that we 
can actually prioritize where is the top place we need to spend 
our limited resources to address this problem. Yes, we need to 
be doing more. We are also working with partners. We are 
working with the States on these issues because they too share 
the concern of the contamination of both surface water and 
ground water from these.
    The other thing that we have done is we put in place a 
direction that from now on we are going to make sure that we 
require enough funding to make sure we can clean up these 
properties after the mining has been done. That has been one of 
the problems that created this backlog. In the past, we never 
fully understood the complications of some of these mining 
operations, and so we did not have the funds in place. We did 
not have the bond, an adequate bond, in place so that when 
these mines were abandoned, there was never enough money to 
clean it up.
    From now into the future, we are going to require that 
there is enough funding available to be able to take care of 
these problems, even if it is over the next hundred years, so 
we should not be adding more to it. So that is the first thing. 
But then going back, this is just another example of the things 
that the public is demanding. We need to be able to do this, 
and we have to find a way to be able to expand getting more of 
this work done.
    I feel good about what we are doing. I feel good about the 
inventory, but there is no question we need to be doing more. 
So it is just another example, but I wish I could be here next 
year and be able to talk to you about how we fixed the fire 
reform issue, and the fire suppression funding. We are on a 
different track there. We have some flexibility now that we can 
talk about where we need to make some strategic investments, 
and to be able to address these issues.
    Ms. McCollum. Thank you, Chief Tidwell. Thank you, Mr. 
Chair.

                             FIRE TRANSFER

    Mr. Calvert. Thank you. Chief, I have a couple of questions 
on the wildland first and the budget cap adjustment. Your 
Fiscal Year 2017 budget again proposes to establish a new 
budget framework for the Wildland Fire Management Program. A 
total of $874 million in discretionary fund is the request for 
fire suppression, and an additional $864 million is requested 
through a budget cap adjustment. On that, can you share for us 
any lessons you learned from this last fire season in 2015?
    Mr. Tidwell. Well, the number one lesson is the burden that 
was put on the agency to have to transfer the amount of money 
we did in such a short period of time; it is just really 
something that I am so impressed that our folks were able to be 
able to do it. They were working often 24 hours a day trying to 
shift money to be able to keep us from always having the funds 
available to pay the bill. And I think about the millions of 
dollars that were wasted from having to deal with that 
transfer, and all the potential for accounting mistakes to be 
made with moving money around so quickly, et cetera. So that is 
one of the concerns, definitely a lesson that I learned.
    The second part of it is that to predict the fire season is 
very difficult. Our scientists are telling us what it is for 
this coming year. We are here talking about Fiscal Year 2017. 
So for Fiscal Year 2016 right now I can tell you with 90 
percent confidence that this coming fire season is going to 
cost somewhere between $604 million and $1.7 billion. I am 90 
percent confident it is going to be there. [Laughter.]
     That is for 2016, and we are talking 2017 here. The other 
reality is that you just cannot budget for wildland fires. So 
that is the other thing that just hit home.
    Then the other part of it, even last year's fire season, it 
started off a little less active than what we predicted, but 
then all those drought maps showed where we had extensive 
drought. Part of it was in your State. It all came true. We had 
the big fires in California, Oregon, Washington, Idaho, and a 
lot of other places in the country.
    It played out just like it was predicted, but then when 
people saw how much it cost, it is like, what? How can you 
spend that much money? Well, 27,000 people are responding to 
our fires, and at the same time supporting the State and the 
county with their fires. So I will tell you, those are some of 
the lessons that I learned.
    The numbers that we put forward in our budget are numbers 
that would prevent any need to ever transfer funding, so we 
would eliminate that wasteful practice. We are not going to 
spend the money if we do not need it, and we want to be able to 
show you without any question this is what it cost for each 
fire. We manage those costs. We also are making very good 
decisions that when we cannot be effective, we are not going to 
put people in harm's way. I do not care how much people are 
talking to us or directing us. We are not going to do that 
because it is just wasteful.
    We made some really good decisions last year, and a couple 
of them--yes, we had large fires. But I trust our folks on the 
ground when they say I am not going down into that canyon. We 
are not going to ask them to go into that canyon. Those 
professionals know when we cannot be effective because of the 
drought conditions.
     But we just have to have a different approach because we 
will come in here with our best science, but in reality I just 
cannot predict exactly how much money we need for Fiscal Year 
2017. It is going to be a big range. Then the worst part of it, 
if we have millions of dollars that are just sitting there when 
we have a lot of other pressing needs, as a taxpayer I am not 
okay with that. So those are some of the lessons that I 
learned.

                         BUDGET CAP ADJUSTMENT

    Mr. Calvert. Okay. Do you believe that a budget cap 
adjustment will help improve the Nation's forests, and have you 
laid that out in your budget request?
    Mr. Tidwell. Yes, and it does it through a couple ways. It 
stops the transfer, so that is off the table. We do not have to 
worry about that anymore. We can plan on getting our work done. 
It slows down the growth of the 10-year average. Also, it does 
free up some constraints for the Appropriations Committee to 
make a decision about how that could be used. So that is the 
other way that it would also help us potentially to be 
proactive to be able to make the investments.
    We will be glad to provide you with a long list of all the 
success that we have every year for where we get in there and 
do the thinning before the fire starts. We are effective with 
our suppression. We reduce the risk to our firefighters. We 
have less homes that get burned and watersheds recover so fast 
because we just do not have the severity.
    The solution is simple. It is just large. We have to 
continue to increase the number of acres. I feel good today 
that between our restoration efforts and the work that we are 
doing on hazardous fuels, we are treating over four and a half 
million acres every year. A decade ago we were treating about 
400,000. So we have made significant advances in the work that 
we are doing, and we just need to be able to continue to 
maintain that and increase it.
    Mr. Calvert. All right, thank you. Mr. Kilmer.

           COLLABORATIVE FOREST LANDSCAPE RESTORATION (CFLRP)

    Mr. Kilmer. Thanks, Mr. Chairman, and thanks, Chief, for 
being with us. It is helpful to get an understanding of your 
priorities and I look forward to seeing you later today at the 
celebration of the removal and restoration of the one 
thousandth culvert----
    Mr. Tidwell. Yeah.
    Mr. Kilmer [continuing]. Which is certainly a big deal in 
our neck of the woods.
    I grew up on the Olympic Peninsula, and that is the 
district that I now represent. People from other parts of the 
country often say I represent more trees than people when you 
add up the Park Service and the Forest Service. And certainly 
the presence of those forests are important both from a 
recreational standpoint and really important to our economy. 
And so, I guess that is the nature of the questions I want to 
ask about.
    The Collaborative Forest Landscape Restoration Program I 
think is a good example of how government can be a partner with 
rural communities. Since 2010 you have seen the coming together 
of groups that have occasionally been butting heads from the 
conservation community and from industry. The result of that is 
nearly 1 and a half million acres that have been treated to 
reduce the risk of fire, and over 84,000 acres of new timber 
sales. We have just started one of these on the Olympic 
Peninsula, and it is cool to see groups that have traditionally 
been arguing with each other trying to work through some of 
these issues.
    I guess my question is, if the Forest Service continues to 
see support from the House, because I like the idea of trying 
to reward good behavior, is there an opportunity to increase 
investments in new collaboratives rather than just supporting 
the ones that have already been launched?
    Mr. Tidwell. Yes, we do have a legislative proposal to be 
able to expand the CFLRP authority to be able to increase the 
funding from $40 million to $80 million for future years. 
Without any question, it has been hugely successful for the 
points that you brought out.
    Then the other thing that members that work on these 
collaboratives, what they also share with me is that the other 
key difference is they are able to agree on large projects. 
Instead of working on a 500-acre or a thousand-acre project, 
they are able to reach an agreement on treating. We need to be 
looking at 10,000, 20,000, 30,000 or more acres at one time. 
That is the real difference, and it is just simply, it comes 
down to trust. You provide the opportunity for people to come 
together to be able to share their concerns, express their 
values where people then hear that, and they can build trust. 
Then we are able to move forward.
    When I look at the amount of acres that we are treating 
today versus what we were a few years ago, one of the biggest 
changes is that we have been able to build trust across the 
board from all the different diverse interests to the point 
that they recognize this is what the land needs, and yes it 
creates a lot of economic benefits, jobs, and biomass that is 
produced, but it is driven simply by what the land needs. When 
you are focused on that, a lot of the controversy goes away.
    Mr. Kilmer. Yeah, that is certainly. We are still early 
going, so we are trying to work through a lot of these things, 
and it is a bunch of people taking time out to help, so I 
appreciate that.

                              FOREST ROADS

    I also wanted to ask about forest roads. This past winter 
we just had some very large storm events that, again, blew out 
culverts and washed out roads. The concern is not just in terms 
of public access for recreational purposes. We also have folks 
who live in these areas, and this just makes it hard for them 
to get to and from their homes.
    We have seen preliminary damage estimates submitted to the 
Emergency Relief for Federally Owned Roads Program, over $6 
million. In an era where we are seeing more intense storms, how 
does the Agency think about proactively addressing this issue 
so that we are investing in infrastructure to deal with these 
severe weather events on the front end, rather than seeing a 
bunch of people cut off both in terms of recreational access 
and in terms of being able to get to their home?
    Mr. Tidwell. On each of our forests, we have done a 
vulnerability assessment to understand with the changing 
climate, what do we need to expect especially with large rain 
events, especially rain on snow events, which we get in your 
country quite often now. So that allows us to be able to 
identify that we need in some places to increase the size of 
these culverts, other places be able to remove the culvert and 
use a crossing or something like that. So those are the things 
where we have been proactive.
    I appreciate you being a co-sponsor of the event this 
evening to be able to celebrate that level of success, but 
those are things that we can point to where we are making a 
difference. We are reducing the amount of erosion. We are 
improving fisheries. More important or as important, we are 
maintaining public access by being out in front of this.
    Mr. Kilmer. Thanks. I've got plenty more questions, but I 
want to defer to the rest of the committee. Thank you, Mr. 
Chairman.
    Mr. Calvert. Thank you. Mr. Cole.

                             FEDERAL LANDS

    Mr. Cole. Thank you very much, Mr. Chairman, and thank you, 
Chief. I appreciate the testimony. I have exactly the opposite 
problem of Mr. Kilmer. I have more people than trees. 
[Laughter.]
    And probably more cows than people, so it is a very 
different kind of landscape. We see 5 trees together, and we 
define that as a forest in Oklahoma. [Laughter.]
    But we have very little Federal lands. We have got Indian 
trust land, and it is, frankly, well managed by the tribes that 
hold it. We have got some military installations that are 
obviously Federal and well managed, and a couple of wildlife 
preserves and one national park, so. But most of our land is in 
private hands.
    And I am just curious because I hear these problems like 
Mr. Stewart addressed, and I hear my colleagues from States in 
which 80, 85 percent of the land is federally owned. You manage 
over 193 million acres, and I think you do it with the 
resources that you have. But what is the merit of considering 
should we be offloading some of this land? Do you see it in 
perpetuity staying as it is? I am interested in your long-term 
view of what we do with the assets. Do we hold it as the 
Federal government or is there merit, as some of my colleagues 
are saying, to returning this one way or another in a managed 
way into private ownership?
    Mr. Tidwell. Well, I will start with a quote from Gifford 
Pinchot, the first Chief of this agency when this agency was 
created. The quote is simply that ``National forests exist for 
one reason and one reason only: the public wants them.'' The 
National forests were reserved from the public domain, the 
majority of them when Congress was petitioned or the 
Administration at that time, the President was petitioned to be 
able to withdraw these areas from the public domain because 
they were not okay with the amount of devastation and flooding 
that was occurring. This lack of any management, this was back 
in the 1800s, so that is what created this system of lands.
    Then there is a system of laws that Congress just passed, 
Presidents have signed, and agencies have implemented on the 
ground to represent how the public wants these lands managed. 
Multiple-Use Sustained-Yield Act, wonderful to read it, sounds 
perfect, then I will tell you it is really difficult to 
implement it on the ground. It is one of the things that is 
different than while the States manage a lot of their lands 
and, of course, private landowners is that we have to find the 
balance of all these different uses versus being able to manage 
it for any single one use.
    So for me, I like the way that we have our system of 
ownership in this country. I think it provides all the benefits 
to the public.
    Mr. Cole. Let me posture it again, and it is not meant to 
be adversarial in any way. It just is something I struggle 
with. We actually do have a lot of timberland in southeast 
Oklahoma. Most of that is privately held, and it was set up 
that way. When the State was opened up, frankly, a lot of the 
Indian tribes were sort of looted out of the land. We just had 
a big settlement on that which we appreciate, but the land 
remains in private hands, and it is productive. It is a 
beautiful area.
    So what I am wondering is, you know, we clearly have 
systems that have come into being at different times, and it is 
one thing for me to think about what I want to do in my State. 
I just love having 80 percent of Nevada in Federal hands, you 
know. I am not sure people in Nevada want to do that.
    And, again, I am not suggesting the elimination of these, 
but is there a time or a way to rethink whether or not we have 
the right portion because those questions, as Mr. Stewart 
suggested, are coming up, and they are coming up in a not very 
productive way, in my view. We have a lot of people caught in 
difficult circumstances, and they feel adversarial with their 
own government when they do not want to feel that way.
    So how would we rethink some of these things, or should we, 
again, because while it is true we have created this system, it 
is an accident in the way we create it. We did not think about 
it that way from the beginning of the republic. We did not 
apply that set of standards to every State in the country, let 
alone every region in the country. So, given that, is there 
some merit to think in some ways of divesting it, or would you 
argue we should essentially take the assets we have and 
continue to manage them, get better at it, and provide the 
resources.
    I am just wondering if there is ever any thought inside the 
Federal government about the first principle, if you will. How 
much of this land should we own? How much should be in private 
hands and managed differently?
    Mr. Tidwell. Well, I am a strong advocate for our system of 
land ownership, and I think these lands should remain in public 
ownership. They are public lands. I am concerned that when I 
hear proposals from States, I am concerned how you would pay 
for the management. What would prevent you from selling it off?
    Mr. Cole. Selling off is precisely what I am suggesting. 
Not all of it. Well, I just think it is worth thinking about, 
and I am just curious if the Administration or anybody ever at 
least explores this as, you know, a realistic option. If it is 
like it is now and we are going to think about managing things 
better, and putting in resources, that is one thing. Do we ever 
go back and think, geez, how much do we need to hold, where do 
we need to hold it, or is it just we are going to hold what we 
have in perpetuity?
    Mr. Tidwell. Well, that is my position. Based on what I 
hear from the public across the country, and I understand there 
are pockets, and I want to focus on what we can do to address 
those issues so that we can do a better job to address those 
concerns. We are very fortunate in this country to have this 
conservation legacy. I will tell you, in the future when you 
think about close to 14 percent of the CO2 that is emitted 
every year in this country is sequestered in our forests, we 
need to be looking at how we can expand those forests.
    So the idea that we would want to do anything to lose some 
of these lands to some form of development, we have got to 
understand those consequences because as I look forward into 
the future, I will tell you, it is going to be so important for 
us to be able to maintain and actually expand our forests if 
for no other reason just for air quality. They do an incredible 
job with sequestered carbon, then when we can have sustainable 
harvests, and we can also sequester it into these wood 
products.
    It is going to be something that is going to become even 
more important for this country and actually for the world.
    Mr. Cole. I will make this last point. You have been 
generous, Mr. Chairman. And my intent is not to question you or 
to express sympathy with some of the types of actions that we 
have had and that you have to deal with it. I do not think that 
is ever an acceptable thing. But I do think you have very 
articulately outlined your position. But I would like some 
study because, again, we do not hold the same balance of lands 
regionally across this country. And I am not in an area that is 
directly affected by this for the most part.
    But I do think, you know, when we know 1 out of 5 acres in 
the country is federally owned, that, to me, is worth thinking 
about, particularly when it is concentrated in a relatively 
small area. 50, 60, 70 percent of the State being owned by the 
Federal government is pretty difficult on the people that live 
there. And whether or not we should redistribute that would be 
a fair question, too.
    But, again, you have been very generous, Mr. Chairman. 
Thank you very much. And thank you, Chief.
    Mr. Calvert. Thank you. Ms. Pingree.

                          WHITE-NOSE SYNDROME

    Ms. Pingree. Thank you very much, Mr. Chair. Thank you, 
Chief, for your testimony today, it is certainly interesting to 
see the breadth of issues that we have in all the diverse 
States. As you know, I represent Maine which is in New England, 
and we have very little presence of public lands. We are 
fortunate that we have more water than drought, so we are not 
one of the States that are so deeply affected by the fires. But 
I do appreciate the challenges that you are dealing with, and I 
hope that one of the things that we can tackle on this 
committee is to have that funding be more stabilized so the 
rest of the funding that many of us care about is better 
available to us and certainly more predictable.
    Sorry I have to go to another hearing, and I will give you 
a few questions for the record. But I will just quickly ask you 
about a very different kind of issue that I think the Forest 
Service has been handling well in terms of the back and forth, 
and that is the northern long-eared bat. We have a lot of 
forest in our State, and we have a lot of timber harvesting, 
but it is, of course, all private land.
    This has been a big concern for the Forest Service, Fish 
and Wildlife, as well as our timber harvesters. We are 
particularly concerned that you are able to maintain the 
balance of dealing with the private landowners, the small 
landowners, the loggers themselves. As you know, this is an 
issue where the bat has been troubled by White-nose syndrome, 
the fungal disease, so there was some question about whether 
they would be listed as endangered. And the Wildlife Service 
has listed them as threatened, which gives a little bit more 
wiggle room. I know some of that was controversial as there 
were those who wanted it to be endangered, but this gives us a 
little bit of a middle ground in that you are now working on a 
tag and release program that is currently level funded.
    I just want to talk a little bit about that because what is 
critically important in my State is that we continue to ensure 
this coordination with the local wood lot owners. If you could 
briefly tell us about how you are doing as a result of that 
2015 study that you did, how you worked with other agencies, 
particularly Fish and Wildlife. Will you be able to continue to 
fund this work under the budget request for forest and 
rangeland research at last year's level? And just how will you 
continue that cooperation since white-nose syndrome is one of 
the things that we certainly hear about from our landowners?
    Mr. Tidwell. Well, first, we will continue that level of 
funding. We have a great partnership with several universities 
that is helping to find solutions to the white-nose syndrome, 
and we are actually making some progress on it.
    When it comes to managing our forests, there are certain 
spruce trees that are important to be able to maintain those 
and not impact the bats. We have been able to work with Fish 
and Wildlife Service to be able to say, we can adjust some 
operations here and still be able to get in there and be able 
to manage our forests and not impact those bats. So I feel 
really good about the work we have done together with the Fish 
and Wildlife Service.
    What really helps us is that they understand the benefit of 
the forests, and they understand that if we are not managing 
these forests, and we are going to lose the bat habitat, or in 
your case with private land, it gets developed. You are 
fortunate that you have not had as much pressure as the rest of 
this country, but it is starting in your State, too.
    I will tell you, it is so essential that we find ways to be 
able to maintain our private forested lands. It is the majority 
of forests in this country. Over 50 percent of our forests are 
private. It is essential that we maintain those.
    Ms. Pingree. Absolutely, and I appreciate your saying that 
because you are right. In our case, it is not the pressure from 
the Federal government or the publicly owned land, but it is 
very important to people in our State and in the region that 
much of this land continues to be able to be harvested, or 
timber, or pulpwood, or a variety of uses. And development 
pressure is certainly growing in our area.
    I think when you look at a map of the East Coast, you see 
all the bright lights and you finally get to northern Maine and 
you see a little bit of darkness. And that means that we have 
some of the last preserved forests, but that will only stay 
there if people are able to make it economically viable for 
those communities. We appreciate your moderation in this and 
the ability to work with you, so thank you.
    I yield back.
    Mr. Calvert. Thank you. Mr. Jenkins.

                   FOREST SERVICE STEWARDSHIP PROGRAM

    Mr. Jenkins. Thank you, Mr. Chairman. Chief, welcome. As we 
have talked before, I think West Virginia has a good 
relationship with the Forest Service, and we appreciate you.
    We have 125,000 private landowners and about 80 percent of 
our forests are privately owned. I want to ask you about the 
Forest Service's Stewardship Program.
    Under the proposed Fiscal Year budget that we are talking 
about, there is over a half a million-dollar cut suggested in 
that program. We think this program provides a lot of technical 
support. It is an important tool. It has been successful. Can 
you give me a rationale for why the proposed cut to what we see 
as an important program that provides much-needed services?
    Mr. Tidwell. Our request does not result in a reduction, 
but what it does do, it moves some of those funds into our 
landscape scale restoration budget line item. Once again, this 
is where we have taken funds from stewardship for forest health 
on State lands, urban community forest funding, and we put that 
together in one account to sort of create a better way for the 
State foresters to be able to compete for that funding and be 
able then to address all these issues across the board versus 
we have this pot of money to be able to address urban 
community. We have this pot of money for forest stewardship. We 
have this pot of money for forest health.
    It is an area we are actually, based on the success that we 
had last year, we are increasing our request in Fiscal Year 
2017 to be able to expand this. We have good support from our 
State foresters because they are seeing that this is actually 
helping them to be competitive, and they also see that it is 
actually helping to get more work done on the ground.

                           STATE ACTION PLANS

    Mr. Jenkins. The farm bill directed State foresters to take 
a comprehensive look at forests. Can you help me understand how 
the Forest Service and the national forests are working with 
State foresters to accomplish the objectives and priorities 
detailed in the State Action Plans, and what has been asked for 
under the farm bill?
    Mr. Tidwell. Well once again the States have done a great 
job to put together their action plans that we work with them 
starting a few years ago to help them. I mean, it shows where 
their priority is, where they need to really focus their work. 
Because of those action plans, it allows them to be more 
competitive for these limited funds.
    It also has allowed them to work across State lines. So we 
have several State foresters now that are working with their 
adjacent States, and they are putting together these large-
scale projects that compete very well for these limited funds, 
and be able to get more work done.

                      MONONGAHELA NATIONAL FOREST

    Mr. Jenkins. My last question is that as one of the few 
eastern members here that have substantial national forestlands 
in their district, I have been monitoring how the Agency's 
agenda applies to our forests. Last year, one of the questions 
for the record that I submitted was asking about the most 
recent forest plan monitoring update for the Monongahela 
National Forest. When we talked last year, I saw that that 
update was last done back in 2011, which is on the Web.
    And in response to my questions for the record, I was 
advised that the update would be done by May of 2015. But I 
have just checked and it appears as though, again, for the 
Monongahela National Forest we still do not have any forest 
plan monitoring update. Can you tell me why we cannot get that 
updated, and why we missed the May 2015 promise, and where we 
stand on that?
    Mr. Tidwell. Well, I appreciate our folks being optimistic 
about how much work they can get done, but it is another area 
that we lack the funding, the capacity to be able to maintain 
the monitoring.
    One of the things we are doing under the new forest plan 
rule, it allows us or gives the direction for us to be able to 
do these monitoring plans in a more collaborative effort so 
that we can use others to help us to be able to get that work 
done, and expand it. As to why they did not get your forest 
done, I will get back with you and find out if they made the 
commitment, they should have followed through with it.
    It is an area that in the past we have not done the job to 
monitor, and so it is so important for us to really understand 
what is going on. If our decisions and our forest plan are 
proving out, that is great. If they are not producing what we 
expected, we need to know that so that we can make changes. So 
it is important that we do it, and I will get back to you on 
the status of that.
    Mr. Jenkins. The Monongahela is very important in my 
district and throughout the entire region, so we welcome the 
feedback, and we continue to look forward to working with you. 
Thank you, Chief.
    Mr. Tidwell. Thank you.
    Mr. Jenkins. Thank you, Mr. Chairman. I yield back.
    Mr. Calvert. Mr. Simpson.

                             FEDERAL LANDS

    Mr. Simpson. Thank you, Mr. Chairman, and thank you for 
being here today, Chief. And before I ask some questions, I 
have got a few that I would like to address. I do want to 
respond to something that Mr. Cole brought up, legitimate 
questions he asked about the amount of ownership of Federal 
land in western States. And I guess Mr. Amodei and I could 
probably have a discussion for some time and often do on the 
floor about this.
    But let me tell you why people live in Idaho. They live in 
Idaho because they love their public lands. They like access to 
them for recreation, for hunting, for fishing, for all the 
activities that they do on public lands. And there is always 
this movement to turn them over to the States and to let the 
States manage them. Well, you could do some cooperative 
management between the feds and the States, but like any 
landlord relationship, you are always P.O.'d at the landlord, 
you know? I mean, that is a reality of what happens. If we turn 
them over to the State, we would be P.O.'d at the State.
    And the reality is, like I said, you could do some 
cooperative management between the States and the feds, and we 
have been working on some of those cooperative types of 
arrangements. But let me tell you what happens when you sell 
those public lands. We just sold 30,000 acres in Idaho to a 
couple of Texans. That was a lot of fun. And they all of a 
sudden denied access. So all of a sudden people cannot access 
their favorite fishing hole or their hunting grounds, and in 
Idaho that does not mean you just go around the 30,000 acres. 
It means you get a helicopter and have to go over it or come in 
from the other side from Montana.
    And that is a problem, and that is why we like our public 
lands. Like I say, we are always P.O.'d at the land managers, 
and we always will be even if we manage them ourselves because, 
it is like a quarterback in a football game: we can always do 
better than the guy out there on the field. So that is my 
answer to that question.
    Mr. Cole. It was a friendly question. [Laughter.]

                         BUDGET CAP ADJUSTMENT

    Mr. Simpson. It is a legitimate question, and it is a 
legitimate debate that is going on in Idaho, it really is, 
Idaho and all of the West. But let me ask you now a couple of 
questions. First, the wildfire funding, thank you for your 
support on the bill and trying to get this through. I am sorry 
that we did not get the cap adjustment bill through in the 
omnibus, but we did, thanks to Chairman Calvert and the members 
of this committee, get a billion extra dollars in additional 
funding.
    Let me make one recommendation. Do not do any transfers 
this year for wildfire fighting because what I always hear from 
people as I go up and talk to them they [the Forest Service] 
has to transfer funds, but they seem to handle it okay. So 
where is the urgency? Well, this billion dollars will run out 
eventually, and while this does solve the transfer problem 
probably for a year, maybe 2 years, maybe 3 years----
    Mr. Tidwell. One year.
    Mr. Simpson. 1 year, okay. It will solve the problem for 
this year. It does not solve the long-term problem that we need 
to fix, and if you do transfers this year, that will be a 
problem in trying to convince other people there is a fix-
borrowing issue. But in your budget request, you asked for, 
what was that amount? You asked for $874 million in 
discretionary funds and requested $864 million requested 
through a budget cap adjustment. Why do you put an amount in 
there?
    Mr. Tidwell. Well, because instead of asking for just, I 
mean, we feel we need to have an amount, and that is our 
prediction based on what we see as kind of like the highest 
need so that there is some assurance so it is just like there 
is not an endless fund. We do not want to be asking for more 
authority than we need.
    Mr. Simpson. Well, the assumption is you are not going to 
ask for more funds in a cap adjustment than what you are going 
to need to fight the fires. But what if it goes to a billion 
dollars and you only ask for $864 million? Then you are going 
to be back into transfers, and that is what you are trying to 
avoid is transfers.
    Mr. Tidwell. You are correct, but it is our effort to put 
this in a way so that it actually builds some support because 
we have heard some criticism from others. But that is based on 
kind of our high projection, kind of like this would be the 
max. You take last year, the $1.7 billion. Well, that is what 
it was. That was at our high end. So, we are pretty good on the 
extremes. We can tell you the maximum, what it will probably 
be, and that is what kind of drives that.
    But you raise a legitimate question about what if things do 
not work out, what if things really shift, El Nino shuts down. 
In 2017 we could be faced with circumstances that were like 
last year.

                              AIR TANKERS

    Mr. Simpson. Well, my whole goal in this is to try to stop 
the transfers. And people keep saying that we want to spend 
more money on wildfires, and it is hard to convince some people 
that, no, what we want to do in the long run is spend less 
money on wildfires. And we do that through proper management 
and by not transferring all the funds.
    Could you tell me a little bit about where we stand with 
the air tankers that we authorized at one point in time because 
the Forest Service is down to, you mentioned the number of 
contract planes you are going to have. But how many C-130s do 
we have out there, and where are we with that?
    Mr. Tidwell. With the transfer of the planes from the Air 
Force, to the Forest Service, we flew one of those C-130s last 
year. We will have one this year. We will not have all of them 
operational until 2019. We do have our next generation planes 
that are on exclusive use contracts. We also still have our 
legacies.
    So this coming year we will have 21 large air tankers under 
contract. There are probably another four or five that we could 
call up when we needed, plus we have our Modular Airborne Fire 
Fighting System (MAFFS) planes with the Air Force and Air 
National Guard to be able to provide. So we are in good shape. 
We are also moving forward with the acquisition of an aircraft. 
We have completed our aviation business case. It is my 
understanding that OMB has indicated they are going to sign off 
on it, so we plan to move forward with the acquisition of that 
aircraft this year.

                             BIG HORN SHEEP

    Mr. Simpson. One quick question if I could, Mr. Chairman. 
Last year the committee added language that directed the Forest 
Service and the BLM to conduct risk contact analysis, engage 
ARS, and convene a meeting among interested stakeholders to 
discuss solutions among other things on the domestic and wild 
sheep issue. Could you provide me an update on how that is 
going?
    Mr. Tidwell. Well, we are working with ARS, and the BLM, 
and others to be able to understand what is the real risk. More 
importantly, to then sit with the States to be able to identify 
where is the highest risk. Where are the places we need to make 
sure that we maintain big horn sheep? What are some of the 
other areas where there is less risk and there may be a greater 
need for the domestic sheep, and to be able to reach agreement?
    So this is how we are going to work with the States. They 
manage the big horn sheep. We want to be able to carry out our 
responsibility to ensure viability of big horn sheep 
populations, but at the same time do this in a way we are 
working together and prevent big horn sheep introductions into 
places it creates more problems in the future.
    If we can come to an agreement and have a plan, a State 
plan so that we are all together on this and we know that these 
areas we are going to maintain separation of big horn sheep. In 
this area over here, we may have some flexibility, and the 
State may not be the best big horn habitat anyway. So, that is 
an area domestic sheep should have priority on. But this is 
something we are going to work through with the States, and we 
are making, I think, some good progress in your State.
    Mr. Simpson. Thank you.
    Mr. Calvert. Mr. Amodei.

              STATE AND VOLUNTEER FIRE ASSISTANCE FUNDING

    Mr. Amodei. Thanks, Mr. Chairman. Chief, good to see you. I 
do not want to pick sides between Simpson and Cole. [Laughter.]
    But since you are supposed to lead, follow, or get out of 
the way. The House passed last year a bill that proposed to get 
rid of lands that were in-holdings, small parcels, not 
manageable as part of the forests generally. The Forest Service 
supported it. The Administration supports it. Can you talk to 
somebody in the Senate about getting off their ass and moving 
that? [Laughter.]
    You do not need to answer, but anyhow something to think 
about.
    I was in the Carson Ranger District last week, and I know 
your history goes through a ranger district in central Nevada, 
so I want to talk with you about the firefighting stuff. I am 
looking at the budget request this year, and I see that the 
line items which have been held kind of actually at flat 
funding for the last few years for local cooperation, State and 
Federal work, we got forest stewardship, and we have also got 
State fire assistance, and volunteer fire assistance has been 
at level funding. And while in this environment there are some 
days where level funding is a victory, I look at what has 
happened in the Service's budget over the last few years, and 
level funding is sometimes a precursor to getting zero'd out.
    I hear your statements about, hey, we ought to use the 
closest resource regardless of what it is. We do not need to 
have the discussion here in terms of the importance of initial 
attack and cooperation with local and State authorities and all 
that other sort of stuff. And so, as I sit here and look at 
fuels and fire and all that other sort of stuff, and it is just 
another moving part of the puzzle, but you are going, hey, why 
are we level funding these folks while we are proposing to 
increase suppression.
    And you get into that whole argument in terms of do we put 
it in suppression, do we put it in prevention, do we put it in 
thinning, although you said today, hey, thinning is a good 
thing, and I agree with you. But I am sitting here looking at 
this going, State assistance, by the way, in a State that you 
are not the BLM, and I know you are thankful for that every 
day, and I think you are right. But it is like, hey, for the 
communities that the Humboldt-Toiyabe plays a large part in, 
this volunteer and through the state forester stuff is pretty 
important stuff.
    So my question is, can I get together with Tom Hubbard and 
the folks in your office who develop that to have a better 
understanding of why that is level as we go forward in the 
discussion of this committee for that line item, because it is 
not sex and violence. Nobody is going to be able to make a 
commercial out of it. But in terms of operational, I think it 
is an important thing to take a look at? Can we get together 
offline?
    Mr. Tidwell. Yes, and also I agree with you. You will also 
notice that our preparedness request, that is not going up 
either because the need to put any discretion we have into 
paying the bill for fire suppression, it limits our ability to 
be able to be proactive and be preventive.
    Your point depends on our volunteer fire agencies 
throughout the country, not only in your State, but in Mr. 
Cole's State. That is our first defense. This statewide fire 
assistance is so important for us to be able to maintain, help 
those folks maintain their qualifications, and also have the 
equipment so that they can safely be able to carry out the 
initial attack. They do the majority of the initial attack in 
this country.
    When you look at that, the number of fires we had last 
year, the majority of them were on private ground. We work 
together, but your points are well made. We will make sure we 
set up some time with you to be able to share the information 
with you.
    Ms. McCollum. Would the gentleman yield for a second?
    Mr. Amodei. Sure.

                        FIRE FIGHTING TECHNOLOGY

    Ms. McCollum. You are talking about having funding 
available for prevention. Technology is now playing a role with 
the possibility of reducing suppression costs. There was a 
pilot project last year using drones out there so that we hit 
the fire right. We save lives. We can react in real time. Do 
you have money in the budget for more robust work with that? It 
is amazing. They are amazing, what they can do, because it is 
real time information.
    Mr. Tidwell. We are looking at how we can effectively use 
that technology. We have had some success in the past when we 
have used the military's craft in Mr. Calvert's State to be 
able to use that. So we are having to work that through also 
with FAA so that it can be part of the technology that we are 
using.
    One of the challenges that we have is that technology 
provides so much information that we have got to find a way to 
be able to manage that because we are looking at stuff. We need 
information instantaneously. We do not have the ability to look 
at a lot of different data. So that is one of the things we are 
also working on is to be able to use the information we really 
need to collect. I mean, it is incredible what is out there, 
and especially with the technology that the military has 
provided a few times.
    We had a large fire in California a couple of years ago 
where we were using an unmanned aircraft that was able to look 
through the smoke and identify. We actually had some hot spots 
that were outside the line. Our infrared flights would not have 
picked him up until that night, but we were able to actually 
pick it up right then and during the day.
    So it is definitely a tool that we are going to be using, 
but we are going to be working together, and also make sure the 
public is okay with it because then it raises those questions. 
At the same time, we cannot have the public flying theirs 
because we have had operations where we have had to shut down 
our air tanker operations and our helicopters because it is 
unsafe.
    So it is going to take a little while for us to work 
through this so that we can use the tool to help us, but at the 
same time the public can be reassured we are not doing it for 
anything but checking on the fire.
    Mr. Amodei. We have plenty of drones in Nevada. We fly them 
over Area 51 all the time. [Laughter.]
    Mr. Simpson. No, we do not, Mr. Chair. [Laughter.]
    Mr. Amodei. And actually I would kind of like at some point 
in time just an update because there was report language 
saying, hey, helicopter test in 2014, blah, blah, blah, how is 
that going. So what we will do when we set that up for whenever 
you do, we will make sure that all committee members are aware 
so that they can either attend or send staff.
    Mr. Tidwell. Thank you.

                              AIR TANKERS

    Mr. Amodei. Finally, I want to talk to you a little bit 
about the large air tanker program because I have looked at the 
2002 report after we had some bad stuff, and then your 
modernization stuff. And I am looking at the thing where you 
are getting Coast Guard C-130s and got to do all that stuff. 
And I have kind of a concern because the 2002 report says, hey, 
military long haul aircraft are under different load and 
stresses than basically close air support in a firefighting 
role, especially when the fire is big and not an initial attack 
trying to paint a line around a smaller area, and all the 
weather that goes with the fire.
    And I look at the C-130 stuff and I am going, do we have 
the initial records with this from the Coast Guard, or is it 
Groundhog's Day? And so, I have a concern about that with the 
FAA certification in terms of public use specified, and so I 
want to go over that more extensively offline. But, I mean, 
help me with is this not what we were doing in 2002 that that 
Blue Ribbon panel said you've got to quit doing this,you've got 
to instrument them, and you've got to maintain them for the 
role that firefighting represents, not takeoffs and landings 
hauling cargo, and stuff like that?
    Mr. Tidwell. Yeah. So FAA certifies it for the original 
purpose of aircraft, which was cargo from point A to point B. 
Our mission is different, and we have learned the hard way that 
it is additional stresses on aircraft, so we put together 
additional certification. A lot of it is just additional 
maintenance to be able to do the inspections on the wings to 
make sure we are not having any stress fractures or mental 
fatigue in those planes.
    So the C-130s that are provided by the private contractors, 
they are able to meet those. All of our new aircraft are 
meeting these. Our aircraft are going to meet these 
qualifications. It just provides that additional assurance, and 
it is airworthy to go from point A to point B, but that is a 
very different mission from what we do.
    Mr. Amodei. Okay. So I will look forward to talking with 
you more about that later. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you. Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman. Good morning, Chief.
    Mr. Tidwell. Good morning.

                           EMERALD ASH BORER

    Mr. Joyce. I have to tell you that one of the most stunning 
things to me being from Ohio when I got on this committee was 
the amount of money we spend on fire suppression. In Ohio 
obviously we have a different problem, and I noticed we were 
talking about flat funding and the Forest Health Management and 
Cooperative Lands account being flat funded. In Ohio, we have 
an aggressive problem with the emerald ash borer.
    Mr. Tidwell. Yes.
    Mr. Joyce. We have now found that the emerald ash borer is 
moving to other types of trees----
    Mr. Tidwell. Yes.
    Mr. Joyce [continuing]. Including in Ohio, they found it on 
the white fringe tree? I was wondering what, if anything, you 
plan to do with the flat budget to help local communities fight 
the emerald ash borer scourge.
    Mr. Tidwell. Well, we continue to work with APHIS--they are 
probably our key partner on this to be able to identify a 
solution. Right now with emerald ash borer, is about the only 
thing we are having some success, if we can get out in front of 
it and basically reduce the host trees, we can slow down the 
spread. That is very difficult when it is going through a 
community. People do not want to lose their ash trees, but the 
reality right now is you are going to lose them one way or 
another.
    So this is an area that our scientists have been working 
on. We just have not been able to come up with a solution. We 
are having some success to be able to do spraying in certain 
areas if there are certain places to be able to make that 
investment. The insecticide that we are using seems to be 
having some good success, but it is a very expensive approach. 
So we need to continue our research.
    It is just one of the realities. We had emerald ash borer 
around for quite a few years in this country, and then we 
stopped having cold winters, and all of a sudden they have 
spread all the way up into Canada now. It just indicates what 
we are up against, and I think we will be able to find a 
solution to it. And then the other thing we are working on is 
through genetics to be able to actually develop a species of 
ash that can resist the emerald ash borer, too. So, that may 
also be helpful if we can come back in and replant ash. They 
are a fast-growing tree. But those are the things we continue 
to work on.
    I would like to be able to have more funding, and I would 
like to be able to increase that, but I can say that about 
everything that we are doing. I understand the realities of 
where we are today with our budget concerns, and so we are 
doing our best to prioritize our requests.
    Mr. Joyce. Level funding, in some instances, is a victory.
    Mr. Tidwell. Yeah, well, it is. At times it is, right.

                     SPREADING OF INVASIVE SPECIES

    Mr. Joyce. Have you noticed it spreading to other trees as 
well, in your research?
    Mr. Tidwell. Yeah. Our scientists have, and I will be glad 
to get back with you and just provide you a full list of it. We 
are seeing with some of the other invasives, too, that we are 
predominantly on one species. They, too, adapt, and especially 
when they start losing their host tree. They are there, and 
especially if they are in the numbers. They start moving into 
different species. So we are seeing with a variety of species, 
it is one of the things the Canadians are very concerned about, 
especially if some of our invasives start moving into sugar 
maple. They are very concerned about the impact not only here 
in this country, but also to our neighbor to the north.
    Those are the things we are up against, to be able to slow 
down these infestations, and then also to stay in front of it 
so that if in this case we come up with a fix with ash at the 
same time that borer has already moved on to a different 
species, then we are just in the chase, and we need to get out 
in front of it.
    Mr. Joyce. You hit on a good point with the sugar maples 
because that is a big industry in our area.
    Mr. Tidwell. It is, yeah.

                      URBAN AND COMMUNITY FORESTRY

    Mr. Joyce. The source of fires in our neighborhood is 
mostly fireplaces. Over the years it has been hardwoods, but it 
seems that ash is what everybody is burning now because it is 
going down at a tremendous speed.
    In the Urban and Community Forestry Program budget 
proposal, there is a decrease of $4.354 million. While I 
understand that cuts have to be made, can you explain to me 
what the importance of urban forests is to our growing urban 
populations and why that fund would take a 15 percent cut?
    Mr. Tidwell. Well, once again, there is not a reduction in 
our request. It is just to move that amount of money into this 
landscape scale restoration account that allows the State 
foresters to have more flexibility. What we found last year 
with the funds that were available in that account, about 30 
percent of the funding was actually spent on urban community 
forests. So the State foresters are recognizing the need there, 
and so it gives them more flexibility.
    So we have not reduced our request. We just moved some of 
the money into this other account. But based on what we saw 
last year, it probably will actually increase the amount of 
funding that is going into urban and community forests. Eighty-
three percent of Americans now live in an urban setting, and we 
have I think over 130 million acres of urban forests in this 
country. That is a huge asset if you think about the carbons 
being sequestered, the water that is being filtered, and the 
quality of life.
    All our research shows you plant trees, your property value 
goes up, crime goes down, and you save energy. It is an 
incredible resource that we have, but we've got to stay on top 
of these invasives. Otherwise, it could become so expensive to 
maintain.
    Mr. Joyce. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you. Ms. McCollum, any further 
questions?

                        GOOD NEIGHBOR AUTHORITY

    Ms. McCollum. First, I would like to point out the funding 
that is in the budget for the Office of International Forestry 
Programs because doing the detection right helps us get ahead 
or stop invasive species from coming in. So that is very, very 
important.
    Tying things together, I have to agree with Mr. Simpson. If 
you look at Minnesota, we are right on the cutting edge where 
the forests start building up again. The one thing that we have 
lost in the metropolitan area, and we are fighting very hard to 
keep, is public access for swimming, sailing, fishing and other 
recreation. So we are very protective of our public lands.
    I would like you to talk more about this Good Neighbor 
Authority Master Agreement. You have one with Chippewa and 
Superior International Forest and the Minnesota Department of 
DNR. When you mentioned marijuana eradication, one of the 
things our National Guard was doing, before it was so heavily 
redeployed over and over again both in Iraq and Afghanistan, 
was to get some of the flying time in looking over the forests. 
They would work with the Minnesota DNR as well as our national 
forests on some of the things that were going on with marijuana 
eradication.
    Can you talk about some of these State-to-State agreements 
that you have going on with the Forest Service and how 
effective that is in saving money and heading off tensions in 
the future?
    Mr. Tidwell. So the Good Neighbor Authority is something we 
have had for a couple of States for quite a few years, and then 
with the last Farm Bill it was expanded across the country. We 
now have, I think, 10 or 11 States where we have an agreement 
in place.
    What it does is it allows us to be able to work with the 
State to be able to look at projects that maybe go beyond the 
National forest, or, in some cases, just on the National 
forest, and be able to use State resources to help us get more 
work done. Then the receipts that come off of that are then 
available for us to then do additional work.
    It is one of the areas that I think when we talk about some 
of the tension between State management or for the Forest 
Service you manage the public lands. These are the sort of 
things that I want to spend our time on, because initially we 
are having good success to be able to increase the capacity, 
actually get more work done, and by working with our States. It 
is like everything, we are in a learning process. Not every 
project is going to probably work out as well as we hope 
initially. But over time, I think it is going to be another way 
for us just to get some additional work done.
    It is also helping, I think, to address this question about 
is there a better way for us to work together, and this is one 
of the authorities that I think is going to really prove out to 
be really helpful, and I want to be able to go beyond just 
forest restoration. I think there are a lot of things that we 
can be doing working together with the States under this 
authority besides just forest restoration. That is our primary 
goal right now.

                         MARIJUANA ERADICATION

    As far as with the marijuana eradication, we use the Air 
National Guard units in a lot of places to be able to fly 
people in, and in the past have been able to clean up. In some 
States, a lot of their Guards have been deployed and do not 
have the capacity they used to have. This additional request 
allows us to be able to rely on a better partner so that we are 
not just always asking, but we can also be there as a partner 
and do these cleanup operations.
    Ms. McCollum. Thank you.

              DEPARTMENT OF DEFENSE: WILDLAND FIRE SUPPORT

    Mr. Calvert. Thank you. One quick thing. You mentioned 
technology, and our staff was out in California, and they 
witnessed that your employees are kind of jerry rigging their 
own technologies at some point. They are using their iPads, 
their iPhones. There is no real policy or guidelines that are 
set to utilize new technology more effectively.
    We did use Predator for the Rim Fire. If you remember, we 
had a hell of a time getting permission to unleash that 
technology. I had to call the Secretary of Defense----
    Mr. Tidwell. Thank you.
    Mr. Calvert [continuing]. At that time was Chuck Hagel, and 
he was on the airplane, and tell him to please sign a memo that 
is floating around that airplane someplace to allow us to use 
the Predator on site.
    Since then, have there been any conversations with the 
Department of Defense to have more efficient, effective 
coordination when the fire first starts. I have been told if 
you can get that resource above the fire immediately, it helps 
direct the other aircraft, find the hot spots, and maybe put 
out the fire faster. The other aircraft cannot see that through 
the smoke, and using advanced technology to interface with 
firefighters that are on the ground with their iPads and 
iPhones where they can immediately know where they need to be, 
and where to go.
    Mr. Tidwell. Mr. Chairman, it is one of the things we do 
need to sit down with the folks in Defense to be able to get 
something in place when we need that. Ideally we will be able 
to develop different unmanned flying aircraft that we can use. 
Predators are very expensive, and it goes way beyond anything 
we need there. Right now it is one of the tools.
    So your point is well taken. I will ask the staff to be 
able to look at what we can have in place until we can get our 
program established because when the State requests it and it 
is being flown at the direction from the Governor, then we need 
people like yourself, your support, and then we are able to do 
it. We need to be able to have that so that when there is a 
situation, it is just like here it is, it is available.

                           MILITARY AIRCRAFT

    Mr. Calvert. In San Diego when we had fires, we could not 
get the Marine Corps to use their helicopters and do spotting. 
I remember it took us 2 days to get permission to use the 
Marine Corps helicopters. And the Marines wanted to help, but 
they had to get a sign-off from here in Washington. Sometimes 2 
days is a critical period of time where we could not use those 
spotters to bring in the air resources to put that fire out.
    Mr. Tidwell. We are doing a better job now to be able to 
quickly justify using the military aircraft so that we are not 
violating the Economy Act that requires us to use the 
contracted aircraft first. We have all those committed. We are 
learning how to be a little bit more nimble on that so that we 
can provide the insurance and we are not violating the Economy 
Act. There is an urgent need, and, yes, it may only be for a 
day, but we need it now. All of our other aircraft are 
committed in other places in the country.
    So I think in the future we will be able to have those 
resources available much faster than what we have had in the 
past.
    Mr. Calvert. Good. Okay. Are there any other questions?

                          GRAZING FEE PROPOSAL

    Mr. Simpson. If you do not mind, I would just like to ask 
one question if I could. Your grazing fee proposal, tell me 
about it.
    Mr. Tidwell. Well, it is a proposal to have an additional 
charge above the grazing fee of $2.50 per head out there.
    Mr. Simpson. What is the grazing fee? What is the AUM now?
    Mr. Tidwell. It was $1.65 last year, and I think it is 
going up to, actually it goes up to the maximum of 25 percent. 
So somebody can do the math here.
    Mr. Simpson. So this would be more than double?
    Mr. Tidwell. Yes. And the money would then be used for us 
to be able to address the backlog of administration and then 
also to be able to move forward on implementing the Rescission 
Act to get the Allotment Management Plan NEPA done. It is a 
proposal to find a way to be able to move forward to be able to 
assure that we are doing our job to make sure we can continue 
to graze, and at the same time to deal with the budget 
complications. I mean, ideally I wish we could be just asking 
for an increase in grazing. It is one of the issues that had 
been brought up with Mr. Stewart.
    We have so few folks out there. Where we used to be able to 
sit down and have the discussions with permitees and county 
commissioners, and basically a lot of one-on-one discussions. 
We just do not have the folks there anymore. So, that is one of 
the things that is added to some of the complications that we 
are seeing.
    So it is a proposal to be able to collect some additional 
fees. When I look at what most States charge, we still are 
going to be less than what States charge for grazing.
    Mr. Simpson. Would this provide for full cost recovery for 
the administration of the program?
    Mr. Tidwell. I would have to get back to you on that.
    Mr. Simpson. Thank you.
    Mr. Calvert. Thank you. Mr. Kilmer.

                        STEWARDSHIP CONTRACTING

    Mr. Kilmer. Thanks, Chairman. I have one question. You 
mentioned in your opening remarks the value of stewardship 
contracting in terms of taking revenue from timber sales and 
plowing it back into that forest. Unfortunately that doesn't 
work on other timber sales. It is my understanding that the 
Forest Service actually has authority that was expanded in 
2005, the K-V authority, Knutson-Vandenberg authority, but the 
Service does not really use it. That does not make sense to me. 
Can you tell me why?
    Mr. Tidwell. We are using our authority under the K-V, 
Knutson-Vandenberg. We have been using that for years. The 
problem that we are running up against is today we have 50 
percent fewer foresters than what we used to. We have these 
different authorities, but we need to have people that can 
first understand and be able to implement it.
    We are getting to the point now where we have a lot of 
NEPA-ready projects. They are ready to go forward and to be 
able to restore forests. We do not have the staff to be able to 
get out on the ground because of the reductions that have 
occurred over the last decade. So it is one of the things 
through the Good Neighbor Authority that would allow us to be 
able to make full use of our authorities and be able to 
increase the capacity. But through our authorities under the K-
V plan, it is one of the things that we do implement.
    The difference, though, with our stewardship contracting, 
and we are doing about 30 percent of our forest management work 
now under stewardship, there is a great level of trust. I can 
get the same result on the ground whether I use a timber sale 
or a stewardship contract, and you would get the same result on 
the ground. I use the stewardship contract. There is a higher 
level of trust with folks that sometimes are concerned with 
what we are doing, and so it requires a collaborative effort.
    The other key difference is that with the stewardship 
contract, we address all the needs of that landscape together 
at one time versus a timber sale, we would cut the trees, use 
K-V funds to come in there and do some restoration work. A 
stewardship contract provides that certainty, that guarantee 
that we are going to address all the needs on the landscape 
under one contract versus, yes, we will do the timber sale, 
and, trust us, we will get around to doing the work that you 
are really interested in.
    So those are the two differences, and so we want to use all 
of our authorities, but that is the key benefit with the 
stewardship contract. We can do some of the same things under 
the K-V, but we just have not been able to build that level of 
trust that we need to be able to continue to move forward.
    Mr. Kilmer. Thanks. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you. I know there are a number of other 
questions. We will submit them for the record. And I discussed 
before some groundwater issues that I would like to get on the 
record also. So any questions, please submit them and we will 
get them answered in a timely fashion by the chief.
    Mr. Calvert. I appreciate your being here today. Mr. Dixon, 
I appreciate your being here today. And we are adjourned.
    Mr. Tidwell. Thank you.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
   
    

                                       Thursday, February 25, 2016.

                         INDIAN HEALTH SERVICE

                               WITNESSES

ROBERT McSWAIN, PRINCIPAL DEPUTY DIRECTOR, INDIAN HEALTH SERVICE
MARY SMITH, DEPUTY DIRECTOR, INDIAN HEALTH SERVICE
ELIZABETH A. FOWLER, DEPUTY DIRECTOR FOR MANAGEMENT OPERATIONS, INDIAN 
    HEALTH SERVICE
GARY J. HARTZ, DIRECTOR, OFFICE OF ENVIRONMENTAL HEALTH AND 
    ENGINEERING, INDIAN HEALTH SERVICE

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. Good morning, and welcome to this oversight 
hearing for the Fiscal Year 2017 budget for the Indian Health 
Service.
    Funding for Indian Country has been a nonpartisan priority 
of the subcommittee for many years now. Working together, we 
have grown funding for American Indian and Alaska Native 
programs at a greater amount and at a faster rate than any 
other programs in the appropriations bill. As a result, 
contract support costs are now fully funded, freeing up 
operation funds, and affording tribes the capacity to run 
additional programs rather than relying on the Federal 
government to do it for them.
    Funds to meet extraordinary medical costs to victims of 
disasters or catastrophic illness which used to run out in the 
middle of the year, and, thus, spawn the common refrain in 
Indian Country, ``Do not get sick after June,'' are now finally 
in Fiscal Year 2017 estimated to last the entire year.
    More children are receiving proper dental care. More teens 
are receiving the help and support they need to battle 
substance abuse and suicide. More providers are being recruited 
because we have been helping to pay their student loans. More 
new care facilities are opening their doors each year.
    The list of accomplishments go on and on, and we are deeply 
proud of our work. But we also recognize that we still have a 
long way to go before health disparities in the American Indian 
and Alaska Native population compared to the Nation as a whole 
become a thing of the past.
    I hope that today's hearing will help highlight the 
measurable differences that reflect funding increases that have 
been made. As a subcommittee we need to be able to communicate 
to our colleagues in Congress that the sacrifice we make 
elsewhere in this appropriations bill in order to increase 
funding for Indian Country is actually saving lives.
    Saving more lives, however, is not simply a function of 
more money. The Indian Health Service is battling a management 
crisis in the Great Plains area, for example. The crisis 
reached a new low point recently when the Center for Medicare 
and Medicaid Services, CMS, terminated its agreement with 
Obama-Winnebago Indian----
    Ms. McCollum. Omaha.
    Mr. Calvert. Omaha, excuse me. Omaha. After Denver's win, I 
should know that. Omaha. [Laughter.]
    Omaha-Winnebago Indian Hospital because the conditions at 
the hospital posed an immediate jeopardy to the health and 
safety of patients. Just a few months later, CMS threatened to 
do the same at two additional Indian Health Service hospitals 
in the Great Plains area. All three hospitals are directly run 
by the Indian Health Service rather than by the tribes, and all 
three remain open for business under intense management 
scrutiny.
    That said, it is not my wish to focus today on a hearing on 
the crisis in the Great Plains. The Senate Committee on Indian 
Affairs has already held a hearing on the matter, and I doubt 
it will be the last. Also I do not wish to imply that funding 
and management are unrelated. We all know that it takes money 
to hire and retain good people.
    My point is this. When the Indian Health Service struggles 
with management and accountability, the subcommittee struggles 
even more to find the money, the offsets, and the votes to fund 
increases for the Indian Health Service.
    The President's Fiscal Year 2017 budget is particularly 
challenging. The bipartisan Budget Act of 2015 increases Fiscal 
Year 2017 discretionary budget authority by less than one-tenth 
of 1 percent. And yet the President is proposing an 8 percent, 
$377 million increase for IHS without any realistic offsets 
elsewhere in the budget. Of the proposed increase, $241 million 
is just to keep pace with tribal and Federal pay costs, 
contract support cost, medical inflation, and population growth 
in order just to maintain current levels of service.
    Program increases developed in close consultation with 
tribal leaders, which are necessary to staff newly constructed 
facilities, and to make any real progress to decrease the 
health disparities of American Indians and Alaska Natives 
compared to the Nation as a whole, are an additional $136 
million.
    With us today from the Indian Health Service to get into 
the details and answer questions are principal director and 
current acting director, Mr. Robert McSwain--it is good 
timing--and his second in command, Deputy Director Mary Smith. 
Welcome, Mr. McSwain, and welcome aboard, Ms. Smith, I look 
forward to your testimony today.
    But before opening statement, I would like to ask our 
distinguished ranking member, Ms. McCollum, for any opening 
remarks.

                    OPENING REMARKS OF MS. MCCOLLUM

    Ms. McCollum. Thank you, Mr. Chairman. I would also like to 
join you in welcoming our witnesses here today, and I look 
forward to hearing their testimony.
    Funding for the Indian Health Service has been an area of 
broad nonpartisan support--I think even stronger than 
bipartisan--and cooperation in the past several years. However, 
last year's events in the Great Plains region, as the Chairman 
pointed out, make it clear there is more to be done and that 
there are still obstacles to us doing more.
    We have a moral and legal responsibility to provide 
healthcare for Native Americans. When we fall short, it is not 
just a violation of treaty agreements that we hold with Native 
Americans, but it is a violation of a trust that we share. The 
failings at Omaha-Winnebago and Rosebud are alarming. Just 
alarming.
    Despite the increase in resources this Subcommittee has 
provided, it is clear that resources alone will not solve all 
these problems. We also need permanent employees that have the 
skills needed to serve the region in a culture that fosters 
excellence in patient care. I am hopeful that the top to bottom 
audits that the Service is undertaking in the region will 
provide the assurances that these incidents will not happen 
again, and the guidance necessary to improve the entire Indian 
Health Service.
    In Fiscal Year 2017, the Indian Health budget includes $1.5 
billion in discretionary funding, a $377 million increase over 
Fiscal Year 2015 enacted level. Much of that increase, $159 
million, would be used to cover increases in the cost of 
providing the same level of service. $82 million would go 
towards increased contract support costs, and $103 million 
would expand and strengthen the Service's programs. I am 
pleased to see the budget request includes a $12 million 
increase in the Indian facilities line for construction of new 
quarters for Indian Health Service staff.
    The problems of the Great Plans region have made it clear 
that recruiting and retaining permanent staff must be a 
priority for the Service. The quarters budget increase will 
help the Service bring more permanent staff on board in these 
very isolated locations.
    It is clear that there is a mental health crisis in Indian 
Country. Pine Ridge Indian Health Service documented 18 cases 
of suicide and 308 cases of attempted suicide last year. That 
is nearly 1 case per day. Suicide is the second leading cause 
of death for Native American youth age 10--age 10--to 34. I am 
pleased that the budget request includes more than $40 million 
in new resources to tackle this problem. However, the solution 
in the mental health crisis does not come from healthcare 
alone. So I am interested to hear how the Indian Health 
Service, working with other agencies, will ensure that Native 
Americans have the access to quality education and housing, as 
well as economic opportunity.
    The Administration's Generation Indigenous Initiative seeks 
to coordinate its efforts in Indian Country, and I am 
interested in learning more about Indian Health Service's role 
in these efforts, and how tribal members can participate in the 
process.
    Finally, I am concerned about the lack of dedicated 
resources in the budget to combat opiate addiction. In addition 
to treating addiction, we must develop the tools and pain 
management to ensure that patients in chronic pain do not abuse 
their medication later. I want to stress again, I think it is 
wonderful what the President has put in for drug intervention 
for youth. But in talking to youth recently in my office over 
the past 3 weeks, they are talking about parents and people 
over the age of 34 that they are in contact with that are 
either abusers or trying to quit the problem. So we need to 
look at this as a family issue, as a whole Nation problem.
    Mr. Chairman, I want to thank you for holding this hearing 
today, and I look forward to working with you, and Chairman 
Cole, and everyone on this committee on these important issues, 
and doing our part to build healthy tribal communities, making 
the whole United States healthier.
    Thank you, Mr. Chair. I yield back.
    Mr. Calvert. Thank you. Mr. McSwain, you are recognized for 
your opening statement.

                     Opening Remarks of Mr. McSwain

    Mr. McSwain. Mr. Chairman and members of the committee, 
first of all, let me just apologize deeply for being late. It 
is not like me to do this, and I know I did not start off on a 
good foot. And I just want to, on behalf of the Agency, beg 
your indulgence.
    As pointed out, I am the Principal Deputy Director of the 
Indian Health Service, and accompanying me today is Mary Smith, 
the Deputy Director, and also Elizabeth Fowler, Deputy Director 
for Management Operations, and Mr. Gary Hart is Director of the 
Office of Environmental Health. I think we have got the team 
here to be able to answer any and all questions that the 
committee has about our budget request.
    I am pleased to provide testimony on the President's 
proposed 2017 budget for the Indian Health Service, which will 
allow us to continue to make a difference in addressing our 
Agency's mission to raise the physical, mental, social, and 
spiritual health of American Indians and Alaska Natives to the 
highest level.
    The 2017 President's budget proposes to increase the total 
IHS program to $6.6 billion, which will add $402 million to the 
Fiscal Year 2016 enacted level. And if appropriated, this 
funding level would represent a 53 percent increase in funding 
for the IHS since 2008. And I want to thank the committee and 
the Congress for that support over the last few years.
    The overall funding increases proposed in the President's 
budget are consistent with tribal priorities. We consult with 
the tribes on what we want to ask, and so this represents their 
ask as well as the Administration. And these will continue to 
address longstanding health disparities among American Indians/
Alaska Natives compared to other Americans, specific 
investments including expanding behavioral health and mental 
health services, improving healthcare quality, capacity, and 
workforce, supporting self-determination by fully funding 
contracts or costs of tribes who manage their own programs, and 
ensuring increased healthcare access through addressing 
critical healthcare facilities' infrastructure needs. As you 
will see, I mean, we have had a great series of increases that 
have enabled us to replace facilities that are on average 33 
years old per facility.
    The President's budget includes funding for full, what we 
refer to as current, services. Full Pay Act. It is pay costs, 
inflation, and pop growth because a population does grow and we 
respect that, and we must maintain pace. And these are critical 
for just simply maintaining the budgets of IHS and tribal 
hospitals, clinics, and other programs to current levels. That 
gives us a starting point.
    The budget also includes increases of $49 million, of which 
$46 million will be focused on critical behavioral health 
services, including GEN-I certainly and suicide prevention 
projects, and also the integration of medical and behavioral 
health into our system so that there is a behavioral health/
primary care integration. It has also continued the whole of 
behavioral health in tribal communities between medical and 
behavioral health and tribal community organizations. We have 
found that there are several programs out there are granted by 
other agencies. It is a matter of us working together and to 
integrate those into a complete program for those tribal 
communities.
    The budget is to help implement Zero Suicide Initiative. 
And the Zero Suicide Initiative is, simply put, we run a 
healthcare system, and the healthcare system means that our 
staff are trained, not only our staff, but the tribal programs 
that are operated, that we are aware of high-risk people coming 
through the system, so that they are not just behavioral health 
people in the facility, but all the providers are trained to be 
aware of those indicators that would show that people are at 
risk. So we do not just simply have them come in for their 
usual medical checkup, but we are also observing so that we are 
training for purposes of zero suicide.
    A youth pilot project, something that the tribes have been 
asking for for years, and that is after care. So we have these 
nice youth regional treatment centers. They go and they get 
treated, then they return. What about after care? So we are 
making an investment for after care. Domestic violence 
prevention to expand the numbers of grants to 30 additional 
Indian tribal organizations, and certainly funding to expand 
the Catastrophic Health Emergency Fund, and a bit for urban 
programs as well because Indian people do find themselves in 
urban programs, and that is a major priority for us.
    Improving the quality of healthcare in the Indian health 
system is a primary objective of this budget, and it builds in 
to the point of investing in health information. Data drives 
our decisions, and we want a better data system that will help 
us do that. We have the electronic health record, and we can 
talk more about that as we go on, as well as we are moving 
towards all 27 hospitals under a hospital consortium that is 
based in quality measures.
    The whole notion of the infrastructure for new facilities, 
and we have got things for addressing five newly-constructed 
facilities for tribal clinical leases and maintenance costs 
specific to where tribal space is ineligible for maintenance 
and repair, and some additional money to begin to address the 
backlog. As you all know, our backlog and basic maintenance 
repairs are around $473 million, so we have made an investment 
to reduce that as well.
    In addition, this budget will enable us to complete the 
Phoenix Indian Medical Center Ambulatory Care Center, and begin 
a design of the White River Hospital, continue construction of 
the Rapid City Health Center, and to begin the construction of 
Dilkon Alternative Rural Health Center on the Navajo, and to 
fund replacement, additional, and then, of course, as mentioned 
by Member McCollum, that we have a new venture in addressing 
the need for quarters. Staffing quarters is critical in some of 
our remote locations, and we put investment there to begin the 
process. We are still looking at where do we need to go with 
this, and we will do that.
    Supporting self-determination. Again, full payment, and I 
want to just simply thank the committee for urging us in that 
direction. And we are there, and I think we have got a lot of 
good things to report on that front. We have got a couple of 
legislative proposals that I want. One of them is to address 
the very definitions of ``Indian'' in the Affordable Care Act. 
We have got several definitions, and so depending on how it is 
defined is how the law gets implemented. We would like to see 
that addressed in our proposal.
    And finally, on our legislative proposals, another one is 
the special diabetes program. Very successful program for us in 
terms of a chronic care model, and we have got some data that 
we can share with you that certainly shows where we are 
beginning to slow the progress of diabetes in Indian Country, 
particularly amongst the youth.
    And I know that you have mentioned it and we can talk 
about, but we are looking very closely at the Great Plains 
hospital. In this regard, a real focus on recruitment and 
retention of providers, certainly the housing issue, working 
more closely with our sister agency, the Center for Medicare 
and Medicaid Services. And what their findings are, I can tell 
you on the record, what they have found is unacceptable to us, 
and certainly has drawn the attention of Secretary Burwell. And 
she has put in place an ability to respond not only to the 
Department, but assist the Indian Health Service in addressing 
these issues.
    I want to close by emphasizing that the challenges we face, 
I know that working together in partnership with Indian Country 
and the Congress, we can improve our Agency to better service 
tribal communities. And I appreciate all your efforts to 
provide us the best possible healthcare services to the people 
we serve, and in helping to ensure a healthier future for 
American Indians and Alaska Natives.
    With that, I close, and the team will answer any questions 
that you might have.
    [The statement of Mr. McSwain follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Mr. Calvert. Thank you, Mr. McSwain. Mr. Cole will start 
off the questioning.
    Mr. Cole. Thank you very, Mr. Chairman, and let me just say 
publicly, I want to thank you and our ranking member for all 
you have done over the last few years in this area in your 
respective positions now, but just even before that when you 
were simply members of the committee. It has made a big 
difference in a lot of lives.
    And I want to congratulate the Administration, too, in this 
regard. This has been a great area of bipartisan cooperation 
and where I think the resources that have been placed there 
have broadly, you know, made things better, have saved lives, 
so there is a lot to be proud of here. But as you pointed out 
in your opening remarks, there are always things to be 
concerned about.
    I am going to have to leave literally after my question and 
your answer, Director, because I have got to chair a hearing 
with Secretary Burwell at 10:00. So I have got to go do that, 
and I am sure we will discuss this issue in that hearing.

                              GREAT PLAINS

    So I do want to give you an opportunity to talk at length 
on this Great Plains CMS issue. I am very concerned and 
troubled when you have three difficult facilities. It suggests 
something systemic is a problem. And so, one, I would like to 
know specifically what are the findings and what has been done 
to correct them for those three facilities. And then, you know, 
what you are doing system wide to make sure this is not three 
needles in a haystack that suggest there are more needles.

                             JOINT VENTURE

    Last point if you would touch on it, would we find the same 
thing in tribally operated facilities as we are finding in 
these? Is there any disparity in ratio? And, again, if so, why, 
or do you think these issues that we found in these three 
facilities we would find if tribal facilities were looked at? 
Is this random? Again, I want your thoughts, and I will say I 
tend to have a bias in favor of tribes basically, you know, 
joint venturing and operating their own facilities.
    Nobody holds you accountable like your own people do. And I 
know in our tribe, when we took over the operation of our 
facilities, or began to, in the 1970s, it made an enormous 
difference. You know, almost immediately we saw wait times come 
down very dramatically because if somebody is sitting there 
waiting too long, they would simply call a tribal legislative 
official, and you could get your fingers around their neck 
pretty fast. So they were just responsive.
    On top of that, we developed people in our own tribe, gave 
them opportunities to acquire professional skills, and manage 
big budgets. And, frankly, they have moved on into other 
directions now. It gave us a cadre of really trained and 
talented people.
    I just want to get your thoughts on that, on the contrast 
between, again, IHS facilities and tribally operated 
facilities.
    Mr. McSwain. Thank you for that question, Congressman Cole. 
There are very important distinctions, and one of those is on 
the Federal side we are governed by rules, regulations, pay 
systems, and tribes have the ability to be flexible. They are 
not bound by the pay schedules, so they can be very competitive 
in doing so, as well as the regulations that govern. But they 
are also governed by certainly the same rules we are when it 
comes to certification by the Center for Medicare and Medicaid 
Services.
    We have not had any citations for tribal facilities, and 
clearly I think a lot of it has to do with when the tribes 
operate, they take pride in managing it very literally. I mean, 
of course, as you mentioned, when there is a complaint by a 
tribal member, they know where to go. They are running it. They 
go to their council. And when we are running it as we do with 
27 hospitals and some 200-plus health centers across the 
country, they are staffed, and we run according to Federal 
regulations and Federal requirements.
    And the biggest challenge, and this segues into the 
challenges I am seeing in the Great Plains area. We are 
addressing currently the current findings by CMS in those three 
facilities, and they center around having trained, qualified 
providers. And we are trying to carry out the mission with a 
combination of contractors, a heavy contract load. So if we can 
hire permanent staff, and I think it was mentioned earlier that 
the biggest solution is to have permanent staff there.

                          STAFFING AND HOUSING

    But it is a challenge. Many of these locations are very 
remote, very isolated, and not only is it a housing issue, 
which we are struggling with and we put forward the notion. And 
let us face it. I have talked to many of the tribal leaders, 
and they have a housing program. They do not have enough 
housing just for their own members. You know, they have 20 
people in a house. As I talked to one tribal leader, he says I 
cannot give you a house to provide for staff. I need those 
homes for my own members. I will certainly work with you on 
space and so forth if you can build them, ergo a request for 
additional housing.
    Housing is a real challenge, and we found that out when we 
were beginning to address the issue with Pine Ridge suicides. 
We could send healthcare workers up there, but they had to 
drive 60 to 70 miles.
    Mr. Cole. Yeah.
    Mr. McSwain. And they were not going to stay there. And so 
we immediately began putting in place some temporary facilities 
on the short run and then some modular. So those are the 
challenges in the Great Plains area which are probably not 
shared other places in the system.
    Mr. Cole. Yeah, and let me just make this point, and then I 
will yield back my time that the chairman has been generous 
with. I think that is true. I have been to the Rosebud. Ms. 
McCollum and I were on the same trip there and seeing the 
facilities, and seeing the challenges in terms of the housing. 
And I want to commend you for doing it.
    While I am very concerned about this, I want you to know I 
see a lot of these things as functions of a system that has 
been historically underfunded. I do not blame this on the 
Indian Health Service or what have you. I have some idea of the 
scope of what you have to deal with literally for generations. 
And it is only the last few years, honestly, that we have begun 
to give you the resources to make the difference that you are 
making.
    But I would commend you to keep really looking at this 
because, as the chairman suggests, this is the sort of thing 
that does make it difficult for us to convince our colleagues 
to continue the fund the Service, which I think is 
indispensable. And while I have a bias towards tribes operating 
on their own, that is a tribal choice. I mean, I respect tribes 
that choose to do it in a different manner, and they are best 
situated to make decisions for themselves as to which would 
work better for them. And it should not be imposed on them from 
up here.
    So just thank you for your good work, and look forward to 
working with you, look forward to working with my friend, the 
chairman, and the ranking member, and the other members of this 
committee to see if we can continue to build on the progress of 
the last few years.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman. I would just like to 
follow up on that. It is not just housing in the Great Plains 
area. It is housing throughout Indian Country. It is a school 
for the employees to send their children to. The Chairman, and 
I, and the members of the committee are working on improving 
the situation in schools, being able to recruit and retain 
teachers through alternate housing. If you are a person who 
comes to work at one of these IHS facilities, or even an 
educational facility, we should ensure that high-quality 
daycare is available.
    This is a whole-of-Nation challenge. President Obama has 
made it a priority to have all the agencies sit down and work 
together on these problems. You do not address a whole problem 
by siloing it, and checking off a box, and saying we took care 
of it. So I appreciate that, and I think the committee is going 
to ask at some point what we are doing throughout the agencies 
to help you address this problem and other problems.

                             MENTAL HEALTH

    This also goes to a whole-of-family issue. As I mentioned 
in my statement, and you also touched on, there is a mental 
health crisis in Indian Country, and Native youth have been 
particularly hard hit. The budget request does have additional 
funding for tribal youth around mental and behavioral issues. 
We could talk about this for hours, but I am just going to lay 
out a few questions. If you could, give us a general 
observation and then get back more fully to the staff.
    Please describe your request and how these initiatives are 
going to improve mental health outcomes for youth. Nationally, 
not only in tribal areas, there is a huge shortage for capacity 
for youth with psychiatric issues, mental health issues. So I 
want to know how the Service is going to work to help youth in 
this way.
    Let me just describe what I have seen in Indian Country. 
Should a youth and their family reach out, they are sent to a 
regional treatment facility which can be hours and hours away 
from the family. When a youth is having a challenge, that 
usually means quite often that the family is having a 
challenge, or if the family is not having the challenge, the 
family needs the supports put in place for when that youth 
comes home. Usually that means family counseling, or addressing 
other issues and maybe substance abuse problems in the family 
so the whole family is being treated.

                            SUBSTANCE ABUSE

    I hear that directly from youth in my office. I was in Red 
Lake, and they are seeing their out of home placement go 
through the roof, in part because of substance abuse in the 
family, which affects a child, or a child is living with a 
grandparent who needs more tools in their toolbox when the 
child comes home from treatment.
    I want to know what you are doing to bring this assistance 
closer to home. Building a new regional treatment facility is a 
good step, but it is not the only step. If that is our only 
focus, we will have failed these children, and we will have 
another generation suffering from post-traumatic stress.
    Could you kind of give us an overbroad description of what 
you are doing to address the whole issue? I am pleased that you 
are asking for a new regional treatment facility, but that is 
not the full solution. Then please follow up with the staff in 
greater detail.
    Mr. McSwain. Thank you for that question, Congresswoman 
McCollum. This is a real challenge obviously in many of our 
communities. And the biggest challenge is the available 
resources and available access points for behavioral health and 
mental health in the communities.
    What we are learning is as we work hand-in-hand with the 
tribes and we are doing that, and I have to go back to Pine 
Ridge as a prime example because we focused on Pine Ridge. A 
year ago when they had 18 suicides. I am happy to continue to 
hold my breath because we have made it through the winter 
months now with no suicide since November. I think a lot of it 
has to do with attention.
    And I think your other comment about the Indian Health 
Service cannot do it alone, we recognize that. And I want to 
thank Secretary Burwell and Deputy Secretary Wakefield for 
literally getting us all together and saying, okay, all the 
agencies in the Department have a role to play. And then they 
are reaching out beyond that. Clearly the Secretary is reaching 
out to other departments that could help.
    So we have got to work all together to begin to address 
this issue. SAMHSA is a good partner. They are providing 
resources to the communities, the tribes, and their programs. 
Our goal is to ensure that we link them with our provision of 
care to their community action groups.
    The agreement we have, and you mentioned the schools. We 
have entered into an agreement with the BIA to have mental 
health workers in the schools if they give us just a little bit 
of space. I know space is hard.
    Ms. McCollum. Yeah.
    Mr. McSwain. But we can have someone there that can begin 
to counsel the youth in the schools, and make them available to 
the communities, and we are building a model. And if what we 
are doing is, in fact, working, then we will need to do more of 
that in other places, because as I have traveled around the 
country with listening sessions in 12 areas last year, it is 
not just the Great Plains area. It is the Navajo, it is the 
Northwest, it is Alaska, it is California, it is the Arizona 
folks.
    I mean, everyone is very concerned about their youth and 
what is available. And you are right about we can build as many 
YRTCs, or youth regional treatment centers, but, again, someone 
has to get them there, and then return them, which is what we 
are finding out, and we have proposed that in the budget. We 
want to do something about after care, and so that there is 
more watching of the kids when they return and for providing 
those safe zones. I think there was a hearing that was held 
last year about the cost of suicides. And one witness said 
schools are a safe zone. So this is because of families and the 
struggles at home.
    So all of this comes together, and I just want to say that 
what we are learning in Pine Ridge as a model, we can 
replicate. But you are right. There is a big debate going on 
presently about trying to build another facility in a far 
location, and whether or not that is the best thing to do 
because the families want to be local. And so, then the 
challenge is where do we put it locally?
    And I know that with the Great Plains area, we are testing 
with a strategic plan, and I will ask Mary Smith to respond to 
that because I think it is an important thing we are doing. We 
are doing a lot of immediate response, but then the long-term, 
how do we sustain it and keep it going? If you do not mind, I 
would like to have Ms. Smith respond to the strategic plan 
layout, if you would, please.
    Ms. McCollum. Okay.

                             STRATEGIC PLAN

    Ms. Smith. Well, thank you. Hi, I am Mary Smith. I am 
Deputy Director of the Indian Health Service. With respect to, 
I know it was mentioned the challenges in the Great Plains, so 
we are certainly addressing immediate things that were cited by 
CMS, and trying to work to solve the immediate problems. But 
one of the other things that has kind of been mentioned at this 
hearing is some of the systemic challenges that we have with 
staffing, housing, and lack of access to, you know, schools and 
job opportunities for spouses and things like that.
    So we are actually engaging in kind of a strategic 
framework effort to look at some of these core issues, like 
staffing, housing, and expanding the use of telemedicine to try 
to strategically think about these things. We are looking at 
both short term, intermediate term, and long term, you know, 
proposals.
    Of course we cannot do this without our tribal partners and 
you all, so we are gathering data. We hope that this will be a 
data-driven process. And in the very near term we will be 
reaching out to our tribal partners and you all to start to 
think through these problems on how we can address them both 
short term and longer term.

                           MEASURING PROGRESS

    Mr. Calvert. Thank you. Let me ask a question regarding 
your testimony. As you mentioned, our appropriations have 
increased approximately 43 percent since 2008, and substantial 
investments to impact the quantity, of course, but also the 
quality of healthcare provided to American Indians and 
Alaskans. What do you consider to be some of the most 
significant improvements? You mentioned measuring. How do you 
measure that progress?
    Mr. McSwain. I think our most significant has been in the 
areas certainly and our ability to purchase care. We have had a 
rather significant increase in the purchaser/referred care 
account, contract health service. In some areas, and not in all 
areas, we are struggling with some areas, and some of them are 
still on priority one, life and limb. But a number of the areas 
have begun to see where they can get down into level 3, and 4, 
5. Not 5, but 4. 5 is not allowed certainly because it is 
cosmetic surgery certainly is one where, well, if you can get 
down into 3 and 4 and you get preventive health, you are past 
the life and limb.
    I think our biggest success has been in purchased/referred 
care, and our ability, because we--as you know, over the years 
we have converted a number of hospitals to health centers. And 
by converting them to health centers means we buy the care. We 
buy the secondary care that we need to provide the full 
comprehensive care that we provide to our American Indian and 
Alaska Native patients. So there has been a shift in that 
regard and will continue to be so. But that is one major piece.
    And the other one is facilities. I mean, I recall 15 years 
ago we had not much support for facilities, and we have 
actually been moving down that road in terms of finishing a lot 
of facilities on that priority list, and joint ventures. The 
Joint Venture Program has been real robust. And so, if we 
partner with a tribe, the tribe will build the facility, and we 
will staff it. And that is another way to provide more quality 
access to care with some of these facilities that are being 
built.
    So those are two examples in addition to behavioral health. 
I mean, as you know, the old days, and I have been around the 
system for a few years, and our experience in the older days 
was we could take care of by just providing safe water and 
sanitation. We could have an impact, a positive impact on 
infant mortality. Today we are challenged by behavioral issues, 
and behavioral issues are in the community which requires us to 
work closely with tribes.
    But the investments we are making in behavioral now are, as 
you can see in our budget proposal for this year, the 
President's budget proposal for 2017 is really beginning to 
focus on behavioral issues.

                           BEHAVIORAL HEALTH

    Mr. Calvert. On the behavioral health issue, we have some 
of these Native institutions. For instance, I have one near my 
district in California, the old Sherman Indian Institute. And 
it seems in the past, many folks sent their children out to 
these schools for education.
    But it seems lately, that they are sending young people to 
these outer areas to get away from their homes primarily to fix 
a behavioral issue or some family issue that they cannot deal 
with on their own reservation. Are these facilities, or is it 
better to have, as you say, these centers closer to home, 
closer to their families? How do you look at that?
    Mr. McSwain. To the extent we can, and I think you are 
referring the Southern California Youth Regional Treatment 
Center, that is being constructed near Hemet.
    Mr. Calvert. Right.
    Mr. McSwain. That facility, we chose the site based on the 
tribes getting together where they would they like to see that 
site, where is it most accessible, and where can it be. And 
they selected that site. The same went for Northern California. 
The tribes got together and they selected a site. And the idea 
behind that is, in fact, I think Mr. Hart has just given me 
some examples. As soon as we are done with these----
    Mr. Calvert. Sure.
    Mr. McSwain [continuing]. We will invite you to, I think we 
have had a conversation about inviting you to. This is one at 
Hemet in Southern California.
    But it is where we put them, and I think in every case 
recently it has been the tribes participating. And there was a 
lot of testimony at the groundbreaking with some kinds that 
been shipped away. One of them came back to say that the 
program was great. It is just she was not sitting in Salt Lake 
City, would prefer to be closer to home.
    And so, those are the testimonies that we are getting for 
having those sites closer in. And so, I think that plus other 
options, I mean, it is not just YRTCs, but we partnered with 
Boys and Girls Clubs that would work on the reservations and 
help us put together meaningful activities for kids on the 
reservations. And so, those are things that we are doing on 
this front.
    Mr. Calvert. I look forward to attending the ribbon 
cutting.
    Mr. McSwain. Yes. Yes.
    Mr. Calvert. Ms. Pingree.
    Ms. Pingree. Thank you, Mr. Chair. Thank you for your work 
and for your presentation here today.

                        SUBSTANCE ABUSE: OPIOID

    I want to just talk briefly, too, about the opioid 
epidemic. It seems like virtually every committee I sit on has 
had to have a hearing on opioid issues, and it is certainly a 
challenge that all of us face in our States across the country. 
And people see it really at a crisis level. But it is certainly 
a big challenge within the tribes as well.
    I come from the State of Maine, and the Penobscot Nation is 
one of the eight tribes throughout Indian Country to receive 
funding for a grant. It was the Department of Justice 
Coordinated Tribal Assistance Program, and they were able to 
have a healing-wellness court. That CTAS grant will end, and 
that will be too bad because that has been a real asset in 
terms of getting people through the court system and right into 
treatment. The lack of the grants is going to be exacerbated by 
the fact that there are insufficient facilities to treat people 
with the opioid crisis.
    In our State, often to find an in-patient bed, people have 
to travel as far away as North Carolina, and so many of these 
issues we have been talking about, the importance of being 
close to your community, to your family. So I know that the 
substance abuse budget, the request is for an increase from 
$114 million to $140, and I know that would be very helpful.
    But I guess I would like to hear you talk a little bit 
about will any of those funds that you are requesting support 
increase access to in-patient treatment for adults? And can you 
talk a little bit about the current status for in-patient care 
for substance abuse treatment, and how budget increases to 
contract health services might help in this area.
    Mr. McSwain. Excellent question. The whole opioid area, as 
a healthcare delivery system, it is one that I would certainly 
wish Dr. Susan Karol was here, the chief medical officer, 
because she has been providing leadership for the whole of 
medication, controls, and pain management. And we tend to have 
it in pain management occurring in our facilities. We tend to 
palliate someone who is in pain, and then wind up having a 
prescription drug problem, namely with opioids. And so, as part 
of a larger issue from certainly the President and the 
Secretary is a major push on opioid abuse. And we are as a 
system addressing it that way.
    Now, your question about hospitalization, it does not 
necessarily arise unless they are in real deep trouble. Then 
they will be referred to the PRC program to a facility for 
purposes of either detox or certainly for attention. So as a 
system, we are very, very conscious of our pain management 
program. In fact, we have published a policy and provided 
ongoing training with our providers about how to approximately 
administer pain management medications certainly in the area of 
opioids.
    I know that what we are doing, you know, and I am having 
conversations with tribal leaders about not only the quick step 
between opioids coming out of our healthcare system to heroin 
abuse. It is the transition because if they cannot get their 
opioids, OxyContins and such, from our healthcare delivery 
system, and that is an area for us to really begin working on 
very carefully. And we have some campaigns of teaching, and 
certainly of our providers, but also of communicating with the 
tribes about the need for that. There is not a tribal meeting I 
have had where a tribal leader has said I have got a real 
problem in my area, and you help by addressing this.
    As a system, we are responding, and I know on the tribal 
side, on the tribal programs, they are also responding, the 
ones that are totally run by tribes, such as Alaska and 
California, for example.
    Ms. Pingree. I appreciate that you are taking a 
comprehensive look because I think you are right. In most 
communities people have been concerned about the over 
prescribing of pain medication. Then certainly in many of the 
areas of the country like we have in New England, as physicians 
tighten up on pain medications, you have a lot of people who 
are previously addicted, less expensive heroin moves right in. 
That has really become a challenging issue, and it certainly is 
in my State and I know in a lot of other places.
    So having a physician involved in that role, but then 
figuring out what to do. And as we all know, these are very 
powerful addictions. So for many people, the only option that 
will be helpful is going to be an inpatient recovery program. 
It is good that doctors are better at dealing with the issue or 
that there is some medication assisted treatment. But in the 
end, I know we will continue to ask you that question about how 
in a State like mine that does not have sufficient facilities, 
do we manage that, and if there is an increase in your budget, 
is there a way to have more in-patient treatment. So in our 
State people do not have to travel so far away or wait so long 
for beds because, as you know, there is sometimes a moment that 
you can get someone into treatment, and if they have to wait a 
long time then it is not a possibility a month later, or 
sometimes they are not with us a month later. We certainly hear 
from our tribal leaders that that is a huge challenge.
    Hopefully there will be an increase in your budget, and 
hopefully we will see and others will see that there is better 
access. Thank you, Mr. Chairman.
    Mr. McSwain. I just want to add one other thing as you were 
mentioning, Congresswoman Pingree. It was the fact that we have 
also partnered with the Bureau of Indian Affairs, particularly 
their law enforcement individuals. We have actually entered 
into an MOA that is going to address not only training for the 
use of naloxone because of opioid overdose. For them to be able 
to use the naloxone to, in fact, ensure that they do not expire 
from an overdose. And so, that training is going on across all 
the reservations and have law enforcement individuals, not only 
the BIA law enforcement, but those tribes that have their own 
law enforcement, like Cherokee.
    Ms. Pingree. That is great. That is very important, too. 
Thank you.
    Mr. Calvert. Thank you. Mr. Simpson.

                            SUBSTANCE ABUSE

    Mr. Simpson. Thank you, Mr. Chairman. It is an interesting 
discussion that we have on that because it is a real problem 
with prescription drug overdoses. The challenge is, having been 
a medical professional in the dental field, as a doctor it is 
hard when someone comes in to see you in what appears to be 
severe pain, to say, no, you are not in pain, and how do you 
deal with that? And trying to establish whether someone is 
there because they just want access to drugs or if they really 
do have pain is a challenging thing for doctors to try to deal 
with. But it is a real problem, and something that we have got 
to find a way to fix this, and have people more conscious of 
the issue.
    We have a tendency to just want to say do not over 
prescribe, and that will solve the problem. It is not nearly as 
easy, and I am not suggesting that you are saying that.
    Ms. Pingree. No.
    Mr. Simpson. But it is not as easy as some people sometimes 
think it is.

                             JOINT VENTURE

    You mentioned joint ventures where the tribes will build 
facilities and we will staff them. Do we have any facilities 
that have been built that we have not staffed that are planned 
to be staffed because of a lack of funding?
    Mr. McSwain. None whatsoever because part of, as you know, 
with the Joint Venture Program is that when we go through the 
process, and Mr. Hart can provide some lengthy experience about 
the Joint Venture Program. What basically happens is it is a 
competitive process, very competitive. And the idea behind it 
is the tribe will build a facility. They will have a 
conversation with us so that we can match up our requirements 
for staffing in terms of their population, et cetera.
    But they will build a facility, and they will find the 
resources necessary to build that facility. And we commit in an 
agreement that at some point that they are going to open, we 
will ask for staffing funds for staffing and operating that 
facility. And so, that agreement means that we have not built 
any joint ventures or we have not committed to providing staff.
    Mr. Simpson. So we have not had instances where the tribes 
get out of ahead of our ability to staff them, because several 
years ago when we were looking at this issue, we found that 
there were facilities that were built, particularly tribes that 
had successful casinos and had the extra money. These tribes 
went out and built them, and then came to us saying, hey, we 
need to get this staffed. And apparently the Department does 
not have the resources not only in the health area, but also in 
the law enforcement area to staff those facilities. But we have 
addressed that problem?
    Mr. McSwain. On the Indian Health Service side, I know 
where you are going with, for example, there were several 
detention centers that were built with no program in mind.
    Mr. Simpson. Right.
    Mr. McSwain. And they have come to us and said, oh, can you 
put your behavioral health program in that detention center. 
But for purposes of healthcare delivery, like a health center 
or a hospital, if it is a joint venture, we have a conversation 
with them, they apply for it, and they are approved it. We go 
through a two-step process. They give us their ideas. We review 
them. We move to the second level which they have a business 
plan.
    But at the end, we will reach agreement with them. And 
currently the last go-round, we had 13 that actually qualified 
for consideration. We started out with three at the top that we 
have agreed, and they are on schedule, and they will be 
reflected in upcoming budgets. And because the other ones were 
small in terms of staffing requirements, we went ahead and did 
all seven. We added four. And the idea behind it, so it is a 
combination.
    Now, in terms of facilities meaning access to care. And the 
tribes have elected to build if they have got the wherewithal, 
and you mentioned casinos. The tribes can build them, and we 
will partner with them and staff it with staff. And, of course, 
this new one where we have done this for a while is that we 
have a proposal for a small ambulatory because, and, again, in 
the interest of providing access to care, that was a very 
successful program. They can leverage the funds that we give 
them with other agencies and matching.
    But the idea is they can have a facility that they can then 
have available for access to care on their reservations or in 
their communities. It is usually a health station, and you will 
see that in our budget. But to answer your question, no, I 
mean, there have been some of those, but they know the Joint 
Venture Program. In fact, they know the rules. Do not turn the 
dirt because you have not been approved. And we have to have an 
agreement that has been finalized.
    In fact, just yesterday we finalized a major one with the 
Cherokee Nation about they are doing a complete redo of the 
Hastings Hospital and expanding it rather significantly, again, 
for the people in that part of the country.

                         CONTRACT SUPPORT COSTS

    Mr. Simpson. Okay. 2 years ago, Congress drafted IHS to 
fully fund Contract Supports Costs. In order to do that, IHS 
took money from the direct operations. Direct operations funded 
some dental positions at headquarters. They need positions 
filled, but the funding would now come out of the dental 
program. It is kind of a rob Peter to pay Paul situation.

                                 DENTAL

    This year direct operations received a $2 million decrease. 
I am aware that there are several dental positions at 
headquarters that are vacant. Are there still vacancies, and 
how many and how long have they been vacant? Will the salaries 
come out of the dental program line? Are any of these vacancies 
because of funding changes due to Contract Support obligations? 
And did meeting the Contract Support costs requirement affect 
leadership hiring?

                         CONTRACT SUPPORT COST

    Mr. McSwain. Okay. On the Contract Support Cost area, 2014 
was a watershed year, as you pointed out. That year we 
projected and we wound up having to find some discretionary 
side of the house to be able to meet our full obligation. And 
then in 2015, we were able to kind of right the ship a bit, and 
in 2016 the President's budget had proposed a mandatory account 
or at least full funding. And I think that you all responded by 
a law that said we would have a third account with indefinite 
funding.
    And so, for all intents and purposes, we have moved the 
contract support costs into a third account. And even though 
our proposal for 2017 is saying we still would like it over in 
mandatory because the Supreme Court has made it real clear we 
are to pay a hundred percent. And so, we are paying a hundred 
percent of all our obligations under contract support costs so 
that it will not now be a matter of finding the money on the 
discretionary side or taking it away from direct service 
programs.
    So I feel confident in the future. That is in a good place. 
In fact, I know that Deputy Director Smith has been working and 
providing leadership to the Contract Support Costs Workgroup. 
So we are going to actually have a policy in place that has 
been revised since 2001, updated in 2006, and now because of 
the court case we need to reissue that policy, and then put 
everything in a place where there is an agreed-upon policy.
    And I think we are real close to a final version, in fact. 
It was a hard lift. I think we have had a contract support cost 
workgroup working on this since 2010, and we are beginning to 
see where it is going to put that in a proper location, and the 
fact that we will continue to meet our obligations at a hundred 
percent without adversely affecting the rest of the budget.

                                 DENTAL

    Mr. Simpson. What about the dental aspect to it?
    Mr. McSwain. The dental aspect of it, we have some 
vacancies, but the director of the Oral Health Division who is 
filling those positions is not being told otherwise. He is not 
constrained because we went into a freeze in order to meet our 
obligations, and that included dental. But now he has been 
given the green light to go ahead and fill these positions.
    Mr. Simpson. Okay.
    Mr. McSwain. And it is going to be a challenge around the 
country. It is a challenge similar to other healthcare 
professionals. Dental is a challenge in many of our locations. 
We do have some dental vacancies. And, again, with your 
support, we have increased the numbers of loan repayment 
programs that would help us fill those positions.
    Mr. Simpson. Okay. Thank you.
    Mr. Calvert. Thank you. Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman. Thanks for being with 
us. I guess the good part of going last is a lot of stuff I 
wanted to ask about has been talked about, including mental 
health to opioids.

                              TELEMEDICINE

    I do want to talk about something that has not been 
discussed. I represent an area that has a lot of rural coastal 
tribes, and they face some unique challenges. The conversation 
around telemedicine I think is valuable when you are 
geographically isolated, but is less helpful if you do not have 
access to high-speed internet.
    Being able to provide care in your community is a challenge 
if your care facility, which is the case for one of the tribes 
I represent also serves as your emergency response center and 
is right in the path of the tsunami zone.
    So I guess my question is, does IHS look at those sorts of 
challenges? What do we do for those remote, geographically 
isolated tribes in terms of being able to provide healthcare in 
those communities? How can we as members of Congress help?
    Mr. McSwain. That is an excellent question, Congressman 
Kilmer. It is interesting. I was sort of reflecting on where 
your question was going. How did we discover penicillin? And 
the notion is that we were faced with a challenge.
    And I think in the case of telemedicine, we are facing 
right now a real challenge of ensuring that we can provide 
quality access to very remote locations. We have got some great 
models, and Alaska is a great model insofar as telemedicine. 
For them to travel to any one is between a $10,000 and $15,000 
one-way trip. So there is the need to have it certainly 
available.
    A recent, and certainly going back to Great Plains area, is 
that we are looking at stationing telemedicine staff in some of 
the remote locations, and how do we go about doing that. 
Bandwidth is a big issue clearly, I mean, because if you are 
talking about simply having communication and access is one 
thing. But if you are going to move large files, X-ray files 
and such across that, now you are going to really be challenged 
on bandwidth. And some of our isolated locations in the country 
become a real issue. But we are working with our fellow 
agencies about how to begin to address the bandwidth, if you 
will.
    And, of course, the other part of it, too, telemedicine, 
you have got to have both ends. You have got to have the folks 
at the other end that is available to manage the patients 
coming into the center, whether it is behavioral health, which 
is even more so, or whether it is medical. We do a really great 
retinopathy program that we are doing by telemedicine. We are 
able to do reds. I was in Elko, Nevada and had my eye checked, 
and I was being told it was being read in Phoenix.
    And so, that is those kinds of abilities. And I think as a 
system, it is my view that we need the tool that we can use in 
the absence of having a full staff out there. In some places 
you do not merit having, let us say, for example, an 
optometrist in the community because it is too small. But you 
can certainly have telehealth available for that community. And 
that is where we are going to go.
    So I think from an agency stance, we are doing that across 
the country. First it was by urgency, and now we have a design 
to move ahead.
    Mr. Kilmer. I would certainly love to follow up with you 
and your team on how you work with those other agencies on 
making telemedicine a reality. I also think we have got to 
figure out how to make sure care facilities do not end up in 
the path of tsunami. If you are a coastal tribe, I think that 
is a real problem.

                        SUBSTANCE ABUSE: OPIOID

    I also wanted to just follow up on one of the issues that 
Ms. Pingree mentioned with opioid abuse, and you touched on 
naloxone kind of availability. Just can you give us a sense of 
whether there are adequate resources available to have that 
deployed and to have law enforcement trained? I know that that 
is looked at as a potential resource to at least avoid 
fatalities associated with overdose. So I am just curious 
whether the IHS had adequate funding to roll that out.
    Mr. McSwain. We have not been adversely affected to move 
ahead, and we have been using certainly our prime vendor, which 
is a special agreement we have with VA on making available 
naloxone for purposes of deploying it. And our relationship 
with BIA, with the Bureau and law enforcement, for example, and 
tribal law enforcement people is such that I think that if we 
start to project that we are going to be adversely affected by 
that, but otherwise we are making it available.
    Mr. Kilmer. Are the communities that ask for it getting it?
    Mr. McSwain. Right. Right.
    Mr. Kilmer. No one is being told no?
    Mr. McSwain. No one is being told no at this point. And, 
again, it is a supply that is available. If it grows, I guess, 
in demand, we will have to address that as well.
    Mr. Kilmer. Okay. Thank you, Mr. Chairman.

                         MEDICARE AND MEDICAID

    Mr. Calvert. Thank you. I will just ask another question 
here. The Federal government funds many of the healthcare 
programs for which American Indians and Alaska Natives are 
eligible to receive services free of charge. Full enrollment in 
these programs can stretch limited appropriations to the Indian 
Health Service much further. Could you update the committee on 
Indian Health Service's efforts to achieve full enrollment for 
the eligible service population?
    Mr. McSwain. I am not so certain I quite understand your 
question, Mr. Chairman.
    Mr. Calvert. What are you doing to encourage people to 
enroll in Medicare and Medicaid programs.
    Mr. McSwain. Oh, okay. Coming through our system, we have 
the benefits offices certainly as a patient comes into a given 
center. The first place they are going to go is patient 
registration, which then begins to tease out what are they 
eligible for. Are they eligible for Medicare or are they 
eligible for Medicaid? Do they have private insurance? And if 
they are eligible for Medicaid, we enroll, get them enrolled.
    It is interesting. It is a voluntary system for us. We 
translate the importance of the ability to bill Medicaid and 
Medicare for them because we can turn that into additional 
services provided by that given facility because, as you know, 
the law that was authorized in 2010 said all collections will 
return to the facility which generated them.
    And so, there is certainly an incentive to have them get 
enrolled. I mean, there was a time that tribal people would 
push back and say, wait a minute, do not you have a trust 
responsibility to us? Why do you make me sign up for this 
other, and when we explain to them how important it is, then we 
have seen the numbers go up. Have we maximized? I do not 
believe we have maximized, and clearly, of course, it gets into 
whether the State has expanded Medicaid.
    But I think in any case, we want to make sure we maximize 
availability. And if they are veterans, then we will sign them 
up, and we will bill VA for their services.
    Mr. Calvert. Well, it certainly helps us on our 
appropriations process if we are able to move that across. I 
certainly would encourage you to do that because we have 
challenges just to increase the appropriations this year, just 
to stay even with the increased cost in healthcare in Indian 
country.
    So anything that we can do to offset some of this is 
certainly important. Do you have a thought?
    Ms. Smith. Yes, Mr. Chairman. I think we have been working 
a lot more closely with CMS to try to see if we can think of 
some creative thing to have like easier eligibility for both 
programs and working more collaboratively with CMS. So I think 
we are making strides in that area, and we are going to 
continue doing that.
    Mr. Calvert. Okay, good.
    Mr. McSwain. Yeah, let me just add to that. That is an 
important point, Mary. And that was that we have added another 
person to our senior staff. Her job is Deputy Director, Quality 
Care, but she had a vast experience with CMS, and she brings up 
these new ideas. For example, the new idea was just recently I 
had not heard of this, but auto enrollment.
    Ms. Smith. Yeah.
    Mr. McSwain. Actually when patients come in, we can get 
them enrolled automatically. So, I mean, that will expedite and 
expand our ability to ensure that as many people as possible 
are covered, and, therefore, we will be able to generate some 
additional resources for those clinics. And that will maybe 
take a little load off you.

                            SUBSTANCE ABUSE

    Mr. Calvert. Right. Thank you. Ms. Pingree.
    Ms. Pingree. Thank you, Mr. Chair. Again, I appreciate your 
being here today, and just one brief question here. Maybe you 
have talked a little bit about this, but I do not think so, 
about the coordination with SAMHSA. As I understand, in 2014 
they created an Office of Tribal Affairs. I am just curious 
about how you work with them. We have talked a lot about 
behavioral health issues, how the collaboration with them 
works. Are they informed by the Indian Health Service? Are you 
informed by them? Just what that relationship is like and how 
you benefit from it.
    Ms. Smith. That is an excellent question, and the reason I 
am sort of happy about the question is that we have had a 
consolidation, if you will, in Rockville. So SAMHSA now, and we 
have moved into the 5600 Fishers Lane, and so has SAMHSA. So 
they are just in the building.
    Ms. Pingree. Great.
    Mr. McSwain. And so, it has made our coordination a whole 
lot easier. But even before that, we have been working together 
with SAMHSA on their community, and we have traded many 
efforts, if you will. We have got a grant going out, we let 
them know. They have got a grant going out, they let us know. 
And if there is an outbreak somewhere, Kana Enomoto over at 
SAMHSA is quick to call us. If there is a tribe out there that 
reaches up through SAMHSA, we get a call. I mean, just recently 
a tribe out in California had a series of suicides. So, I mean, 
there is a more growing collaboration between SAMHSA and Indian 
Health Service as it pertains to what SAMHSA can do versus what 
we can do, and then we collaborate.
    And I think going back to the example of, I think there was 
a question raised about coordination. I thought we were 
coordinating well, but it turned out that we had a couple of 
sites out on one of the reservations that were not coordinating 
at all. They funded a clinic, a program, and we are funding a 
clinic, and the two folks across town, a small community, had 
not talked. And so, we corrected that. You talk to your 
grantee, and I will talk to our folks, and we will get that 
coordination.
    So we are having more of that coordination on the ground, 
which is so easy for us to say, well, they are in the same 
building. But, no, to answer your question on point is it has 
increased and will continue to increase as we begin to look at 
what they are being funded for versus what we are funded for.
    And the major distinction is we are a healthcare system, 
and so we are delivering care, whereas they are delivering 
funds to the community to develop the community capacity. And 
so, for us still to work together as we bring about a 
maximizing of our efforts.
    Ms. Pingree. That is good to hear. Thank you.
    Mr. Calvert. Thank you. Mr. Simpson.

                                 DENTAL

    Mr. Simpson. More than 5 years ago, HHS decided to take 
approach to early childhood caries, a childhood epidemic in 
Indian Country. They recruited and trained healthcare workers 
beyond the dental program to work with kids and families on how 
to recognize and prevent disease. Working with 1- to 5-year-
olds was the first step in addressing oral disease.
    Now the program has launched and they are ready to move 
onto other oral disease categories. Early childhood caries was 
the dental program's first 5-year initiative. What will follow 
that?
    Mr. McSwain. I think on point, the--oh, I am sorry. I 
thought it was on. Thank you. Certainly Dr. Lozon and company 
at IHS headquarters is, in fact, continuing the initiative 
through the next 2 years and clearly, is conducting the ECC 
sites again. So we have not lost track of the fact that early 
childhood caries is still a very light program. I mean, we have 
not stopped that. Just yesterday, Dr. Lozon, I asked him where 
is our program, and he said, no, we are expanding. So we are 
going to continue.

                         CONTRACT SUPPORT COSTS

    Mr. Simpson. Okay. I want to ask a question that I probably 
should not ask because somebody will say what are you thinking. 
There used to be a saying around here 5, or 6, 7 or 8 years ago 
in Indian Country, ``Do not get sick after June because all the 
money ran out.'' That is something that this committee 
concentrated on, trying to provide the funding that is needed 
for Contract Support Costs at a level where healthcare was 
available. Now, the saying is ``Do not get sick after 
September.'' We are moving along in the right direction.
    What is your authority to transfer funds within accounts to 
meet issues that come up, like if you run out of money for 
Contract Support Costs? Can you move money between accounts? 
And the reason I ask this is the Forest Service has the ability 
that when they have catastrophic wildfires going on, they can 
take funds out of different accounts to make sure that they 
fight those wildfires. Now, we do not like that in this 
committee.
    Can you do that, or do you have to go through reprogramming 
process?
    Mr. McSwain. We have certainly authority up to--let me 
check. Is it up to a million? Up to a million to move between 
budget activities. Anything more than that, then we come in for 
your clearance.

                             REPROGRAMMING

    Mr. Simpson. On the reprogramming?
    Mr. McSwain. Yeah, on the reprogramming. Now----
    Mr. Simpson. Is that an appropriate level, or should it be 
more?
    Mr. McSwain. Well, we can get back to you on that I think. 
So far, it has not affected us.
    [The information follows:]

    At present, IHS has the authority to reprogram up to $1 million 
dollars between activities within one appropriation account. In the 
case of contract support costs, IHS no longer requires reprogramming of 
funds due to the separate, indefinite appropriation provided in the FY 
2016 Omnibus. Furthermore, IHS does not have the authority to move 
money between appropriation accounts. At the current time, IHS does not 
anticipate a need to increase the existing reprogramming authority.

    Mr. McSwain. But getting to your other question that you 
raised, Congressman----
    Mr. Simpson. Before you answer that, the challenge 
obviously is that when you look at healthcare services, when 
you look at less important programs versus trying to transfer 
money out of those, there are no less important programs often 
times. If you look at the Forest Service, they can say, we are 
not going do trail maintenance this day and nobody dies from 
it.
    So it is a different challenge that you face, but if you 
could move money between less, and I hate to say less 
important, but less critical programs to more critical accounts 
when they run out of funds, would a million dollars be 
sufficient, or would increased authority in that arena be 
advantageous?
    Mr. McSwain. Yeah, I think increased authority would not 
hurt. But I think there are two ways to answer this question. 
One is 60 percent of our program is contracted by tribes. 
Tribes have the legal authority to redesign. They can move 
money around. On the direct side because we are running the 
direct certainly on our side, then we are looking at the 
accounts. And I think the one-year raise at the outset is that, 
no, it is no longer June and it is no longer September. We got 
through. And what you are most likely talking about is a 
catastrophic emergency health fund, and that is the one that 
was running out of money because of the numbers of large cases.
    We are going to have to look a little bit because we are 
getting ready to publish, and I think we have not published it 
yet. The reauthorization enabled us to reduce the threshold to 
$19,000 instead of $25,000. And that may have an effect on the 
numbers of high-cost cases coming in, which means that we will 
have to take another look at it.
    And because of that, we have asked for a $3 million 
increase in our CHEF account for 2017. Just if we implement 
that change in threshold, then you may hear that again, but I 
do not think so. I think we are okay. But I think the authority 
to move money around in a health system is always an item, but 
I think on our side certainly we can talk with folks as to 
whether or not that is something we would want to propose.
    Mr. Simpson. Thank you for being here today, and thanks for 
the work you do. It is, as you can tell from this committee's 
support, vitally important that we address not only the 
healthcare needs, but the other needs in Indian Country. And we 
do have a trust responsibility this committee takes very 
seriously. So thank you for what you do.
    Mr. Calvert. Just to clarify on Mr. Simpson's question, 
when we are talking about moving funds, we are not just talking 
about moving funds within the Health Service. Can you move 
funds from outside of the Health Service within the Bureau's 
accounts? I think maybe that is what he is also asking. Have 
you ever moved money outside of your particular line, out of 
the Indian Health Service account?
    Mr. McSwain. We clearly have always had two accounts, and 
then, of course, with the addition of contract support costs. 
And the whole distinction is we would not move any money from 
the Service's budget into the facilities budget or conversely. 
I mean, those are walled off, and we do not do it. We would 
reprogram within, for example, a subset of activities like 
dental to agency and conversely, but, again, very limited.
    Folks are pretty jealous about, you know, let us talk if 
you are talking about trying to move money from this category 
to this category.
    Mr. Calvert. Okay. I just wanted to clarify that.
    Mr. McSwain. Okay.
    Mr. Calvert. Well, I certainly want to thank you for your 
attendance today. We appreciate your coming to our hearing. We 
wish you well. You have a big challenge ahead of you. We will 
try to work with you the best we can to help you meet those 
challenges.
    With that, if there are no further questions, we are 
adjourned.
    Mr. McSwain. Thank you.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    

                                       Thursday, February 25, 2016.

              OFFICE OF NAVAJO AND HOPI INDIAN RELOCATION

                                WITNESS

CHRIS BAVASI, OFFICE OF NAVAJO AND HOPI INDIAN RELOCATION

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. Good afternoon, and welcome to this oversight 
hearing on the Fiscal Year 2017 budget of the Office of Navajo 
and Hopi Indian Relocation.
    The Relocation Program in Arizona impacts relatively few 
Americans, but to those it does impact, it does so deeply and 
in personal ways. Being told to relocate from one's home and 
pull up one's own roots can be devastating to a family and to 
any community no matter what incentives are offered to try and 
make the process easier.
    Perhaps that is why the Navajo and Hopi land dispute has 
been called the greatest land title problem in the West, and 
perhaps that is why the Relocation Program, which was created 
to solve the problem, was expected to take 5 years and cost $41 
million. Well, it continues today 40 years later and $568 
million after its inception.
    We are here today because this subcommittee has redoubled 
its efforts to succeed where so many good people before us have 
fallen short. In December of 2014 at the subcommittee's 
request, the inspector general of the Department of the 
Interior published a report concluding that the Office of 
Navajo and Hopi Indian Relocation cannot complete its work and 
cease operations in the near future without legislative changes 
and/or an increase in annual appropriations. The inspector 
general further pointed out that the increasing appropriations 
in the short term is a more cost effective strategy than 
continuing with the status quo. The report recommended that 
this subcommittee consider alternatives and determine an 
approach that will best control costs and complete the 
relocation mission in an acceptable, judicious, and timely 
manner.
    In January 2015, members of this subcommittee visited the 
Hopi Tribe and the Navajo Nation to see the challenge firsthand 
and to hear from those most directly affected about what has 
gone right, and what has gone wrong, and where we should go 
from here. The message we heard was clear: do not leave until 
you finish the job.
    In December 2015, the subcommittee more than doubled the 
Relocation Program's budget to $15 million in Fiscal Year 2016 
in order to reduce the backlog of 96 certified applicants 
awaiting relocation and to work through 200 additional known 
appeals. Just this week, the Office of Inspector General 
released its second subcommittee commissioned report which 
looked into the allegations made by relocated families that 
homes and infrastructure are incomplete or in need of repair.
    The law says that the Office of Navajo and Hopi Indian 
Relocation shall cease to exist when the President determines 
that its functions have been fully discharged. In consultation 
with this subcommittee, the Agency has set a goal to complete 
its work so that the next President can be in a position to 
make such a determination by September 30th, 2018, about 2 and 
half years from now.
    The Fiscal Year 2017 budget proposes a modest 3 percent 
increase to work with the Navajo Nation, the Bureau of Indian 
Affairs, and the other Federal departments and agencies to 
ensure that this program can be brought to a fair end, and to 
ensure that any responsibilities remaining after the closure 
will be transferred to the appropriate Federal or Navajo 
entities.
    Cleary there is much to be done, and the devil is always in 
the details. Hopefully today's hearing will flush out some of 
those details and begin to put us on a path to completion as 
quickly as possible, but not a day faster than is needed to 
ensure that those affected by the program have been treated 
fairly, honorably, and with dignity.
    This is not a partisan issue. It is a human issue. It is a 
nation-to-nation issue. It is an opportunity to make good on a 
commitment to shake hands and let deep wounds begin to heal.
    My former boss, the late President Ronald Reagan, once 
said, ``No government ever voluntarily reduces itself in size, 
so government programs once launched never disappear.'' 
Actually a government bureau is the nearest thing to eternal 
life we will ever see on this earth. If he were alive today, he 
may have to make at least one exception.
    I am pleased to be joined today by my subcommittee 
colleagues as well as the senior leadership team of the Office 
of Navajo and Hopi Indian Relocation, executive director, Chris 
Bavasi, chief financial officer, Nancy Thomas, chief counsel, 
Larry Ruzow. Welcome. It is nice to see you all again. Thank 
you once again for your hospitality last year during the 
subcommittee's visit.
    Before turning to you for your opening statement, allow me 
to ask my friend and colleague, the subcommittee's ranking 
member, Betty McCollum, for her opening remarks that she might 
wish to make. Ms. McCollum.

                    Opening Remarks of Ms. McCollum

    Ms. McCollum. Thank you very much, Mr. Chair. Good 
afternoon, Mr. Bavasi, and for those of you who are joining us 
here today for this hearing.
    When Congress created the Office of Navajo and Hopi Indian 
Relocation in 1988, it did not envision that the office would 
be still be operating 28 years later, and that families would 
still be awaiting relocation. America has a responsibility to 
meet its commitments to the Navajo and Hopi people. We are here 
today to better understand the status of the relocation effort, 
and whether or not the office is prepared to start closeout of 
the relocation process and the office.
    Throughout its history, as the Chairman pointed out, the 
relocation process has been very controversial, and there have 
been significant delays. The emotional toll on the families 
that we met with is one that will be with me forever. The issue 
has been going on for too long, and now it is time to just 
resolve it.
    In January of last year when the Chairman, and I, and 
others traveled to Arizona, we were able to meet with the 
families, both Navajo and Hopi tribal members, as well as the 
staff from the Office of Navajo and Hopi Indian Relocation. We 
listened carefully as they explained some of the challenges 
that were still out there that they were facing, and some of 
the opportunities and possibilities they saw in bringing this 
to closure. In recognition of what we learned on that trip, 
this committee, as the Chairman pointed out, doubled the 
appropriation Office of Navajo and Hopi Indian Relocation to 
$15 million. This year, the budget request for the office 
maintains that higher level.
    I am hopeful today that we will learn how that increase has 
been used to ensure that the relocations are done in a more 
expeditious manner, that they will continue to be done in an 
expeditious manner, and that the proper mechanisms are in place 
to address any responsibilities that may exist into the future. 
Clearly, Congress owes the Navajo and Hopi people the 
opportunity to bring closure to this issue so that they can 
start moving forward on working on their future. But we must do 
so in a proper fashion.
    I look forward to your testimony. Mr. Chairman, I thank you 
for the time, but I also thank you for the trip that you 
arranged with the staff to go out there to work on this 
problem.
    With that, I yield back.
    Mr. Calvert. Thank you. And, Mr. Bavasi, you are 
recognized.

                     Opening Remarks of Mr. Bavasi

    Mr. Bavasi. Thank you, Mr. Chair. Chairman Calvert----
    Voice. Microphone.
    Mr. Bavasi. Chairman Calvert, Ranking Member McCollum, 
members of the subcommittee, and subcommittee staff, you have 
our detailed statement, but I would like to just say how 
pleased I am to have the opportunity to appear before the 
subcommittee today and discuss the Office of Navajo and Hopi 
Indian Relocation's Fiscal Year 2017 budget request with you, 
and answer any questions you may have.
    Before discussing our 2017 budget request, I would like to 
express our gratitude to Chairman Calvert and the subcommittee 
for increasing our Fiscal Year 2016 appropriation so that we 
could begin to eliminate the backlog of Navajo households who 
have been certified as eligible for relocation benefits, but 
were awaiting appropriated funds so that the promise of a new 
home could become a reality. I also express the gratitude of 
some 60 Navajo households and families who will sign contracts 
this year for a new home, about 44 of whom would otherwise have 
been required to wait several years more before they could sign 
the contract for their new home.
    As set forth in the President's budget, most of the money 
we are seeking in Fiscal Year 2017 is to provide housing and 
housing infrastructure for Navajos who have been certified as 
eligible for relocation homes. So, again, I would like to thank 
you for allowing me to come before you today.
    [The statement of Mr. Bavasi follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
               CLOSE-OUT DATE FOR THE RELOCATION PROGRAM

    Mr. Calvert. Thank you. We will get right into it. The 
Department of the Interior's inspector general recommends that 
Congress legislate a sunset date for the Relocation Program, 
and provide the requisite level of appropriations to meet the 
Agency's statutory obligations by that date. You testified that 
the Agency is focused on completing its work so that the next 
President can make a determination on whether to close at the 
end of Fiscal Year 2018.
    The question is, since current law puts the decision in the 
President's hands, is there a reason why it still may be 
necessary for Congress to legislate a sunset date?
    Mr. Bavasi. Well, I think by doing that you set a sense of 
urgency that perhaps is not there today.
    Mr. Calvert. Does a determination that the Agency's 
functions have been fully discharged mean that the Federal 
government's work is done?
    Mr. Bavasi. Not necessarily. It means that work of the 
office is done. However, there may be other areas the Federal 
government might have to take on.
    Mr. Calvert. Much of the appeal and relocation process is 
out of the Agency's hands. Can a determination be made that the 
Agency's functions have been fully discharged if a case is 
pending before the court or not everyone has been relocated?
    Mr. Bavasi. We think that it can. Those responsibilities 
can be handled by others.
    Mr. Calvert. Okay. We all know that failing to plan is the 
same as planning to fail. My sense is that you are still very 
early in the closeout and transition planning process, and that 
in order to meet your target date you will have to pick up that 
pace considerably and immediately. Is that a fair assessment?
    Mr. Bavasi. I think it is fair, but I would also like to 
remind you that this is not new to us, meaning that this whole 
notion of transition has been in play for a very long time. We 
thought actually prior to the Noller Herbert case that we would 
be going out of business a number of years ago.
    So we were working a number of years ago now with BIA, with 
the Navajo Nation, and the chapter, to develop a transition 
plan. That did not occur, as you know, and so this, again, is 
not new to us. We have a lot of experience in this, and so we 
have already started meeting with the stakeholders to 
reinstitute that transition plan.

                        QUARTERLY STATUS REPORTS

    Mr. Calvert. Yeah. Will you commit to providing the 
committee with a quarterly status report from this point 
forward to see where we are at and where we are going?
    Mr. Bavasi. Sure. Absolutely.
    Mr. Calvert. The law says that your Agency may call upon 
any other Federal agency for assistance, and that any failure 
to provide reasonable assistance must be reported to Congress. 
So that would be helpful if going forward we continue to 
communicate and find out how we are doing. Our intent is to 
close this out in Fiscal Year 2018, so we want to make sure 
that there is no reason for that not to happen.
    Mr. Bavasi. We agree.
    Mr. Calvert. Okay. Ms. McCollum, you are recognized.
    Ms. McCollum. Thank you, Mr. Chair. I concur with the 
request that the chair is making. I think a quarterly report 
will be very helpful.

                  TRANSFERS TO OTHER FEDERAL AGENCIES

    I want to raise something that happened in my office 
yesterday. Yesterday I was sitting down with some tribal 
leaders from the Navajo Nation, and we were discussing the 
water settlement and all the great potential and everything 
that they have moving forward on their community development. I 
was surprised to hear that as they are moving forward with 
their business to serve those families, that ONHIR has been 
working with them on the role of business capacity leases.
    In your testimony, which is not numbered, but it is the 
last page that I have, you have a statement to continue this 
fine program with the livestock that you are working on. ``When 
we are gone it will present challenges for us, the Navajo 
Nation, and for the local community.'' You go on to add to that 
the Bureau of Indian Affairs. But you are confident that you 
can collaboratively come up with a solution.
    Are you taking on some new responsibilities with the 
understanding or discussions with other agencies that 
responsibilities are going to be transferred to them, and that 
they are part of the discussion? Can you explain to me, besides 
the housing, how you are prepared to close out other things? We 
just do not want the housing closed out. We need to have 
everything closed and transferred.
    Mr. Bavasi. Absolutely. The only other thing that we are, I 
think what you are referring to, are the new lands----
    Ms. McCollum. Yes.
    Mr. Bavasi [continuing]. And some of the programs on the 
new lands, like the demonstration ranch and the Range 
Maintenance and Management Program. These subjects are not 
foreign to the Navajo Nation, or the chapter, or BIA. And so, 
we have been in discussions with all of them about how to 
transition these programs to them, and we will be coming 
forward with that transition plan.
    Ms. McCollum. Well, Mr. Chair, I think we are going to need 
to know how much that costs because those are going to be costs 
incurred by BIA now. We have been very successful working 
together in a nonpartisan fashion to meet some of the needs of 
the Bureau of Indian Affairs. Education and health we just 
discussed earlier today. I do not know how significant the 
amount is or what the expectation is going to be for BIA, and 
for this committee, to have a new line item. I do not know if 
there is going to be authorization authority that is going to 
be required to transfer those funds or not.
    Explain to us how this is going to work and how you are 
going to account for the dollars in the transfer.
    Mr. Bavasi. Not all of the things I just mentioned have 
costs associated with them. For instance, the demonstration 
ranch is self-supporting, and we believe that it has the 
potential to be a revenue generator for the area. And so, that 
should not have any costs associated with it when it transfers. 
And we are not certain where that would transfer to, whether it 
be the Navajo Nation, the chapter, or they have developed a 
separate corporation out there made up of what they call the 14 
Rs, the 14 range units. And so, that is a possibility.
    The maintenance program and the Well Maintenance, Fencing 
Maintenance Program and the Range Management Program will have 
a cost associated with it, which I can give you the exact 
numbers. Not today, but I can certainly get to you what it 
costs on an annual basis. And the question is whether or not 
the chapter and/or, BIA, or the Nation, whoever ends up doing 
those things, wants to continue it at the same level that we 
do. But I can certainly get you those numbers.
    Mr. Calvert. That would be helpful if you could submit that 
for the record.
    [The information follows:]

                     Annual Range Management Costs

    The yearly costs to carry out range management activities on the 
New Lands area held in trust by ONHIR area about $810,000--$610,000 in 
salaries for 10 employees, and $200,000 in materials and supplies.

    Ms. McCollum. Mr. Chairman, I think we need to have those 
numbers. We need to understand if there were leases, contracts, 
memorandums of understanding--whatever was incurred with your 
office--that are going to be transferring over. If those are 
considered legal instruments, what the responsibility is, and 
whether or not it changes with the resettlement moving forward. 
As you described to us and the committee, in the past when you 
thought you had noticed everybody to the very best of your 
intentions, you ended up in court, and then you had to re-
notice folks again for the relocation.
    We need to head off any potential misunderstandings, any 
potential miscommunication, and clearly know what these costs 
are and what responsibilities are being transferred over to 
other agencies. That is very important for this committee to 
have, because, in essence, we are closing out the housing 
relocation, but we are still continuing some of the other 
issues.
    You said that the Navajo Nation might want to continue the 
ranch. It is self-sufficient, and it is done. But we need to 
know that that is a mutual understanding, and there has been 
consultation with the Navajo Nation on that, and that it is 
clearly spelled out.
    Mr. Bavasi. I am not sure I could agree with you more on 
all of those things. That would be part of the transition plan 
that we will be getting to you hopefully on more than a 
quarterly basis.
    Ms. McCollum. Well, Mr. Chairman, I think it could have 
been some of the discussion earlier with us on the transfer. 
Thank you.
    Mr. Calvert. I thank the gentlelady. Mr. Cole.
    Mr. Cole. Thank you very much, Mr. Chairman. And, again, I 
want to thank you, and the Ranking Member, and your 
predecessor, Mr. Simpson, for really working hard to try and 
bring this program to an appropriate and successful conclusion. 
It has not been an easy task obviously, and you are to be 
commended.
    And I want to tell our friends, we appreciate your help and 
your hospitality when we were out there. It was an eye-opening 
experience, and I felt like we got a lot of candid advice and a 
lot of history. I was very pleased with the level of 
cooperation we received.
    I am going to have a series of questions, but I am going to 
posit something. My big fear, and I suspect this committee's 
big fear, is if we get to the end of 2018, and we have doubled 
the budget essentially, that just means we are going to have 
another 40 years with a higher budget. That is how I would 
describe failure, and there is some danger of that. I do not 
point fingers at anybody here, but given the history of the 
program, there is every reason to believe that could happen. It 
cannot be an ``in-perpetuity housing program.'' We have housing 
programs.

                             STATUS UPDATE

    So if you will, give me an idea of where we are in the 
process, the number of families that are eligible, if you will, 
the scale of the task in front of you, and how fast are we 
proceeding in getting people appropriately taken care of and 
relocated.
    Mr. Bavasi. We have at the moment 92 families that need 
relocation benefits. There are at this moment about 185, 190 
appeals. And in the past, the success rate ratio for an appeal 
has been about 10 percent. So we are thinking another 20 
families perhaps, so we are talking a little over hundred 
families that will need benefits. And so, we should be done. We 
will have 60 this year. We will have 60 contracts signed this 
year, and should be able to finish the rest by 9/30/18.

                            HOUSING PROGRAM

    Mr. Cole. That is good. Now, when we had the genuine 
pleasure of visiting the area, we visited Navajo Community East 
Mill and Hopi Spider Mound. In those areas there were houses 
that had been built that were deficient. So it is one thing to 
take care of people that have been on a waiting list and moving 
along there.
    Tell me about where we are with folks that were given 
houses in good faith, and those houses were not appropriately 
built. Where are we in resolving that? Are we going to have to 
go back and rebuild? Can things be repaired, and how big a 
problem is that going to be?
    Mr. Bavasi. Well, that is a difficult question.
    Mr. Cole. It was meant to be. [Laughter.]
    Mr. Bavasi. Yeah, meaning that I do not know how difficult 
it is going to be for you, but our program is not a perpetual 
housing program. Our program was intended to be over much more 
quickly than it is, and I think we all know the variety of 
reasons why it has not been completed. But one is that this is 
not a forced relocation program, so people frequently take 
their time to get through it, number one. Number two, probably 
more importantly, when this was first discussed in Congress, it 
was planned to be about 1,000 families. This turned out to be 
over 3,800 families that have been certified, so that is one 
reason it has taken longer than it needs to.
    But we have the mechanism in place to build the houses and 
build them quickly as long as we have the appropriations, and 
thank you for that. And so, we should be able to have this done 
without any problem at all in the time frame we said.
    Mr. Cole. Well, is there any provision or concern, again, 
you know, we certainly heard complaints about this house was 
appropriately built, that sort of thing. Number one, is that 
true. There is a big difference between something that has not 
been cared for appropriately and something that was built 
defectively. So I know you have to sort through that.
    I am interested in how big a problem that is, and how we 
resolve that portion so that insofar as we can, people that 
think they were given homes that were poorly built or poorly 
sided, whether there is legitimacy to that complaint, and that 
they are resolved.
    Mr. Bavasi. Any complaint we get, regardless of what it is 
or how old the home is, we will go out and inspect without 
question. If it is a latent defect, meaning a defect we did not 
spot when we were building the home, we will fix it 
immediately. If it is under warranty we will fix it 
immediately.
    Generally that is not the case. Generally for an older 
home, it is what we refer to as homeowner maintenance issues. 
And, you know, folks are expected to maintain their homes like 
anyone else would. And so, all the houses that we have built in 
my tenure there have met all international codes. So there has 
not been, at least in the evidence that I am aware of, of 
faulty construction.
    Mr. Cole. Yeah, and I do not think there has been in terms 
of during your tenure and the people that were there. There 
were certainly some concerns that pre-date you. It is a problem 
you inherited, so I do not want you to think this was directed 
at you or any of your current employees. But we did see some 
instances.

                      ELIGIBILITY APPEALS PROCESS

    I am curious as to how those cases get resolved. Is there 
an appeal process for that, you know, so that there is some 
adjudication of this, if you will?
    Mr. Bavasi. Well, when they come to us, that is what I was 
saying. I was not trying to be flip. I am not sure what problem 
you may have because when they come to us, you come to us with 
a problem, we immediately inspect it.
    Mr. Cole. Okay.
    Mr. Bavasi. If we are responsible, we will fix it 
immediately. If not, well then, we will tell you exactly what 
has caused the problem, what you need to fix the problem, and 
that is the end of our responsibility.
    Mr. Cole. Okay. You have been generous with your time, and 
I will finish with this question about the appeals process. As 
I understand it, it will last beyond your tenure, assuming we 
reach the guidelines or the target dates that we are 
collectively shooting for here.
    Tell me how that works, how anything, for which there is a 
legitimate appeal gets resolved once the office itself goes out 
of existence. Who would be responsible for, if a judgment is 
rendered, paying that judgment? I think that is one of Ms. 
McCollum's concerns, too. We do not want to just end the 
office. We do want to discharge the functions fairly and 
appropriately, and we want to make sure if there is some after 
math, that it gets taken care of and we do indeed end the 
effort.
    Mr. Bavasi. Our plan is to have all of the homes built by 
the time we are out of business, to have everyone have gone 
through the appeals process by the time we are finished. 
However, you are correct, there will be a 6-month--excuse me--
6-year time that they can appeal to the Federal courts that 
determination. And as we have discussed in the past, that is 
going to be some kind of responsibility, and we have not quite 
figured that one out yet, but it is going to be Justice 
Department and the Department of the Interior. I am not sure 
how that is going to work. And we have also talked about the 
possibility of having some kind of a trust fund set up to 
accommodate if there were to be----

                             JUDGMENT FUND

    Mr. Cole. Well, just out of curiosity, and I will direct 
this to the staff to my colleagues, is this something like the 
judgment fund or something would be in a position, because that 
is a very substantial fund, and it is a pretty well-established 
method as to how we handle those. And what you do not want to 
leave are people hanging out there, or forcing BIA or somebody 
else to pick up some obligation that they had not anticipated 
which diverts funds from someplace else.
    Mr. Calvert. If the gentleman would yield, I am hopeful 
that as we go through this process over the next 2\1/2\ years, 
and the questions are legitimate questions that are being 
asked, are addressed early, one, get that out there. And I am 
sure even after this offices closes that we probably will have 
to move some money over to the BIA to carry on some of these 
legacy responsibilities.
    You know, we were out there at Spider Mill, and it seemed 
to me just looking at it from my old job as a builder that 
there were some subsidence issues around there, and there may 
be some legitimate concern over and above, you know, immediate 
construction remedies that you do as a normal course of 
business. But that may or may not be the case, I am not sure. 
We will leave that to the experts to decide.
    Voice. East Mill, sir.
    Mr. Calvert. What is that?
    Voice. East Mill, not Spider Mill.
    Mr. Calvert. Excuse me, East Mill. I think we need to make 
sure we have a budget when we conclude this where we do not 
delay concluding your job, but move that responsibility to 
someone else where we can make sure that happens. We need to 
work with you to make sure we have sufficient funds to move 
over to the BIA, to make sure whether the judgment fund is 
involved, and all the rest of it so we can answer those 
questions when we move along.
    Mr. Cole. I yield back my time. Thank you, Mr. Chairman.
    Ms. McCollum. Mr. Chair, I am not an attorney, but it has 
been my experience here in Congress that if things are clearly 
settled in a court, then it goes to the judgment fund. That is 
why I think we need to know what all these legal documents are 
going to look like and what they are. We need to have the 
Administration's attorneys look at it, and the congressional 
staff review and look at it, so we know exactly what we are 
getting into.

                 HOUSING CONDITIONS: FOUNDATION ISSUES

    And I concur with both gentlemen that some of the things 
that we saw appear to be the fault of contractors. Then you get 
into the issue of warranties. I warranty this or I warranty 
that, or it is an act of God. But one of the things that I 
found really troubling was that we were in this area where all 
the foundations were cracking because there was a helium 
deposit underneath that. What has been the resolution on that? 
People were asking for that to be checked out. What was the 
final resolution on that area?
    Mr. Bavasi. Well, that is East Mill, and I do not believe 
that it is a helium deposit issue, but I am not an expert on 
that. But it is an expansive soil issue. And what we have done 
there is we have gone into any house that shows any problems, 
we have gone in and fixed the home or replaced it. We have 
replaced four homes, and as they come along, if there were to 
be another home that needs to be replaced, we would certainly 
do that.
    Mr. Calvert. If the gentlelady would yield, are you still 
building homes in that area?
    Mr. Bavasi. No. No, we are not.
    Mr. Calvert. Okay.
    Ms. McCollum. Thank you for clarifying that. We are done 
building homes there. But any time you have a soil condition, 
soil conditions can, change at the bat of an eyelash. If you 
already know you have a poor soil condition there, that goes 
back to people inspecting, and you said everything was state-
of-the-art. Who is overseeing the inspection process, the soil 
siting process, all those kinds of things? What code are you 
using? Are you using Federal code, State code?
    Mr. Bavasi. It is international residential codes (IRCs), 
and we do all of the inspection, and we bring in outside 
contractors if we need to. In the case of East Mill, we had 
some helical piers put in, and so we had outside contractors do 
that.

                 CONTRACTING AND INSPECTION PROCEDURES

    Ms. McCollum. Well, I just hope that we are not being too 
naive in who we are having do the contracting. I know it goes 
out to bidding, and bidding is important. All of us want to 
respect the taxpayers' dollars. But some of the things that we 
have seen in schools and elsewhere have not given us 
confidence, and this is not to you personally.
    Mr. Bavasi. Sure.
    Ms. McCollum. It has not given us great confidence that 
inspection procedures have been carried out to their full 
benefit. Sometimes the lowest bid is the best, but we really 
need make sure that the inspection process is done properly. 
Soil siting at the school that we saw, which has nothing to do 
with the project that we are talking about today, but some of 
the contract work that we saw at that school was troubling. 
When I can see things, and Mr. Calvert, who has a lot more 
experience, and Mr. Cole are even seeing more things--things 
that were avoidable that the taxpayers are having to go back 
and do again.
    If there is any help you need in making sure that, even if 
we have to double inspect, we need to get this right. I know 
that is what you want to do, and I have every confidence you 
will do that. But if you need any further help from us on that 
because you feel your hands are tied in some way, please do not 
hesitate to ask us for our help.
    Mr. Bavasi. Thank you. I appreciate that.

                           RELOCATION PROCESS

    Mr. Calvert. Just a couple of other questions on this 
relocation process. Does your Agency have the legal authority 
to choose an eligible recipient home site for them?
    Mr. Bavasi. We do.
    Mr. Calvert. How many times has your Agency exercised that 
authority?
    Mr. Bavasi. None that I am aware of.
    Mr. Calvert. With your increased workload and target 
closeout date, does your Agency intend to exercise that 
authority, if necessary, to meet your deadlines? If not, what 
are your alternatives?
    Mr. Bavasi. Well, I suppose we will if we need to. We are 
hoping that is not the case. Of all of the folks who are 
certified eligible at the moment, as I mentioned earlier, there 
are only 11 that have not been forthcoming and worked 
cooperatively with us. And they have all been notified that 
they needed to respond to us more quickly or we would 
administratively close the case.
    Mr. Calvert. This is important because we do want to come 
back here in a year or 2 years and find out that there is a 
person that stops this whole process. That is what happened 
before. So that is something that is important because, again, 
I want to see this close out at the end of 2018.
    Any other questions?
    Voice. Mr. Joyce.
    Mr. Calvert. Mr. Joyce.
    Mr. Joyce. No, sir.
    Mr. Calvert. Ms. McCollum.
    Ms. McCollum. No.
    Mr. Calvert. Okay, fine. I appreciate your coming out from 
Arizona. We appreciate your being here. Thank you so much. And 
this hearing is adjourned.
    Mr. Bavasi. Thank you for your help.
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    

                                          Wednesday, March 2, 2016.

                       DEPARTMENT OF THE INTERIOR

                               WITNESSES

HON. SALLY JEWELL, SECRETARY, U.S. DEPARTMENT OF THE INTERIOR,
MIKE CONNOR, DEPUTY SECRETARY
KRISTEN SARRI, PRINCIPAL DEPUTY ASSISTANT SECRETARY, POLICY MANAGEMENT 
    AND BUDGET

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. Okay. I think we will get started here. Some 
good news. There are not going to be any votes until 5:00, so 
we will have no interruptions during this hearing.
    So the committee will come to order.
    Secretary Jewell, I would like to welcome you to today's 
hearing along with Deputy Secretary Mike Connor, Principal 
Deputy Assistant Secretary for Policy, Management and Budget, 
Kris Sarri. Our hearing today will address the Fiscal Year 2017 
budget priorities for the Department of Interior.
    Madam Secretary, let me begin by wishing you a belated 
happy birthday.
    Secretary Jewell. Thank you.
    Mr. Calvert. I heard you climbed a mountain on a wall, 
whatever that is.
    Female Voice. Which mountain.
    Mr. Calvert. Yeah, well, it is one of these mountains you 
put on----
    Secretary Jewell. There is a rock gym in Arlington.
    Mr. Calvert. There you go. [Laughter.]
    Secretary Jewell. It was a great party.
    Mr. Calvert. Close enough. With the November elections just 
around the corner, this may be your last budget hearing before 
our subcommittee as Secretary. On behalf of the subcommittee, I 
want to thank you for your service and willingness to have 
frank discussions regarding the challenges we face.
    In particular, I want to thank you for your tireless 
personal efforts to reform the Bureau of Indian Education. 
Working together, we have made real progress improving the 
quality of life and education throughout Indian Country. This 
is further evidence that we can work together to find common 
ground, even if we do not agree on every issue.
    In that spirit, I would like to mention a few things before 
we receive your testimony. Overall the President's Fiscal Year 
2017 budget request provides $11.9 billion in discretionary 
funding for Department of the Interior programs under the 
subcommittee's jurisdiction, 1 percent below the Fiscal Year 
2016 level. The budget request assumes a reduction of $169 
million in discretionary funding for wildfire programs while 
providing $290 million for fire programs through a budget cap 
adjustment.
    The challenge of providing adequate wildfire funding 
remains one of the greatest challenges facing our subcommittee. 
I want to applaud my friend, former subcommittee chairman, Mike 
Simpson, for his continuing efforts to address this issue 
through his bipartisan legislation, which by the way has now 
145 co-sponsors.
    The budget request proposes funding PILT, which is very 
critical to our rural communities in the West, on the mandatory 
side of the ledger, but without providing an offset. This 
budget gimmick will only add to our challenge of addressing 
many legitimate needs in this bill.
    The centennial of the National Park Service is one of the 
highlights of this year's budget request. Last year the 
subcommittee made a substantial investment in our national 
parks, providing additional funds for Park operations, 
addressing longstanding deferred maintenance issues. We will 
endeavor to make similar investments this year within the 
confines of our 302(b) allocation, which I am sure the chairman 
will let us know about pretty soon.
    Like many from the West, I am concerned about the President 
using authority under the Antiquities Act for designating large 
national monuments. President Obama has used this authority 22 
times since 2009 to designate nearly 4 million acres as new 
national monuments. This is more than every other President, 
except Jimmy Carter and Bill Clinton. These large designations 
often disregard the views and concerns of affected communities, 
local stakeholders, and their representatives in Congress.
    Another challenge facing the Department and the 
subcommittee is the Endangered Species Act. ESA is a well-
intentioned statute that has saved numerous species from 
extinction, but the authorization has long expired. We can and 
must have an open and realistic discussion in Congress about 
what is working and what is not.
    It is increasingly clear that the Administration's priority 
goal is to make several forms of energy uneconomical, even 
obsolete. The latest example is the White House using the 
Department to double down on its anti-coal agenda by proposing 
a 3-year review of the Federal Coal Leasing Program and a 
moratorium on new coal leasing on public lands. Many perceive 
this as yet another attack on a key industry that supports 
energy production and energy jobs in the United States. I 
suspect the Department will face a number of lawsuits on the 
decision to halt coal leasing on Federal lands. I also expect 
you all to encounter significant challenges from the States 
should you attempt to increase the cost of coal via higher 
bonding requirements.
    The committee fully expects the Department to follow the 
clear congressional direction from the Fiscal Year 2016 omnibus 
working with the States as partners on the stream buffer rule 
rather than ignoring States as has been the case since 2010. 
This is an issue of great interest and concern to members of 
this committee.
    I am also concerned that the Administration is taking a 
page from the war on coal playbook and applying it to oil 
production. It appears that the Department is attempting to 
make it as costly as possible to operate offshore facilities so 
investors will simply walk away from prospective sites. Onerous 
requirements under the well control rule, for example, will 
likely lead job producers to opt not to drill in areas 
currently producing oil. The result is the Obama Administration 
de facto moratorium on oil production without engagement with 
Congress.
    Lastly, even with the El Nino rains, my home State of 
California remains in the midst of a devastating drought 
affecting families, businesses, and landscapes across the West. 
While this subcommittee is limited in what we can do to address 
the drought itself, I implore you and the Department to apply 
common sense and take full advantage of opportunities under the 
law to store and pump these El Nino rains.
    So far, even with the increased rainfall, we have not 
pumped as much water as we did last year in the midst of a 
drought. We have had 3 times as much as rain, and we have 
pumped less water. As of mid-February, more than 192,000-acre 
feet, enough water to serve over 2 million people for 1 year, 
has been lost because of lack of adequate pumping. That is 
pumping within the biological opinion. That is enough water to 
serve San Diego and San Francisco combined for a year. I ask 
you to use your remaining time as Secretary to provide some 
desperately needed relief to the people of my State.
    In closing, I once again want to express my appreciation to 
the professional staff. Our subcommittee could not do its work 
without your budget shop, the various bureaus, and the folks 
sitting behind you. Thanks to each of you for everything you 
do.
    And with that, I am happy to yield to the gentlelady from 
Minnesota, Ms. McCollum, for any opening remarks she would like 
to make.

               Opening Remarks of Congresswoman McCollum

    Ms. McCollum. Thank you, Mr. Chairman. Secretary Jewell, I 
join with the chairman to welcome you to the subcommittee 
today. Ms. Sarria, Principal Deputy Assistant Secretary of 
policy, management, and budget, and, Deputy Secretary O'Connor, 
I welcome you, too.
    Last year, we were able to make great gains in repairing 
the damage caused by sequestration, increasing the Department's 
funding by $1.3 billion. I am so pleased to see that your 
Fiscal Year 2017 budget request builds on that progress. The 
Department of Interior budget continues its dedication to 
conservation and the protection of America's cultural and 
natural resources in so many ways.
    The subcommittee is united in its commitment to the social 
and economic well-being of Native Americans, so I am pleased 
that the budget request advances Indian education by investing 
in elementary and secondary education, and by continuing the 
more robust Education Construction funding that was enacted 
last year. These investments are a good start, but so much more 
still needs to be done.
    The centennial of the National Park Service is underway, 
and the budget takes a forward-looking approach to a second 
century of stewardship. It proposes investments necessary to 
begin tackling the backlog of maintenance needs across the 
National Park system, so that these treasures are preserved for 
the enjoyment of current and future visitors. And while I 
support these increases, I do have to express my sincere 
disappointment with the Department's failure to fund the Save 
America's Treasures grant program.
    The Department also maintains a commitment to engaging the 
next generation to be stewards of the land by dedicating $1.3 
million for youth programs. These programs build a strong 
foundation for preservation for our natural and historic 
heritage through initiatives like Every Kid in a Park and the 
Urban Wildlife Conservation Program.
    I also appreciate the budget's strong emphasis on strategic 
science investments. This work provides data and tools to 
inform sound decision making to address complex challenges such 
as drought, response to natural hazards, and climate change.
    Once again, the Administration is proposing to reform the 
way we fund wildfire costs. This proposal will provide a more 
reliable way of funding wildfires. Additionally, the budget 
does not include funding for payment in lieu of taxes, the PILT 
program. Instead, it calls on Congress to do its duty and to 
reauthorize the program as mandatory spending.
    I support this approach. Counties rely on the Payment in 
Lieu of Taxes Program, and discretionary funding does not 
provide the certainty that these local units of government 
deserve. The rising cost of firefighting and PILT are consuming 
a growing portion of the interior bill, and I encourage the 
authorizers to address these issues.
    Finally, I would be remiss if I did not call attention to 
the Department's workforce. The Department of Interior is 
70,000 employees strong. These civil servants dedicate their 
lives to managing and sustaining our national treasures. They 
work relentlessly to ensure that public lands are there for the 
collective use and for the appreciation of all of the American 
people. They deserve to do their jobs safely and free from 
intimidation or abuse. And so, to these men and women, I want 
to say thank you to all of you. You are very appreciated.
    Madam Secretary, I look forward to your testimony this 
afternoon, and I thank the Chairman for the time. I yield back.
    Mr. Calvert. I thank the gentlelady, and we are joined 
today by our distinguished chairman of the full Appropriations 
Committee, Chairman Rogers, and I thank him for taking the time 
to contribute to this important conversation. Chairman Rogers, 
would you like to make any opening remarks?

                   Opening Remarks of Chairman Rogers

    Mr. Rogers. Thank you, Mr. Chairman. Madam Secretary, 
welcome to the subcommittee. Your Department plays a central 
role in the stewardship of our natural resources and the 
preservation of our national heritage. From operating fisheries 
to running our national parks, even processing permits for coal 
mining--a few----
    [Laughter.]
    Your Department touches almost every aspect of life in my 
district as well as those across the country.
    Not so long ago, we called on your Department to join an 
interagency task force, an effort to raise the water level at 
Lake Cumberland back up to its historic pool level while saving 
the endangered dusky tailed darter, who, by the way, I learned 
last week, is doing just fine in his new habitat. I appreciate 
your participation in this important effort, and I am pleased 
to report that my constituents are enjoying boating and fishing 
on Lake Cumberland once again.
    That said, other communities in my district in Kentucky 
cannot tell a success story quite like that. In a few short 
years, I have seen 10,000 of my miners lose their jobs, 
struggling to find work in communities that are experiencing 
staggering unemployment. And let me be clear about one thing. 
Working in the coalfields was a good job for these miners. This 
industry provided high wages and reliable work in my part of 
the country for decades, and watching these miners grapple with 
starting over again is heartbreaking. Going from a job in a 
mine that paid $80,000 to trying to find a job at a McDonalds 
unsuccessfully, and trying to pay those bills and raise those 
small children.
    Not to mention for every one mining job we lose in my area, 
we lose three to four more in other industries associated with 
it, leaving us with 12 and even 15 percent official 
unemployment in some of my counties. We have a real crisis in 
Appalachia, and some of the policies championed by your 
Department only exacerbate the very real challenges that they 
face every day.
    Every department in this Administration has bought into the 
``keep it in the ground'' strategy with respect to our 
country's most abundant resource, each one handing down their 
own set of anti-coal edicts aimed at shuttering power plants 
and coal companies nationwide. Coal is a plentiful and an 
inexpensive commodity, and your Department should be seizing 
every opportunity to unlock this resource and maintain its 
sizable footprint in our energy economy.
    Instead, this Department is perpetuating an unaccountable 
regulatory scheme that leaves businesses waiting on permitting 
and leasing decisions for months and years even at a time, and 
levies unworkable compliance costs on already overburdened job 
creators.
    A particularly concerning piece of this wrongheaded 
regulatory agenda is the Department's proposed stream 
protection rule. For over 4 long years now, you have been 
spending millions of dollars rewriting the stream buffer zone 
rule finalized in 2008. Your Department has led an entirely 
mismanaged and insular rulemaking process from the start, 
seeking input from no one other than your politically minded 
colleagues bent on destroying the coal industry through 
regulation. This committee has heard time and again from your 
so-called State partners that you have left them completely out 
of the rulemaking process.
    There is no doubt that this rule will have a tremendous 
impact on determining on what coal can and cannot be mined, and 
will result in the bulk of it being left in the ground. One 
independent analysis of the proposed rule indicates that it 
threatens up to 280,000 jobs, most of which are in Appalachia. 
That is the equivalent of dozens of small towns in my region, 
and a high price to pay for what will be imperceptible 
environmental gains.
    All the same, your Department doubled down on its anti-coal 
stance earlier this year when it issued a moratorium on all 
Federal coal lease sales. This decision halts proposed coal 
lease sales in nine States, including my home State of 
Kentucky, while you engage in an unnecessary study of the 
Federal coal leasing process. Even pending lease decisions will 
be shelved during this exercise. And you know as well as I that 
this moratorium is just another excuse to keep coal off the 
market so it cannot compete with other resources.
    This approach is not a winning strategy for energy 
independence or economic growth in the country. We have an 
unemployment crisis in Eastern Kentucky, a disaster, and 
despite our efforts to retool and encourage economic 
development, these regulations are proving too much to overcome 
in some areas.
    Efforts such as the AML Pilot Program that this committee 
began last year and the President's Power Plus proposal for 
economic development on abandoned mine lands represent just a 
small portion of what it is going to take to get Appalachia 
back on its feet. The job creators in this region need relief 
from these onerous regulations in order to keep jobs in the 
coalfields online and to turn their good ideas for economic 
diversification into employment opportunities.
    These issues mean everything to the communities that are 
struggling to make ends meet in rural Appalachia. We need to 
set the right priorities here in Washington so that they can 
resurrect their economies and put their people back to work. 
Having said that, I look forward to hearing your testimony 
today.
    Mr. Calvert. Thank you, Mr. Chairman. I am also pleased to 
see our ranking member of the full committee, Ms. Lowey, is 
here today. I am happy to yield to the gentlelady for any 
opening remarks she would like to make.

                 Opening Remarks of Congresswoman Lowey

    Ms. Lowey. Well, thank you very much, Mr. Chairman and 
Ranking Member McCollum. Secretary Jewell, thank you for 
joining us this afternoon and for your service to our country. 
I hope you had a happy birthday.
    Many of America's natural wonders are a testament to our 
national heritage and symbols of the values upon which this 
great Nation was built. From the Statue of Liberty, to the 
Selma to Montgomery National Historic Trail, and All-American 
Roads, these sites represent significant moments in American 
history and mark the incredible progress our Nation has made 
since its inception.
    The Department of Interior is charged with the significant 
task of conserving and protecting these sites, but the 
Department of Interior does so much more. It is responsible for 
the wellbeing of Native Americans, protecting wildlife, 
managing energy production, and providing for the public use 
and enjoyment of nearly 618 million acres of Federal land.
    To support this critical mission, the Administration is 
requesting $12.3 billion in discretionary funding. If enacted, 
this request would reverse some of the steep declines these 
programs have suffered as a result of sequestration. These 
declines led to a reduction in routine maintenance, aging, and 
understaffed park facilities and public lands at greater risk 
of fire because they have not been properly managed.
    The President's Fiscal Year 2017 request also continues our 
commitment to our national parks and their centennial 
anniversary. These historic sites contribute billions of 
dollars to the U.S. economy every year, so it is critical that 
we maintain these parks and keep them safe and accessible for 
visitors.
    I am also pleased the President's budget seeks to increase 
investment for Native Americans. The all of government approach 
to addressing Federal responsibilities and tribal needs in 
Indian Country is necessary to improve the quality of life for 
those who living on tribal lands.
    Finally, I am especially pleased by the President's focus 
on advancing clean energy and taking much needed action on 
climate change. Through the President's Climate Action Plan, 
the Department of Interior will have funding to increase 
renewable energy resources and build community resiliency to 
help communities cope with the impacts of climate change we 
have already seen today.
    In short, your budget invests in public safety and economic 
prosperity that will improve the wellbeing of all Americans 
today and in the future. And I hope this subcommittee works 
support these crucial initiatives.
    I appreciate the commitment and the passion you bring to 
the job. I look forward to your testimony. Thank you, Mr. 
Chairman.
    Mr. Calvert. I thank the gentlelady. And with that, Madam 
Secretary, I am happy to yield to you for your opening 
statement.

                  Opening Remarks of Secretary Jewell

    Secretary Jewell. Thank you very much. Chairman Calvert, 
Ranking Member McCollum, Chairman Rogers, and Ranking Member 
Lowey, and members of the subcommittee, thank you so much for 
the opportunity to discuss the Fiscal Year 2017 budget request.
    This is, as you point out, the Administration's final 
budget, and I want to take the opportunity to thank all of you 
for working with me and my team over the last 3 years to help 
the Department meet its mission for the American people. And 
special thanks for the support we received in this current 
Fiscal Year.
    I would like to also take a moment to mention the incident 
we just had at the Malheur National Wildlife Refuge in Harney 
County, Oregon. Through tremendous patience and 
professionalism, the FBI, with support from State and local law 
enforcement, ended the occupation on February 11th as quickly 
and safely as possible after more than 40 days. This was an 
incredibly disruptive and distressing time for our employees, 
their families, and the Harney County community.
    I am proud of the Department of Interior law enforcement 
personnel who supported the response and helped keep our 
employees safe. We continue to cooperate with DOJ, the FBI, and 
others as the investigations move forward, and we remain 
committed to working with local communities on the management 
of public lands.

                             BUDGET REQUEST

    Our overall Fiscal Year 2017 budget request is $13.4 
billion. Specifically for programs within this subcommittee's 
jurisdiction the request is $12.3 billion. It builds on 
successes we're achieving through partnerships, the application 
of science and innovation, and balanced stewardship. It gives 
us the tools to help communities strengthen resilience in the 
face of climate change, conserve natural and cultural 
resources, secure clean and sustainable water, engage the next 
generation with the great outdoors, promote a balanced approach 
to safe and responsible energy development, and expand 
opportunities for Native American communities. These areas are 
core to our mission, and they play a vital role in job creation 
and economic growth.
    The budget invests in our public lands, providing $5 
billion to support operation of our national parks, historic 
and cultural sites, wildlife refuges and habitat, and managing 
multiple use and sustained yield on our Nation's public lands. 
It focuses investment on important working landscapes like the 
western sage steppe, and the Arctic, and proposes a 10-year $2 
billion coastal resilience program to support at risk coastal 
States and local governments, including funding for communities 
in Alaska, to prepare for and adapt to climate change.
    As the National Park Service begins its second century, the 
budget provides $3 billion and includes a proposal to dedicate 
significant funding to reduce the deferred maintenance backlog. 
I want to have a special call out to this committee for your 
support of the National Park Centennial this year and your 
words in that regard.
    The budget calls for full and permanent funding of the Land 
and Water Conservation Fund, and it extends the expired 
authority for the Historic Preservation Fund. It reflects the 
Administration's strategy to move effectively to budget for 
catastrophic wildfires. Again, I want to thank you for your 
leadership in this committee and Congressman Simpson in 
particular for his leadership on bringing attention and 
constructive solutions on wildland fire.
    In response to drought challenges across the West, it 
continues to safeguard sustainable and secure water supplies. I 
know there will be a robust conversation, on that, Chairman 
Calvert.
    We continue to engage the next generation of Americans to 
play, learn, serve, and work outdoors with $103 million for 
youth engagement. This includes mentoring and research 
opportunities at the U.S. Geological Survey, urban community 
partnerships, scholarships, and job corps training for tribal, 
rural, and urban youth, and work opportunities in our bureaus. 
There is $20 million for the Every Kid in a Park initiative, 
which introduces all of America's 4th graders to their public 
lands, providing education programs across the country, and 
transportation support for low-income students.
    We continue to promote a balanced approach to safe and 
responsible energy development that maximizes a fair return to 
taxpayers with $800 million for renewable and conventional 
energy development, a $41 million increase. We're on track to 
meet the President's goals of permitting 20,000 megawatts of 
renewable energy capacity on public lands by 2020 with nearly 
$100 million for renewable energy development and 
infrastructure.
    Offshore, this budget supports the Bureau of Ocean Energy 
Management and the Bureau of Safety and Environmental 
Enforcement with funding to reform and strengthen 
responsiveness, oversight, and safety for oil and gas 
development, and onshore, $20 million supports BLM's efforts to 
develop a landscape level approach to oil and gas development, 
modernize and streamline permitting, and strengthen inspection 
capacity.
    We are expanding educational and job opportunities for 
Native American communities with $3 billion for Indian Affairs, 
a 5 percent increase, to support Native youth education, as was 
mentioned, American Indian and Alaska Native families, public 
safety, and building resilience to climate change. The 
President's budget calls for a $1 billion investment 
specifically in Indian education and $278 million to fully fund 
contract support costs, a cornerstone of tribal self-
determination. The budget supports our commitment to resolve 
Indian water rights settlements and supports sustainable water 
management in Indian Country with $215 million, a $5 million 
increase.
    It also includes funding to strengthen cybersecurity 
controls across all bureaus. It invests in science and 
innovation with $150 million for USGS' National Hazards, an $11 
million increase. And funding will continue development of 
Landsat 9, a critical new satellite expected to launch in 2021.
    We believe this is a smart budget that builds on our 
previous successes and strengthens partnerships to ensure we 
balance the needs of today with opportunity for future 
generations.
    So thank you, and I'm happy to respond to any questions you 
have. And I can tell there's going to be a number of robust 
questions coming my way. Thank you.
    [Laughter.]
    [The information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    
    Mr. Calvert. And with that, we are going to start with our 
chairman, Mr. Rogers.

                         STREAM PROTECTION RULE

    Mr. Rogers. Well, thank you, Mr. Chairman. Madam Secretary, 
the stream protection rule that I referred to has been a 
boondoggle wrought with controversy from day one. Congress and 
the courts have both weighed in with concerns about the 
substance and the process of this rulemaking. Most recently in 
the 2016 omnibus bill we told OSM to consult the statute and 
consult with their State partners. OSMRE has supposedly been 
rewriting the stream protection rule in coordination with 
several States, including Kentucky. But I have heard from 
several of these States that their input has not been solicited 
or incorporated by OSMRE throughout the process.
    As you know, under SMCRA, you are required by law to work 
with the States on this rule and to incorporate their input 
before finalizing that rule. That rule is expected to destroy 
over 280,000 jobs in Appalachia and elsewhere, and I am 
extremely concerned about how the Department managed the 
development of this rule, ensuring that States have a role in 
the process.
    Can you tell me how much we have spent so far on this rule 
to date?
    Secretary Jewell. Kris, do you have a number in terms of 
what we spent?
    Ms. Sarri. We do not have that number.
    Secretary Jewell. No, we do not. We will have to get back 
to you with that. Would you like me to comment, though, on the 
process?
    Mr. Rogers. Please, but surely we have some idea of the 
cost.
    Ms. Sarri. I just do not have that number with me, so I 
want to make sure I give you an accurate number. I will try to 
get that right now.
    Mr. Rogers. What is your estimate?
    Ms. Sarri. I think the director at one point had put an 
estimate of $6 million.
    Secretary Jewell. Our team is scrambling in the notebooks 
behind, so before I finish answering this question, hopefully 
we will have some sense. It sounds like we will have to get 
back to you for the record.
    Mr. Rogers. All right.
    [The information follows:]

                         Stream Protection Rule

    OSMRE has spent approximately $10.5 million to develop the rule. 
This includes $6.5 million in obligations for contract support to 
develop portions of a draft environmental impact statement (DEIS) and 
the regulatory impact analysis (RIMA); and $4.0 million for staff, 
travel, facilitator for hearings and other items.

    Secretary Jewell. Let me just say that it has been an 
incredibly long process. I appreciate that. The Office of 
Surface Mining Reclamation and Enforcement did engage with 
States early on and took that input. They published the draft 
Environmental Impact Statement on July 17th with a proposed 
rule 10 days later. They conducted six public hearings, one of 
them in Lexington, Kentucky, most of them in coal country 
throughout the Nation. And they are analyzing just shy of 
100,000 comments received during the comment period. We have 
also had 15 meetings with 13 different States. I understand the 
State of Kentucky declined to meet with us, but we would 
welcome their participation.
    We are taking that State input, and we will use that 
certainly to advise the final rule based on this process. At 
this point, we would welcome participation from your State. We 
do believe this rule is essential. The stream buffer zone rule 
put in place in 2008 was vacated, so we feel we need to address 
very real water quality issues and the impact to the watersheds 
of the mining practices. And that is what this rule intends to 
do.
    Mr. Rogers. Specifically, in the omnibus bill, OSM is 
required to provide the States with all technical reports, 
data, analyses, comments received, and drafts relating to the 
environmental reviews, draft environmental statements, the 
final EIS. They are also required to meet with any primacy 
State at the request of that State. Those congressional 
directives are in direct response to OSMRE's failure to work 
with the States in a collaborative manner as partners, if you 
will, in the development of the proposed rule and draft EIS. It 
is absolutely essential that this failure be corrected so that 
States will be more involved in the rulemaking process as the 
law requires.
    In response to the language in the omnibus bill, how have 
the Department and the Agency taken steps to begin working 
collaboratively with the States on the stream protection rule?
    Secretary Jewell. Two comments. Certainly we fully intend 
to comply with the language in the omnibus, and the reference 
documents that were specified in the language should be 
available very soon, and will be provided to States as well as 
posted on our public Website soon thereafter. They are being 
compiled as we speak and will be released relatively soon.
    Mr. Rogers. How soon will it be?
    Secretary Jewell. My language says shortly after February 
29th. This is now March 2nd, so I do not know an exact date, 
but soon.
    We also have held, as I mentioned, 15 meetings already with 
13 different States. There are several States that have chosen 
not to meet with us including Kentucky, but we would welcome 
their participation and value their input.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you. Ms. Lowey.
    Ms. Lowey. Well, thank you, Mr. Chairman, and thank you 
again for your important work.

                             WILDLIFE TRAPS

    I am extremely concerned about the use of body gripping 
traps within the national wildlife refuge system. One of the 
key problems with these traps is that they are non-selective, 
meaning they do not only catch the animals they are intended 
for and pose a great danger to individuals who may also be 
harmed by these traps. More than half of our Nation's 550 
refuges allow trapping and the use of steel jaw leg hold traps 
despite the fact that this inhumane trap has been banned by 
more than 85 countries and 8 States. Body gripping traps are 
not necessary for the maintenance of wildlife refuges, 
especially since there are alternative and more humane ways to 
remove or relocate animals.
    Two questions, because I have been hearing about this issue 
for a very, very long time. To what extent do you keep records 
of the types of traps set and what those traps catch within the 
National Wildlife Refuge System? Do you believe that the 
continued use of body gripping traps is conducive to the 
original purpose of the National Wildlife Refuge System?
    Secretary Jewell. Congresswoman, thank you for the 
question. I will take this one for the record because I do not 
have information on this. I do not know if we keep these 
records. I do know that we allow hunting and fishing, but the 
methodologies used, you know, must be consistent with our 
authorizing statute. But I do not know, so I am going to have 
to get back to you on that.
    [The information follows:]

                                Trapping

    The Fish and Wildlife Service, which manages the National Wildlife 
Refuge System, does not collect information on a System-wide basis 
concerning the types of traps used on wildlife refuges nor the 
associated take of wildlife.
    The National Wildlife Refuge System Improvement Act of 1997 
(Improvement Act), which amended the National Wildlife Refuge System 
Administration Act of 1966, established an overall mission for the 
Refuge System; to ``administer a national network of lands and waters 
for the conservation, management, and where appropriate, restoration of 
the fish, wildlife, and plant resources and their habitats for the 
benefit of present and future generations of Americans.''
    The Improvement Act's accompanying Committee Report specifically 
addresses trapping as a management tool to conserve and manage healthy 
populations of fish, wildlife, and plants. One of the listed methods 
and procedures, ``regulated taking'' encompasses management tools such 
as hunting, trapping, and fishing. (H.R. 1420 Committee Report [105-
106], page 7).
    The majority of trapping programs on Service lands are implemented 
to accomplish wildlife management objectives in order to contribute 
towards the purpose and mission of the individual refuge, as well as 
the mission of the Refuge System. Trapping is an important management 
tool the Service uses to protect endangered and threatened species, 
migratory birds, and control certain wildlife populations.

    Ms. Lowey. I appreciate it. And by the way, I have had 
legislation on this issue, I think, for the last 20 years. So I 
would really appreciate your getting back to me, giving me an 
up-to-date report.

                        NATIONAL HERITAGE AREAS

    On the National Heritage Area, your budget request proposes 
a number of important investments. However, there is one 
program in which the request falls flat, the National Heritage 
Areas. Once again, the Administration proposes to slash the 
program by $10 million. This is a significant cut that would 
have real impacts on the heritage areas. For example, in my 
region, the Hudson Valley National Heritage Area received 
$491,000 last year. If the proposed cut were enacted, the 
Hudson Valley would only receive $180,000 in Fiscal Year 2017. 
This is debilitating, and if you could explain why the budget 
is proposing to cut this program to such a degree.
    Secretary Jewell. Yes. Thank you, and I appreciate your 
support for the heritage areas, and as we have talked about 
before, I support them as well. Specific to the Hudson River 
Valley which was authorized in 1996, we funded it in 2015 and 
2016 at $491,000. I know the National Park Service is 
collaborating closely with the National Heritage Areas to 
develop a methodology to allocate program dollars. We really 
want to try and work with them toward self-sufficiency to the 
extent we can.
    I know it takes time to do that. We are happy to continue 
working with you through this budget process. But, you know, it 
is one of those challenging tradeoffs we made in terms of 
staying within the top line.

                       GRAND CANYON NATIONAL PARK

    Ms. Lowey. And just lastly, I do not know if my time is up, 
so we can continue this discussion. But I have been extremely 
disturbed by a report that found evidence of a long-term 
pattern of sexual harassment and hostile environment for at 
least 19 employees at the Grand Canyon National Park. Some of 
these women reported boatmen on their team would refuse to take 
them to their worksites if they rejected their sexual advances. 
One employee even said that one boatman withheld food from 
employees who refused, and this is shocking. Do you want to 
make a comment on it?
    Secretary Jewell. I will say that I am equally shocked. The 
Park Service is on this. It is conducting a full investigation. 
It will absolutely take appropriate action. This is not 
acceptable behavior within the National Park Service, and if 
proven to be true, there will be consequences.
    Ms. Lowey. I really appreciate that, Mr. Chairman, because 
I was shocked to hear it. In fact, one of my daughters was 
deputy director of a Park Service. Thank you, Mr. Chairman.

                           CALIFORNIA DROUGHT

    Mr. Calvert. Thank you for your questions. Well, Madam 
Secretary, I think you know what I am going to be talking 
about. We have a little drought in California. You may have 
heard about it. I have a chart up here behind Mr. Israel 
showing what is going on in the California Bay delta. Our 
reservoirs continue to be dangerously low. The winter's rain 
was a chance to fill these reservoirs. The first 2 months of 
this year produced double the amount of water that we received 
all of last year. All of last year. These rains should have 
provided needed relief to drought-stricken communities in 
California, yet you are pumping less water than you did last 
year in a historic drought, and this is significantly more rain 
and we are pumping less water than we did last year.
    This just defies common sense. You know, the Endangered 
Species Act gives the Department some amount of flexibility. 
You know, we have gone through this very carefully. If you had 
simply chosen to pump as much water as is allowed under the 
biological opinion, you would have provided enough water for 2 
million people for an entire year.
    Instead, the Department sent the extra water out to sea, 
and that is not coming back. And it may be that we are not 
going to see significant rain for the balance of the year. But 
if we do, I would hope that you could help the people of the 
State of California. What do you say to the millions of people 
who could have been helped by these El Nino rains?
    Secretary Jewell. I am going to turn the lion's share of 
the question over to my colleague, Mike Connor, who is far more 
expert in these areas. But I will say that everything is 
stressed. The people are stressed. The farms are stressed. The 
landscapes are stressed. And that has factored into the 
decisions that have been made.
    I will also say that fortunately this year you have a 
better snow pack, so there is some precipitation and storage 
that will come out later in the year. But Mike has been working 
very, very closely with everyone in the Bureau of Reclamation 
and in the State on this, so I am going to ask Mike to answer 
the specifics.
    Mr. Connor. Mr. Chairman, I agree it has been a frustrating 
year from the standpoint you referenced given that we at least 
had a 2- to 3-week period where there was lots of 
precipitation. It has since, as you well know, substantially 
reduced over time.
    Mr. Calvert. There were some days where we were getting 50 
to 60 thousand cubic feet per second moving through the delta.
    Mr. Connor. Yeah, I do not remember seeing it that high. 
There probably was a couple of days. I know we were definitely 
in the 25 to 35, even 40,000 CFS outflow range, which is very 
significant. I think under the water quality permits, you have 
to maintain at least 15,000.
    Having said that, as the Secretary noted, the drought has 
had a devastating impact on people as well as overall 
environmental conditions. And that is the reason why operations 
for a period of time this year have been fairly conservative, 
and it is because the monitoring and the assessment of the 
delta smelt have been, the basis upon which they developed 
their incidental take statement, indicated they were at their 
lowest levels than they had ever sampled.
    And so, the Service has been very concerned that any 
entrainment event that could occur from pumping might have such 
an impact it might endanger the existence of the species. They 
are concerned about extinction of the delta smelt.
    Mr. Calvert. Well, as you know, over 95 percent of the 
water on some days was going through underneath the Golden Gate 
Bridge. How much water does it take to satisfy that 
environmental requirement? 100 percent? 99 percent?
    Mr. Connor. The issue is really what are the pumping 
levels, how much can you pump while not bringing the delta 
smelt towards----
    Mr. Calvert. And that is a great point. When you have that 
much water moving, how can you reverse flow that? As you know, 
the pumps are capable of pumping up to 11,000 cubic feet per 
second. Most of those days that we are talking about in 
January, you were pumping less than 2,5000 cubic feet per 
second. Less than 2,500 cubic feet per second.
    As I understand from the people that are up there, the old 
timers, the fish were not anywhere near the pumps. Matter of 
fact, there was just one day I think they took an incidental 
take of one fish. And they had to drop their pumping 
immediately. One fish.
    Mr. Connor. There are a couple of responses. When there is 
outflow coming from the San Joaquin, from the southern side 
where the pumps are located, you have the possibility of 
pumping a lot more. There is a lot more outflow going out 
through that system. Here we have had most of it come out of 
the Sacramento system, so it is at the top of the system. And 
so, you still have smelt south of the delta that you are 
concerned about.
    There has been take, which is obviously a strong concern at 
that point in time, but also in the sampling they have done, 
they have sampled and detected smelt in the southern delta 
area. They have been very sensitive to any potential 
entrainment events, and it has been, from that standpoint, that 
we have not pumped to the maximum limits under the biological 
opinions.
    Mr. Calvert. Are we ever going to pump? Are we ever going 
to see any water going to these reservoirs?
    Mr. Connor. Well, I looked at the records, and that gets to 
the 192,000-acre feet. I mean, I think we should compare notes 
because just on the back of envelope I have looked at it, and 
we are estimating about 70,000 acre-feet that have been lost 
under the biological opinions.
    The biological opinions started to control pumping around 
January 7th when we met actually. I think that was right at the 
transition period. Since that time, there has been, I think, 27 
days where we have not pumped the maximum under the biological 
opinions. For the last couple of weeks, we have been at about 
5,800 CFS, which is the maximum under the biological opinions.
    And that approach and the concern about the species is 
probably going to continue. I am hoping we can get at least a 
couple more precipitation events, particularly in the south 
side of the system, and maybe we can go above the 5,800 CFS 
level like we did last year.
    Mr. Calvert. Well, all we can do now is hope, hope that it 
rains because we cannot pump water that is already gone.
    Mr. Connor. It has been a frustrating year from the water 
user's perspective. I absolutely understand that. We will look 
and continue to try and maximize flexibility. There have been 
times when the Smelt Working Group has proposed even more 
stringent pumping limitations. Water users, other stakeholders, 
have gotten together and decided to operate a little bit more--
--
    Mr. Calvert. Just a last comment. I know the Secretary 
mentioned stress. We have got farmers that are pretty stressed 
out in the Central Valley. Just last week it was announced that 
a major farmer is pulling out 10,000 acres of trees. 10,000 
acres of trees. And the people that attend to those trees are 
out of work.
    So just as much of a crisis what is going in coal country 
right now is happening in my State of California, and, by the 
way, people forget we are the largest farming State in the 
United States, but we have 1 million acres out of cultivation 
this year. 1 million acres.
    I know we have a historic drought. I know the problems that 
you are operating under. But when you see more rain by 
multiples this year, and we are pumping less water than we did 
last year, most people look at that and say what the heck is 
going on. How do you explain that?
    Mr. Connor. Mr. Chairman, may I make just one more comment? 
This is a very frustrating situation, and the way we operate 
now, it is going to continue to be frustrating. Hopefully we 
will rebuild storage, and we will get back to water allocations 
next year, because we are rebuilding at least some storage this 
year.
    I do think this year is indicative of the need for new 
approaches and solutions. And as you know, and you and I have 
discussed, Cal Water fixed and provides the opportunity for new 
conveyances, one of those options. I think this year in 
particular is indicative of a year where there would have been 
a lot more water supply had we had conveyance and diversions in 
the ----
    Mr. Calvert. Well, you know, I wrote the Bay Delta 
Agreement 15 years ago.
    Mr. Connor. Yes, sir.
    Mr. Calvert. And we have still not yet gone through the 
environmental procedures to get to construction on these 
projects. And we have gone through two additional biological 
opinions since that was done, and each biological opinion has 
become more and more restrictive. And the irony of this is the 
smelt population, for whatever reason, has continued to go 
south since 1992. Obviously there has been significant 
restrictions on how we operate the delta.
    So I think anecdotally there is other information that we 
are not applying. I wish we should use good science to look at 
this problem and how we are operating up there because this 
clearly is not working.
    Ms. McCollum, you are recognized.

                            INVASIVE SPECIES

    Ms. McCollum. Thank you, Mr. Chair. Madam Secretary, last 
week I attended Governor Dayton's water summit back home in 
Minnesota, and I heard firsthand the concerns related to our 
waterways. They included invasive species such as Asian carp, 
nitrates in our water from agricultural runoff, aging water 
infrastructure, the effects of climate change, and a whole host 
of other concerns.
    These conversations highlighted the importance of the work 
that you and the employees at the Department of Interior do who 
are there to listen and take in concerns. I want you to know 
that we value the research that USGS has done to better 
understand our water quality and use. In my own State of 
Minnesota, we see the importance of the conservation work being 
done by Interior in our national forests, the refuges, and the 
parks.
    I just want to pass along how much Minnesotans appreciate 
the work that the Department of Interior is doing to protect 
our waters. We hope out of that summit there will be some more 
innovative and creative ideas on which more collaboration can 
happen.

                       INDIAN SCHOOL CONSTRUCTION

    However, there was another issue that I heard about while I 
was back home. Even at the water summit, folks were talking 
about it. That was the Bug School, Bug-O-Nay-Ge-Shig School on 
Leech Lake Reservation. Secretary Jewell, you know, we have 
talked about it. You visited that school. You saw the 
deplorable conditions that the students and faculty have to put 
up with every day. I know you have visited other schools in 
Indian Country, and you are hearing the alarm bells go off loud 
and clear. That is why last year working together in a very 
nonpartisan way, we increased funding for replacement school 
construction by $25 million, and funding for replacement 
facility construction by $12 million.
    Now, I understand the Bureau of Indian Education is close 
to finalizing its new replacement school construction list, and 
has been making progress on developing these replacement 
facilities priorities. I would like you to update the committee 
on status on these lists. Also, you did send, I will call it, a 
white paper over with some ideas that you had on how we might 
be able to speed up school construction.
    With high suicide rates, with the Generation Indigenous 
initiative, with what we are hearing about the stress that many 
of these communities are facing with drugs, alcohol, and now 
the current heroin epidemic, the youth that were here from 
Indian Country the last 2 weeks are looking to us for 
leadership. They see education as an opportunity for more 
progress and more success for them in their lives ahead.
    Can you update us and the committee on how you see us 
progressing on school construction for the Bureau of Indian 
Education? As we are getting ready to hand over to the next 
Administration, what do you think the President will encourage 
the next President of the United States to be doing on these 
issues in Indian Country?
    Secretary Jewell. Thank you for the question, and I would 
say, more importantly, thank you to this committee in 
particular for your personal interest, your engagement, your 
CODELs out to Indian Country to see firsthand what is going on.
    First on school construction. We had over 50 schools that 
submitted applications for whole campus replacement 
construction. We narrowed that down to 10. We had them do 
additional presentations. The input from those presentations is 
being analyzed to come out with a list, and it is weeks away I 
think, so very, very soon.
    On the Bug-O-Nay-Ge-Shig school specifically, certainly the 
language that you put in the appropriations report helps shine 
a spotlight on that particular property. That is something that 
is also in process and evaluation. As we talked about on the 
phone, we have to make sure the scope of the work is 
appropriate and it is prioritized well relative to other 
replacement facilities. That is in process, but you can expect 
there will be resolution to that relatively quickly.
    How do we speed up school construction, this whole process? 
We had a list that dated back to the 2004. With the support of 
this committee, the final two schools on that list are being 
done. We have a whole process dictated by the No Child Left 
Behind Act that we have been following so that we have a more 
of a living effective list going forward. That is what has 
taken awhile, frankly, in coming up with the next few schools 
we are going to prioritize. But it will be a robust process so 
we can keep that list up to date, and recognize that things 
change. I mean, population demographics change. If we can make 
investments that can extend the life of one particular 
facility, that may raise something else on the priority list.
    Those are all, I would say, nearing completion in terms of 
the process.

                BUREAU OF INDIAN EDUCATION REPROGRAMMING

    On the reprogramming, thank you for the support of the BIE 
reprogramming. We have posted the new jobs. Some of them are 
existing jobs that will continue. Some are new jobs people are 
applying for. The period of time to apply for those closes on 
March 11th, and we expect to have them beginning to be filled 
by the middle of April.
    We have already started a robust training program for 
teachers so students will begin to see changes in the 
classroom. We are working with school boards on training for 
school board members as part of the program. Then, of course, 
we have the sovereignty in education awards for tribes that 
want to take over control of the schools.

                           TIWAHE INITIATIVE

    So I think students will begin to see a difference in the 
classroom probably already this year, but next year. But more 
importantly, you mentioned Generation Indigenous. You mentioned 
high suicide rates. The fact is we need to work across 
government and with tribal communities to address some of these 
really challenging issues.
    School facilities can be an ideal spot, gathering place for 
parenting classes, for counseling, a safe place for kids to go 
after school. This is part of what we are encompassing in the 
Tiwahe initiative, so there is an increase in the budget for 
the Tiwahe initiative which looks at whole families and 
communities. We have through the President's action, formed the 
White House Council on Native American Affairs, which I chair. 
We have hired a full-time staff member for that, which is a 
career staff position. So that will continue beyond this 
Administration.

                            INDIAN EDUCATION

    And, of course, the people that are leading Indian 
education, the BIE career staff, will also continue into the 
next Administration. And they are being trained for the new 
positions and are supportive of the changes. I mean, change is 
hard. You do not do it all in a year. Larry Roberts, our acting 
assistant secretary, was just in Albuquerque meeting with our 
leaders in the BIE going through all of this, all-employee 
meetings and so on. I was there a little bit before that 
meeting with leadership. I feel like we are in a good spot, but 
we cannot do it without everybody working together.
    I will just mention quickly one more thing. It is hard 
without a clock, so I am sorry. But Pine Ridge is a Promise 
Zone community. The Ag Department picks those, but we have got 
a strike team in place to really understand what is happening 
with suicides. We'll look at what we can learn from an effort 
on Pine Ridge with SAMHSA, which is a unit of HHS, the Indian 
Health Service, the BIA, and the BIE, to see if we work 
collaboratively together and with Ag and some of their rural 
programs, can we make a difference.
    There is a lot going on. Continuity is really important, so 
it is about our career staff and, you know, mechanisms put in 
place for this cooperation so it will continue to live well 
after we are gone. Thank you.
    Mr. Calvert. Thank you. Mr. Simpson.

                           STEENS WILDERNESS

    Mr. Simpson. Thank you, Mr. Chairman, and thank you, 
Secretary, for being here today. A couple of statements first 
with regards to the Steens Wilderness in Oregon. I know my 
colleague, Congressman Walden, has been very frustrated with 
obligations that the BLM has to build and pay for a fence to 
keep cows out of the wilderness as per the legislation that was 
passed. In order for wilderness bills to succeed and be 
accepted, they must keep the promises that were made.
    I am pleased that Director Kornze spoke with my staff this 
morning, and it sounds like we may be headed toward a positive 
solution with this problem, and I will speak to him further 
tomorrow. But that is something that needs to get done.

                             WILDLAND FIRE

    I appreciate your support for the wildfire fighting bill 
that I think every member on this subcommittee is a co-sponsor 
of. Unfortunately we did not see it get across the finish line 
last year. We keep pushing it a little further each year. But 
what Chairman Calvert was able to do is get an extra billion 
dollars in an outside account for wildfire fighting. While we 
do not think that is the permanent solution we need, hopefully 
it will stop the fire borrowing for at least a year or 2 years, 
or until we have an extremely bad year.
    My advice, as I told the chief of the Forest Service is, do 
not do any fire borrowing this year. Take the money out of the 
account that was set aside to do this. One of the challenges we 
have is trying to explain to our colleagues that do not 
understand what we are doing, why we want to do what we want to 
do in regards to fixing fire-borrowing. They say, well, it all 
worked out. They do not see what was not done because you 
borrowed money from the accounts that we appropriated money 
for. So it would be my suggestion that you do not pursue any 
fire borrowing this year, so we can show people the 
consequences.

                              SAGE GROUSE

    Now, a couple of things I would ask you about. One would be 
sage grouse, but I suspect other people are going to talk about 
sage grouse a little bit. You have proposed a $79.2 million for 
sage grouse conservation, huge increase. We used to ask for 
about $15 million for sage grouse. Last year it was $45 million 
increase. One of the things this committee wanted to make sure 
is that we did not list sage grouse. And one of the potential 
excuses was that we did not fund what was requested. So we made 
sure we put those resources into sage grouse conservation.
    This year it is a $14.2 million increase over last year. 
What are we going to do with the $79.2 million sage grouse 
money?
    Secretary Jewell. Largely that is $66 million in the BLM to 
implement the resource management plans, about a $14 million 
increase. It is for on the ground vegetative treatments to 
protect, improve, and restore the sage steppe, in Boise. The 
best smelling trip I took last year was to the seed warehouse.
    Part of what we need to do is actually find the right ----
    Mr. Simpson. You could have just said Idaho in general. 
[Laughter.]
    Secretary Jewell. Some parts of Idaho I have not had the 
same experience. But that is the cattle business. Yeah, that is 
good, too, right.
    So it is largely implementation of the resource management 
plans. There is money for the National Seed Strategy. You have 
done some innovative stuff in Idaho. You have used volunteer 
groups, youth groups to collect seed, to plant sage brush. All 
of that kind of work maintains a healthy sage brush ecosystem 
and restores it when there have been fires and that is all 
wrapped into the BLM request.
    We have juniper removal, particularly true in Oregon, that 
is critical to the stage steppe. It is actually following 
through on the resource management plans that got us to a not 
warranted listing.

                                 WOLVES

    Mr. Simpson. Okay. And one quick question because I have 
got to go to another hearing, if I could ask it, Mr. Chairman? 
I would hope that the Department would support what this 
committee has been trying to do, and that is implement the Fish 
and Wildlife's decision on wolves in the Great Lakes and 
Wyoming. The decision to delist that was made by science. They 
went through all the studies and everything else to make the 
determination.
    I will tell you that no matter what happens, somebody is 
going to sue until the cows come home or do not come home. We 
are trying to get away from the lawsuits, and it is what we did 
in Idaho and Montana, which was supported then by Secretary 
Salazar. We would hope that the Department would support this 
committee's efforts in trying to make sure we do not spend the 
next 10 years in court trying to defend the decisions the Fish 
and Wildlife Service made on delisting of wolves in Wyoming and 
the Great Lakes because they are clearly recovered.
    Secretary Jewell. Well, we agree they are recovered, and we 
are frustrated by the lawsuits. I would hope the Endangered 
Species Act does not have to get administered by the halls of 
Congress. I think that is the only objection we have is that, 
you know, we are frustrated we lost that lawsuit.
    Mr. Simpson. We are not trying to change the Endangered 
Species Act or anything else in this case. What we are trying 
to say is listen, it has worked for wolves. It has done its 
job. Fish and Wildlife has made a decision. They have the 
hearings, they have had the comment periods, and so let us move 
on, and that is all we are saying. We are not trying to delist 
them. We never delisted wolves in Idaho and Montana. All we did 
is implemented the Fish and Wildlife decision. So that is where 
we are coming from.
    I appreciate it. Thanks for the work you do.
    Secretary Jewell. Thank you.
    Mr. Connor. Congressman, can I just add one thing? I just 
want to say thank you in your role as chairman of the Energy 
and Water Appropriations Subcommittee for the additional 
drought funding for the Bureau of Reclamation. I think we have 
good investments that will not alleviate all the concern, but I 
very much appreciate it. It is much needed, from 
infrastructure, restoration, conservation across the board. I 
appreciate it.
    Mr. Simpson. Thank you.
    Mr. Rogers. Mr. Chairman, can I ask unanimous consent to 
proceed for 1 minute?
    Mr. Calvert. Yes, sir.

                         STREAM PROTECTION RULE

    Mr. Rogers. I will be real brief. Madam Secretary, you 
earlier said Kentucky did not want to meet with you. I have a 
letter here that the governor wrote on February 8th in essence 
saying as soon as we get the documents that the omnibus bill 
says we are to receive from you, which they never did, which 
you never sent them. He says as soon as they get those 
documents and review them, they want a meeting.
    Secretary Jewell. That is great.
    Mr. Rogers. And I want to file this letter with the record 
of the hearing.
    Mr. Calvert. No objection. Part of the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Rogers. Is that correct?
    Secretary Jewell. I have not seen that letter, but if that 
is what it says, we will get them the documents. We would be 
delighted to meet with them.
    Mr. Rogers. They want to meet. They want input. But they 
cannot do it until you send them the documents that back up 
your claim.
    Secretary Jewell. Okay.
    Mr. Rogers. Thank you. Thank you, Mr. Chairman.

                                 WOLVES

    Mr. Calvert. Thank you, Mr. Chairman. Next, Ms. Pingree, 
but before I turn to Ms. Pingree, on the wolf issue, as time 
keeps going on, you may want to take a look at Oregon and 
Washington also because it looks to me from reports I have been 
getting that the wolf population in Oregon and Washington is 
clearly beginning to recover quite handsomely based upon the 
number of dead sheep I have been hearing about.
    So with that, Ms. Pingree.

                             CLIMATE CHANGE

    Ms. Pingree. Thank you very much, Mr. Chair. Secretary 
Jewell, thank you for your work. Thank you for everyone who is 
with you here today, and we certainly do appreciate the big 
challenges that come before your Department and the great work 
you have been doing with them. I am just going to take up one 
issue right now, and it is not as big as drought and wildfires 
and some of the economic challenges that people have been 
addressing.
    But I want to say in the context of the fact that we really 
appreciate the parts of your budget that are calling attention 
to and asking for funding around climate change. I just think 
many of us hearing back from our States about the impacts of 
climate change, and certainly in mine with so many lobstermen 
and fishermen. They are worried about ocean acidification and 
rising sea levels, and movement of the some of the species of 
our fish because of the warming of the water.
    So we have to deal with a lot of those issues as well as 
our wood lots and small farmers worrying about extreme weather. 
So I really appreciate the focus that you give to us and 
helping us to think ahead about how to deal with those 
challenges.

                          TICK BORNE DISEASES

    And one of them that we have seen an increasing problem 
with is the incidence of Lyme disease. My understanding is that 
there are 30,000 cases a year. Lyme is the sixth most common 
disease reported to the CDC even though we do not talk about or 
hear about it much, and it is the most common vector-borne 
disease. The CDC has said in 2013 it is probably getting 
reports only for about 10 percent of infections, so in reality 
that number is probably higher.
    Now, my State, it could have a huge economic impact. We 
call it our vacation land, and we are proud of many of the 
other activities that go on in our State. Tourism is a big 
issue, and the more people hear about tick-borne diseases, the 
more they are affected by it, and the more challenging some of 
the vector-borne diseases become, less easy to cure, more long 
lasting. We want to know everything we can and do everything 
that we can about protecting the outdoors in Maine.
    Your budget calls for $2 billion in mandatory spending for 
a coastal climate resilience program, which I am very eager to 
see. I think in your discretionary budget there are also 
various areas where work by the National Park Service and USGS 
are trying to address this need. But just going beyond signage 
and public awareness campaigns, I think we really need to work 
to know more on tick eradication. I am very excited about the 
work that is being done by the National Wildlife Help Center at 
USGS.
    So just if you want to discuss that a little. I do not know 
how familiar you are with this, but the budget does include $4 
million, an increase from 2016, to $39 for the National 
Wildlife Service Center and climate science centers. Can you 
tell me a little bit about how that increase will be used to 
further the work being done around how wildlife and their 
habitats are being affected by ticks and tick-borne pathogens? 
That is also an issue for many regions besides mine.
    When the ticks become devastating to wildlife population, 
sometimes eradicating them all together, sometimes having a 
huge impact on hunting opportunities in those States. And how 
does this work fit into some of the overall missions and goals 
with Interior on understanding climate change and its impact?
    Secretary Jewell. I can talk at a higher level. I cannot 
talk into super detail. We have about $63 million in the budget 
for climate science, and that includes about $31 million for 
the National Climate Change and Wildlife Science Centers that 
you mentioned. That is up about $4 million.
    Every time I visit the USGS science labs, it is clear we 
are just scratching the surface, whether it is eDNA for Asian 
carp, which is an aquatic invasive tick-borne disease, or 
white-nosed syndrome in bats. Whatever the causes, we are not 
exactly sure, but how do we deal with this? We are a bit 
overwhelmed by the demand on the services relative to our 
capacity to provide support.
    I would also say USGS works in partnership with 
universities throughout the country, and those grants 
oftentimes are also really critical. This will help us to 
continue the work we are doing, but certainly if we could find 
additional ways to support these programs, we could support 
more university research in conjunction with the USGS, Fish and 
Wildlife Service, and so on to address even more.
    That is about as much detail as I have on this, and if you 
would like me to follow up specifically on the tick issues with 
the USGS, I would happy to do that.
    [The information follows:]

                   Tick Borne Illnesses and Wildlife

    The USGS is investigating the effects of environmental factors on 
tick populations. As the range of Lyme disease expands, the USGS is 
collaborating with the Public Health Agency of Canada and university 
partners to determine how climate, wildlife dynamics, and tick genetic 
factors influence Lyme disease distribution. To predict the effects of 
climate change, field and laboratory study results are being integrated 
into models of tick population and tick-borne disease dynamics. In 
regards to wildlife health, the USGS's National Climate Change and 
Wildlife Science Center partners with the Wildlife Conservation Society 
to understand the effects of climate change on moose populations in the 
Northeastern United States. Winter ticks have been associated with 
moose die-offs across North America. This study is emphasizing the use 
of scenario planning to assist States with moose management decisions 
in response to high tick abundance and other climate-related factors.

    Ms. Pingree. I think that would be helpful, because, we 
have to address it when we are back in our home State, and 
people are always asking us, how is the Federal government 
helping? We do not have enough resources in our own State. So, 
to be able to provide a few more details would be useful.
    Also, just to reinforce that your request for additional 
funding is something I certainly support, and I hope that we 
can continue to enhance this because I think, I am talking 
about one tiny little problem like a tick. But it could have a 
huge impact on a lot of States like mine, and it is just one of 
many things I think we are going to continue to see as we deal 
with some of these climate change issues.
    So thank you. Thanks for your time. Thank you, Mr. Chair.
    Mr. Calvert. Thank you. Mr. Cole.
    Mr. Cole. Thank you very much, Mr. Chairman. Madam 
Secretary, always a pleasure to see you.

                       VIOLENCE AGAINST WOMEN ACT

    An issue that I wanted to ask you about is after a number 
of years in working across the aisle, and with the 
Administration, we changed the Violence Against Women Act to 
extend more authority to tribes to deal with what is an 
epidemic of domestic violence and violence against women in 
general. Obviously authority is not capacity, and we have a 
number of tribes. I actually met earlier today with the Pascua 
Yaquis, who are invested in this, and I think are taking it 
very seriously.
    Can you, number one, tell us how the pilot projects are 
proceeding, where you are pleased, and any concerns you have. 
And second, can you give us some sort of long-range vision on 
what our responsibility would be, in your view, to provide 
capacity? Again, some tribes are going to have the ability to 
finance these kind of efforts, and it is everything from good 
law enforcement to appropriate judicial systems and detention 
facilities. Some tribes simply will not. And so, I would like 
to get your views on this going forward.
    Secretary Jewell. Well, let me start by saying thank you 
for your advocacy for this, and I appreciate former Attorney 
General Holder for his commitment and the Department of 
Justice's work to actually get tribes included in the VAWA 
reauthorization.
    How that pilot project is going, I would say it is 
frustratingly slow. I will follow up with Larry Roberts and get 
more information to you specifically, but there are still just 
a few locations where we are piloting this. There are still 
many examples of violence against women that are not being 
prosecuted by local tribal courts that are not part of this 
pilot.
    I think we have work to do in terms of educating local law 
enforcement on the very real risks women and children, frankly, 
are facing in Indian Country from non-Indian predators that 
really are not being held to account. I think we have a long 
way to go.
    I think in terms of the long-range vision, we need greater 
capacity in tribal courts than we have. They have a significant 
backlog. We need greater capacity in law enforcement. We have, 
as you know, run pilots for law enforcement, actually leading 
into a number of different law enforcement agencies--the U.S. 
Park Police, National Park Service, Fish and Wildlife, other 
law enforcement entities--to beef up enforcement on 
reservations across the whole spectrum of criminal justice. And 
it has had a profound impact on reducing crime.
    But we do have a challenge filling the jobs in Indian 
Country and covering the landscape frankly so that when a woman 
does call 9-1-1, they may or not get a response. It may be a 
long time before somebody is able to respond just because of 
the large territories, few people, and lack of resources. I 
think we have a lot of work to do still.

                         LAND BUY-BACK PROGRAM

    Mr. Cole. Thank you. One additional question if I may, not 
related, but in Indian Country, and you may want to get back to 
us for the record on this. A number of years ago we made a very 
significant financial commitment in the Cobell settlement, and 
we have had a couple of hearings on this, Mr. Chairman, but 
that is a multiyear project, a lot of money involved frankly. 
And I least want to get your assessment of where we are both in 
terms of sort of reuniting fragmented land, getting that back 
into use by tribes, and then the individual compensation 
awards.
    Secretary Jewell. We are making great progress, and I am 
going to ask Mike to answer with the details.
    Mr. Connor. Yes, Congressman. This is one of the areas that 
if you had asked me what I was going to spend most of my time 
on when I first got confirmed it wouldn't have been the Land 
Buy-Back Program. Fortunately it is really taken off, and let 
me give you some quick metrics.
    We are about 33 percent of the way through the 10-year time 
frame for implementing the settlement, and we have expended 
about $736,000,000, or 47 percent of the funds already, in 
restoring fractionated interests back to tribal trust 
ownership. That is the equivalent of about 1.5 million acres of 
land.
    We were allotted $285 million for administrative costs. 
Even though we have expended 47 percent of the funds, we have 
only expended 15 percent of the administrative costs. Our goal 
is, at the end to be able to take some of the administrative 
money and put it back into restoring even more lands over time.
    We have made offers at about 33 percent of the 40 most 
fractionated locations. We have selected 42 locations for 
implementation through 2017. The reason I have to get out of 
here at 3:30 is we are having a listening session in 
Albuquerque tomorrow to take input. In a couple of weeks tribes 
are going to finalize their input on how we plan out the 
balance of the program through the remainder of the 10 years. 
Hopefully through that we will have a plan, not just for the 
42, but how we will either move forward to the 140 total 
locations out there, or move forward to a percentage, and think 
about how we might go back to other lands we have already made 
offers on.
    Overall, it has just been a very successful program I think 
because of the great work our team has done, the great 
leadership in Indian Country, and the great bipartisan support 
there has been.
    Mr. Cole. Well, I really want to thank you on these 
efforts. I think it makes a big difference in terms of dealing 
with past grievances, and, frankly, putting land back to 
productive use for tribes. So the Administration is to be 
commended here, and I would like to continue to work with you.
    Mr. Chairman, I yield back.
    Mr. Calvert. Thank you, Mr. Cole. Next, Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman, and thanks, Madam 
Secretary, for being here.

                              PUGET SOUND

    As you may have heard, we had more than 50 folks from 
Washington State here this week for the 2nd Annual Puget Sound 
Day on the Hill. They came all the way from the other 
Washington to advocate for what is not just an incredible icon 
of our region, but a body of water that is in deep trouble and 
that requires attention from the Federal government. They have 
been talking to Federal agencies, Members of congress, and 
staff about both strong investments and better coordination 
with partners at Federal agencies so that we can take those 
recovery efforts to the next level.
    You have been a great champion for Puget Sound and its 
recovery, and I am grateful for that. I was hoping you could 
just talk for a moment about steps your Department is taking to 
try to streamline Puget Sound Recovery efforts, and the 
planning that can be done with other Federal agencies to try to 
move these efforts to the next level.
    Secretary Jewell. Derek, it is great to see you, and I am 
surprised I did not know until you told me that all the 
Washingtonians were in town. I figured they might be asking for 
tickets to the Washington Monument. So you can send them our 
way. [Laughter.]
    I do not have a depth of knowledge on the specifics of the 
programs. I do know that we have $18.8 million in the budget 
which will help move projects forward. About half of that is 
for the Fish and Wildlife Service for work in the marine 
estuaries, the health of those ecosystems on the tributaries, 
and working with tribes. There is $5.2 million in the budget 
for the BIA specifically to work on largely, fisheries 
management issues. And then there is another $4.3 million with 
the USGS to continue their research.
    But beyond that, in terms of how we dig into that, I do not 
have the details, but I am very happy to provide that to you if 
you would like more.
    Mr. Kilmer. Thanks. It is a high priority, as you know.
    Secretary Jewell. Understand.
    [The information follows:]

                              Puget Sound

    The health of Puget Sound is vital to the region's economy, 
tourism, quality of life and recreational, commercial, and subsistence 
fisheries. We continue to make improvements to our processes and 
abilities to develop the best scientific data, restore habitat, recover 
imperiled species, and provide consultations for Federal, State and 
local governments, and industry. For example, in cooperation with the 
Federal Highway Administration, the Washington Department of 
Transportation, and the National Marine Fisheries Service, the Fish and 
Wildlife Service developed technical guidance on evaluating the effects 
of stormwater on Chinook salmon and other listed species to support 
transportation projects in the region. The Bureau of Indian Affairs 
cooperates with area tribes to coordinate continuing treaty harvest 
management, population assessment, habitat protection, stock 
enhancement, and data gathering programs involving fish, wildlife, and 
shellfish resources. And the U.S. Geological Survey recently completed 
research that found that protection and restoration of floodplains 
along the 17 major rivers in the Puget Sound Basin could increase the 
health of rivers and their ecological value, while protecting people 
from future flooding. These findings will help inform the design of 
projects that are in concert with Puget Sound recovery goals.

                     COSTAL CLIMATE RESILIENCE FUND

    Mr. Kilmer. I know that Ms. Pingree mentioned the Coastal 
Climate Resilience Fund. So the district I represent includes a 
whole bunch of rural communities that lie in the tsunami zone. 
Coastal communities like Westport and Ocean Shores are seeing 
much more severe storm events and flooding and there are four 
coastal tribes in the district that I represent that are in the 
process of trying to move to higher ground.
    I was hoping you could provide a roadmap for what this 
program is going to look like if it is funded, and how the 
program is going to address the specific needs of the 
communities I represent and others along the coast.
    Secretary Jewell. The short answer is we recognize there 
are big issues. When I was in Alaska about a year ago, and then 
the President was in Alaska as I was also in early September, 
he saw up close the Village of Kivalina that is washing away, 
the same issue around the Makah and Quileute tribes.
    Just take Kivalina as an example, when I was up in there 
February of last year, they estimated the cost to relocate that 
village, which will wash away potentially in a storm that could 
happen really at any time. The cost to relocate by the Corps of 
Engineers, they said was roughly between $200 and $400 million. 
I mean, that is one tiny village in Alaska.
    The $2 billion Coastal Climate Resilience Program needs a 
source of funding. We have proposed a source of funding. It is 
going to be difficult obviously congressionally to get that 
done. It is redirecting the GOMESA money in the offshore oil 
and gas revenue share that really ramps up in 2018, and saying 
we need that for coastal climate resilience to protect 
communities from climate change.
    I would say if that is funded, there will likely be a 
competitive process to determine, what are the areas of 
greatest need. Similar to what we learned after Hurricane 
Sandy. The $60 billion that you as a body approved after that 
devastating storm, a good chunk of it was both through HUD and 
our own programs. It was done through a competitive process 
where communities step up, put creative solutions on the table, 
and those are ranked and funded accordingly. So I think you 
could expect that kind of a situation.
    You did not mention ocean acidification, but that is also a 
big factor along the Washington coast. It is impacting oyster 
growers and shellfish farmers, just as Congresswoman Pingree 
mentioned, big issues with lobster and with the disease 
affecting lobster, like the sea stars that we have had in the 
Pacific coast.
    These are very real, and I think you can expect a kind of 
competitive process by which we allocate if we are able to get 
those monies. But that is one of the congressional mandatory 
program recommendations that would require legislative action. 
We would appreciate you bringing your stories to the table so 
it has a better shot at getting done.
    Mr. Kilmer. Thank you. Thank you, Mr. Chairman.
    Mr. Calvert. Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Chairman. And, Madam Secretary, 
it is good to see you. We appreciate you taking the time.
    I think it is clear that you and I might see the world 
differently in many important respects, but I appreciate your 
sincerity. I think in many ways you have a difficult job. But I 
would like to express some frustration to you if I could, and 
it is not directed at you. I am expressing this frustration to 
you on behalf of the people that I represent back home.

                         FEDERAL IMPACT ON COAL

    And if I could, I would like to tell you about some of 
those people. I would like to tell you that I know a coal miner 
back in a very rural, very poor district. There are two coal 
mines in Utah, well, in my district, very high-quality coal, 
clean coal. And we have been working as hard as we can for 
years now to keep those coal mines open. It looks like we will 
fail in one instance and maybe in both of them. And I do not 
want to say to this miner and his family because nearly a third 
of the jobs in this county will be lost if that coal mine 
closes.
    I know a teacher in my district, and I come from a family 
of educators. And one county has actually had to declare an 
education emergency. Now, I did not know there was such a 
thing, but apparently there is, because they have lost over the 
course of a few years two-thirds of their students. And now 
they are looking at busing the remaining students well over an 
hour to go to high school.
    The reason they have lost these students is because 
families have left the county because there are no jobs. There 
used to be jobs in mining, in ranching, in forestry, and in 
timber, and there just simply is not any longer.
    I know a rancher in my district, and he came to me. This is 
a humble man. He is not a radical. He is not one of those who 
are joining with some of these other organizations, and he has 
tears in his eyes, and he shows me a letter he gets from BLM 
that they are cutting his grazing rights in half. And the thing 
that I see in him is fear, and it is not only fear about his 
family and their future. It is a genuine fear of the Federal 
government. And I do not know what to say to him in those 
circumstances.
    One more if I could, and then I will ask a question. I know 
a business owner who used to have a thriving business. Now, 
they were not, you know, making millions, but he was supporting 
his family. But in that area they transitioned to an economy 
based on tourism, so instead of being open 12 months a year, he 
is open 3 and a half months a year. And he is struggling for 
the other 8 and a half months to find ways to feed his family.
    Now, that is the impact of Federal decisions on families 
and on people. And when you have to deal with them, as I know 
you do, and as the rest of us around this table do on a very 
regular basis, there are many times when I simply do not know 
what to say to them.

                          MONUMENT DESIGNATION

    Now, in this instance a lot of that was because of a 
Federal decision to create a monument. And by the way, when the 
President at the time, Bill Clinton, created that monument, 
nearly 2 million acres, he did not come to Utah to do it. He 
stood on the Arizona side and pointed to Utah, and said I am 
creating a monument over there because he honestly did not have 
the courage to come face the people that were going to be most 
impacted by it.
    There are many of us in Utah and particularly my district 
who are scared to death the Administration is considering of 
another national monument in Utah in my district. Are you 
working on a monument proposal in Utah? I will just ask that 
question first and get your response, and then follow up if I 
could.

                            FEDERAL IMPACTS

    Secretary Jewell. Okay. As you did in Arizona, I will give 
you a little bit of background. First, I understand the 
transitions that go on in communities. Congressman Kilmer and I 
are from the same home State. Commodity-based businesses like 
oil, gas, coal, timber, which have impacts on the environment, 
which is not a static thing, do impact lives in a very real and 
profound way, and they impact communities, and that is very 
difficult. On a micro level, we must work together to help 
support those families.
    In grazing and ranching, the BLM is managing a mandate of 
multiple use and sustained yield, and we have seen changes on 
the landscape where the sustainable yield may lower in terms of 
how many cattle a given area can support compared to what it 
was in the past. That is real difficult if you are that 
rancher, but that is part of the job of the BLM. So those are 
really, really difficult.
    And our employees are your constituents. They live in your 
communities. They are in schools with people that are affected. 
I am fully supportive of working together on programs that help 
people retool as the commodities are changing around them. It 
is easy to blame the Federal government and regulations for 
issues on things like coal, but it is also a commodity that has 
been impacted by natural gas, switching to natural gas pricing, 
worldwide demand for coal. It is not all about regulation.
    Mr. Stewart. But if I could just clarify. In my instance, 
it really was about a Federal decision. These were not taking 
place because of market conditions in any of them. They were 
all a result of a single Federal decision, in this case 
creating a monument.
    Secretary Jewell. Okay.
    Mr. Stewart. And I understand what you are saying. There 
are other things at play, but just to clarify my set up----
    Secretary Jewell. You are talking about the Grand 
Staircase-Escalante.
    Mr. Stewart [continuing]. I am talking about the Grand 
Staircase and the fear of another repeat of that.

                          MONUMENT DESIGNATION

    Secretary Jewell. Yes. To your question specifically, both 
Congress Members Bishop and Chaffetz were in my office earlier 
this week on Monday. I had met with them previously I think in 
June or July about the public lands initiative they have been 
working hard on. I know there have been a tremendous number of 
community meetings they have held with a variety of 
stakeholders. I think there were pretty high hopes that that 
effort would result in a successful, balanced approach. There 
is a group called the Bears Ears Inter-Tribal Coalition, I 
believe. They have met with me. I sent them over to Congressman 
Bishop to meet with him to talk about the public lands 
initiative, which they did.
    Since the early language has come out on that document, 
there is a tremendous amount of frustration about the language 
largely dealing with what they call wilderness has a number of 
exceptions that are not consistent with typical wilderness 
designations. In that context, yes, the Bears Ears Coalition 
has come in. They have advocated for a monument. This is not a 
secret. It is something that we have suggested they come and 
talk to the delegation about.
    There have been a number of people that have come in since 
the public lands initiative was ruled out saying what we 
negotiated hard for in these thousands of meetings, we do not 
feel was honored in the language that came out. And you do have 
in that region some pretty incredible assets that do warrant 
protection.
    As I said to Congress Members Bishop and Chaffetz, we have 
not done any monument designations without engaging with local 
communities. We would certainly do that should there be any 
efforts to move forward in that region. But I think, I would 
hope, both of us would agree that Utah, in specific the Cedar 
Mesa area, is spectacular with clear antiquities that warrant 
protection. We would welcome your support and engagement in 
looking at what appropriate protections for those landscapes 
would be.
    Mr. Stewart. Well, thank you, and I would respond I guess 
with maybe three points quickly, and then I want to ask one 
more very quick question.

                        PUBLIC LANDS INITIATIVE

    You know, the key players on the PLI, Congressman Bishop's 
initiative, are still involved with that. They are still 
hopeful that they come to a local solution. The second thing I 
would ask is that you dive into some of those organizations 
that pretend to represent local interests because the vast 
majority of them are not local individuals. And, in fact, 
including the local tribes have expressed dismay that they may 
go forward, and dismay that those who are pretending to 
represent them, and I am talking about the tribal entities, 
these individuals claim to represent their interests when they 
do not.
    Then if I could very quickly, so that is on the eastern 
side of the State. Are you looking at creating a monument in my 
district on the western side of the State?
    Secretary Jewell. Can you help me understand what is in 
your district? Is that part of the public lands initiative or 
not?
    Mr. Stewart. No, it is not. We are on the other side. We 
are more towards the Zions National Park, the Bryce National 
Park, in that area, kind of on the central and eastern side of 
the State.
    Secretary Jewell. I am not aware of folks that have come 
into our office suggesting a monument or anything on that side. 
Mike, are you aware of anything?
    Mr. Stewart. Well, thank you for that. I guess I will count 
my blessings and knock on wood. And I would conclude just 
saying we love this land. I mean, that is the reason I live in 
Utah. I was writing books. I could have lived anywhere in the 
world. I chose to live in Utah because we love this land. We 
want to work with you to protect it, but we just beg you, you 
know, to use those of us who live there and love it as a 
resource as we try to find some ways to do both.
    So thank you, Mr. Chairman.
    Mr. Calvert. Thank you. Mr. Stewart is the most read author 
in Congress, we are very proud of him.
    Mr. Stewart. I do not know what that means actually.
    Mr. Calvert. I do not know either. [Laughter.]
    Mr. Israel.
    Mr. Israel. Thank you, Mr. Chairman. I hope to be one day 
one of the most read authors in Washington.

                          WILDLIFE TRAFFICKING

    Madam Secretary, welcome. I wanted to shift to an issue 
that generally has bipartisan support on this subcommittee, 
committee, and in Congress, and that is wildlife trafficking. 
You and I attended an Ivory Crush in Times Square, New York 
City, over the summer. I have been working on a bipartisan 
basis with Jeff Fortenberry from Nebraska on this issue. Many 
of us support additional resources for wildlife trafficking not 
only because it is a humanitarian thing to do, but because we 
are learning that wildlife trafficking is providing revenue 
streams to terrorist organizations around the world.
    And I just want to ask you this one very simple question: 
Tell us what your budget does with respect to wildlife 
trafficking. Do you have the resources that you need?
    Secretary Jewell. Thank you for your interest, and thank 
you for that really effective public awareness session when we 
crushed the ton of ivory. That is on top of 6 tons we crushed 
in the wildlife repository. There are a few more people in 
Times Square than there are in the Rocky Mountain Arsenal 
National Wildlife Refuge.
    We had a total budget of $56 million 2016, including 
funding from the State Department. In 2017, we have about a 
half a million-dollar increase. It covers a multitude of areas. 
There is $33 million in the Fish and Wildlife Service for 
international affairs. That includes law enforcement dedicated 
to wildlife trafficking of $7.5 million, then the Multinational 
Species Conservation Fund at $11 million.
    I have been to two demand countries, Vietnam and China, on 
this issue. Vietnam in particular is also a source country for 
pangolin in particular and turtles. I went to an area where 
they are trying to rehabilitate pangolin and turtles, a 
conservation area. But the demand for rhino horn, for elephant 
ivory, for pangolin, for exotic meats that are not sustainably 
harvested throughout Asia is extreme. We are just scratching 
the surface frankly with the efforts that we have.
    The State Department has been helpful. I went to Gabon, 
Kenya, and South Africa in January. I saw what I would say is 
the best of mankind and the worst of mankind. I went to a rhino 
poaching crime scene. The bad news is there were three dead 
rhinos to choose from within an easy drive that had been 
poached within a few days of my visit to Kruger National Park 
just within that northern tier of Kruger, which is just 
horrifying. That is the worst of mankind. I went out with 
veterinarians and rangers to tag a rhino and put microchips in 
the horns so that they could be traced, take blood samples and 
so on, but unfortunately the chance of that rhino actually 
being poached is quite high.
    I went to the Port of Mombasa, which is one of the bad 
actor areas that wildlife products move through. I was happy to 
see that the Kenyan government actually had removed a number of 
people very recently, some that I had met with, because of 
corruption at the port that was allowing illegal wildlife 
products to go through.
    We have six attaches around the world from the Fish and 
Wildlife Service. Sometimes, and I learned this when I was 
there, they are the trust place that people from different 
countries will go to when they are not sure if they can trust 
people in the other countries, and with good reason, because 
corruption is rampant. It is like drug trafficking or human 
trafficking. There is so much money involved relative to what 
people can make otherwise that the temptation is very high.
    We are just beginning to scratch the surface. I would say 
our investments are driving a return on investment. I would 
love to have more capacity in these law enforcement attaches 
overseas, and they are doing a job that is very, very helpful. 
They are also cooperating on technologies that help, for 
example, trace the kingpins, not just the poachers on the 
ground who sometimes are just trying to feed their families.
    We are committed to this effort. I think raising awareness 
and visibility so that we kill demand is really important, and 
that is why the Times Square Ivory Crush was so important. It 
is raising visibility with designer brands that are using these 
products that is really important. Brand is critical, and 
shaming a brand is a very effective way to impact this.
    So thank you for your advocacy, and I would say we are 
continuing to chip away, but we have got a long, long way to 
go.
    Mr. Israel. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you. Mr. Amodei.
    Mr. Amodei. Thank you, Mr. Chairman. Good afternoon, Madam 
Secretary. I think to the extent that the chairman is going to 
manage my time, I may try to manage your answer time a little 
bit, not as an affront, but just so that we can cover as much 
ground as possible. And I am going to endeavor to be crisp so 
that that works.

                              LAND TITLES

    The first thing I got to tell you is I need your help. I 
have been in this outfit for 53 months and 16 days, but who is 
counting, trying to work through the chain of command in the 
Bureau of Indian Affairs on title matters. This is not 
complicated with lots of moving parts stuff. It is people who 
have paid off their homes on reservations and colonies, and 
have waited between 5 and 10 years for a simple title plan type 
of conveyance. And in my neck of the woods, that is through 
Phoenix or Albuquerque, depending on what it is.
    And I will just tell you quickly, please give us some help. 
We are going to talk with the BIA a little bit later, but it is 
like, I mean, in any other sense paying off your home and 
waiting for years to have a conveyance is--so I do not know. I 
am told it is, well, we are not funded in real estate stuff or 
whatever. I am not saying they are or they are not. I am just 
saying, come on, there is a problem there. And maybe from your 
end it will be more successful than from mine.
    Secretary Jewell. I will answer it very quickly. We do have 
a challenge in providing titles and responding on things like 
that. I have visited those offices. They are very frustrated 
because they are not automated. It costs money to automate. I 
think there is some money in the budget to continue to support 
automation efforts, but we are not going to address this 
overnight. But it is an ongoing problem, and we could get back 
to you with more detail on the record, or you can ask in the 
BIA session, and will make sure that they know of your 
question.
    Mr. Amodei. Or the other thing is to simply do, like you 
did in some other instances, to go, hey, if you want us to fix 
this, here is what we need. And if the committee says no, then 
the committee says no. But right now it just feels like, oh, 
that is kind of the way it has always been, and so there we go. 
So anyhow, thank you for your attention to that. I appreciate 
it.

                          SCIENCE COORDINATION

    I want to next move to science coordination because I 
notice there was language in your opening statement, and you 
have got kind of a new effort in house, and you are talking 
about coordinating with each other. I would like to meet with 
those folks and just have a briefing for what they are doing.
    And let me tell you the reason for the request. I am 
concerned through the processes of some things recently, sage 
hen for one of them, where we speak with Director Ashe and say, 
hey, have you used any of the local folks. I am not telling you 
that they are in the tank one way or the other, but have you 
considered, for instance, the work of the College of 
Agriculture at the University Nevada, which has a quite long 
track history of Great Basin, sage brush steppe ecosystem, 
desert research, excellent outfit, USGS, even some of the 
Federal stuff. And I get back from these people, no, we have 
not been consulted.
    And so, I am not saying, therefore. I am just saying when 
you talk about collaboration on the science front and you have 
got this, no, I would really like to talk to those folks, say, 
okay, they are going to talk in house. But what is the company 
policy, if you will, for, hey, can you at least talk to folks 
who have been doing this stuff for decades, by the way, not for 
one team or another, but in terms of real resource-centric 
people with credibility as part of the makeup of what you 
decide is the appropriate thing?
    Secretary Jewell. Well, specifically the sage grouse it is 
probably the most relevant recent example of that. We very much 
did take into account State programs, State science, WAFWA, the 
Western Association of Fish and Wildlife Agencies. I think that 
is correct. And that is very, very important to us.
    USGS took over largely the science side of the biological 
sciences when Bruce Babbitt had my job in the late 1990s. The 
USGS is joining very closely with the Fish and Wildlife 
Service, doing a lot of scientific research, and they do engage 
with local communities. We are happy to get you a briefing if 
you would like to dig into that a little more deeply.
    Mr. Amodei. I would appreciate that because I will just say 
that that has not been my experience to the extent that we have 
checked. So we would like to make sure we are fully briefed 
before we come to any final conclusions.

                              SAGE GROUSE

    Next, what I would like to do is we have been going back 
through some of the stuff forensically in the whole sage grouse 
process. And one of the things that we are trying to check, for 
instance, is, okay, you have a sagebrush focal area. How were 
those boundaries set? And so, we asked the agencies.
    And so, one of the folks who did mapping, how were the 
boundaries set in USGS. We got some curious non-responses. So 
we asked BLM and Dan Ashe's folks, hey. We asked those 
questions in January in preparation for this meeting, and we do 
not have a response. So I do not have anything specific to say 
other than I find that curious.
    I will tell you that the Forest Service responded, and they 
said the sagebrush focal area boundaries were given to us by 
U.S. Fish and Wildlife. So because none of this is national 
security, border security, hooping and snooping, we do not have 
to have these briefings and SCIFs, if it is like why not just 
tell us how we drew those lines where we drew them for those 3 
million acres across four States.
    I mean, the bottom line is how did we get there? And so, we 
have got some frustration on that. So, I mean, forewarned is 
forearmed. It is like, listen, I am not saying you did a bad 
thing or a good thing. Somebody put a line somewhere on a map. 
We would just kind of like to know where that is. So if you 
could be of assistance to getting us some response to that, 
that would be great.
    And one final thing, and actually you are going to get a 
talk in this one, so I do want you to think I am----
    [Laughter.]
    Secretary Jewell. No question, you just want me to listen? 
Is that the----
    Mr. Amodei. You know, people that have listened said it was 
not that great, so you do not try to break the mold. 
[Laughter.]
    I was in Las Vegas in December for a western caucus policy 
forum at the same time you were in there talking to the western 
governors. And so, we had an opening, and I had a chance to 
come. I said, well, let us go see what the Secretary has to say 
to western governors. And I noticed that you made several 
references to drinking beers with them, and I do not know if 
anybody on this committee has ever had an invite to drink beer 
with you, but I know I have not, so I feel a little bit picked 
on.
    Secretary Jewell. When all our budget hearings are over.
    Mr. Amodei. There you go. [Laughter.]
    You are buying, right?
    Secretary Jewell. I had a couple left over from my party. 
[Laughter.]
    We did not drink much.
    Mr. Amodei. I will bring a big cup. But anyhow, when you 
are talking about sage grouse, you said I am a little skeptical 
about things that go through in Congress right at the present 
time for perhaps the obvious reason. Can you give me the basis 
of your skepticism?

                         ENDANGERED SPECIES ACT

    Secretary Jewell. Yes. This was around the Endangered 
Species Act, and I would say that at the time that I met with 
the Western Governors Association, there were a tremendous 
number of Endangered Species Act riders going on any kind of 
piece of legislation. I know you are shocked. Any piece of 
legislation going through.
    The main issue that Governor Mead from Wyoming wanted to 
take on for his term as head of the Western Governors 
Association was the Endangered Species Act. I think we would 
agree there are ways it could be implemented that work more 
effectively and perhaps where all of us could spend less time 
in court, which is certainly in my interest. But with all of 
the riders that were being put up around the Endangered Species 
Act from, well, any number of them, it is clear that there is a 
risk of a gutting of the Endangered Species Act, and I do not 
want that to happen either.
    My comments were related to that and saying how can we work 
together within the bounds of the existing law to interpret it 
more effectively for States and do a better job ourselves so we 
spend less time in court and more time actually taking care of 
these landscapes.
    Mr. Amodei. So great. One of the byproducts of that is you 
are working with Governor Sandoval directly on sage 
initiatives. Are you doing that under general secretarial 
authority, or is there something in the act? I mean, what is 
the basis for saying, hey, if they need a right-of-way for 
something in Baker, or we need to speed up adoption of new 
maps, and the governor says he is working with the Secretary of 
Interior, what is the authority for that framework so that we 
can help the governor with things that maybe he would like to 
work with you on?
    Secretary Jewell. Well, there is a clear willingness we 
have indicated to all States in the sagebrush range that if 
there are concerns they have with the plan, they are welcome to 
bring them to our attention, and we will operate within the 
flexibilities we have. For example, in Nevada, the maps that we 
used were the best maps we had at the time but Nevada has 
purchased new maps.
    And so, part of the discussion was Governor Sandoval said 
will you use our new maps, and we said yes, okay. So that is 
not the Secretary's authority working with the governor. It is 
the governor as a conduit for his folks saying these are some 
ways we would like to shape this.
    So if it is a water tank leaking in Baker. I cannot 
remember specifically whether it was a map issue. There is also 
a cemetery in one of the other counties.
    Mr. Amodei. Those were all identified as being habitat, 
therefore----
    Secretary Jewell. Correct. And so, the BLM has 
flexibilities to work in specific situations on the ground to 
address those circumstances, and that is what was being done. 
It is not secretarial authority working with the governor. It 
just the Secretary communicating with the governor the 
flexibilities that the BLM has. We are doing that whenever 
asked in other States, and we will continue to do that whether 
or not the States are suing us.
    Mr. Amodei. Thank you.
    Secretary Jewell. Thank you.
    Mr. Amodei. Thank you, Mr. Chairman.
    Mr. Calvert. Mr. Jenkins.
    Mr. Jenkins. Thank you, Mr. Chairman. Madam Secretary, 
thank you for being here.

                        PENSION FOR COAL MINERS

    I notice in your budget you have got funding to try to help 
our coal pension fund for our coal miners. I appreciate the 
investment. I look forward to working with you because we want 
to make sure that our miners are protected, have a solid 
pension, health benefits that they can rely upon.

                         STREAM PROTECTION RULE

    What I would like to spend time on is what the Chair of the 
subcommittee, and in particular, the Chair of the full 
committee brought up, and that is, of course, stream buffer 
zone, stream protection rule, whichever way you want to 
characterize it. My biggest concern, Madam Secretary, and I 
listened to your testimony carefully. I have read your 
submitted testimony. I have read the testimony of the OSM 
director. And I am almost at the belief that you all are tone 
deaf to the lack of engagement and lack of opportunity for 
cooperation and input at the State level.
    Earlier you described the idea that you did engage with 
States and took into account their input. OSM published a rule, 
then held public hearings. When we look back at reality, you 
had 10 States enter into an MOU to be cooperating agencies in 
late 2010. And then in February of 2011, you have Alabama, New 
Mexico, Utah say you were not cooperating and they withdrew.
    In March, Texas withdrew. OSM was not cooperating. OSM was 
not sharing information. In May, Kentucky, West Virginia, with 
a Democratic governor and Democratic legislature withdrew. You 
know, this is not a partisan issue. You were not cooperating. 
You were not sharing information. They withdrew from 
cooperating agency statutes. Indiana, Montana in July.
    Then we have to come in with this rider on the omnibus 
directing that you share information. OSM has systematically 
denied, refused FOIAs. The States that historically you had 
great working relationships with have simply said things have 
changed dramatically in the last 5, 6 years. So to simply say 
to the Chairman earlier we engaged, we took their input, and we 
published the rule, I challenge that. I think you are tone deaf 
to the reality of what is going on out there for the lack of 
cooperation.
    So number one, are you aware of the frustration that exists 
amongst the States on a lack of cooperation at OSM in your 
capacity as the Secretary of Interior? Are you aware of this?
    Secretary Jewell. Yes, sir.
    Mr. Jenkins. Are you doing something about it to try to 
reengage these people, because I continue to hear as of 
yesterday, no, you have not changed your modus operandi. And, 
in fact, you suggested to the Chair just a minute ago that one 
of your representatives has reached out to their State. You 
referenced that I think 10 or 13 States have been contacted and 
visited.
    Well, guess what? Your person came to West Virginia. I know 
about that meeting. And our folks at DEP specifically said that 
OSM represented they are not coming here because of this new 
mandate. You are really just talking about things in the past.
    So my questions are on a couple of things. Number one, of 
the language that is contained in the omnibus that talks about 
the stream buffer zone rule and the mandate, I heard you say 
earlier that you intend to fully comply. My question is, do you 
believe this is legally mandated on you to do this?
    Secretary Jewell. I believe if it passed in the 
legislation, which it did, then we are legally mandated to 
comply, yes.
    Mr. Jenkins. Secondly, the issue of all technical reports 
and data as the chairman ran through, are you going to be 
reviewing and releasing some, or are you truly going to the 5, 
6, 7 years, which this, I believe, requires all reports, data, 
analysis, comments. You are going to turn this over to all of 
the States, plus I heard you say you are going to make it 
available on the Web. So is everything going to be put out 
there?
    Secretary Jewell. I will have to rely on my people at the 
Office of Surface Mining on what is in compliance with the 
order. I do not know exactly what the order says. I know what 
material that responds to, but they will be responsive to the 
requests, and they will do it in accordance with the omni.
    Mr. Jenkins. Well, it is not an order. You have to 
understand it is legally binding. This is the law.
    Secretary Jewell. Right.
    Mr. Jenkins. It was signed by the President. So it is not 
an order. It is the law. And I will just read it. ``OSM is 
directed to provide the States with all technical reports, 
data, analysis, comments received, and drafts relative to the 
environmental reviews, draft and final environmental impact 
statements.'' Will you provide all of that information?
    Secretary Jewell. We will comply with the law.
    Mr. Jenkins. Okay.
    Mr. Connor. Could I just note, Congressman, I believe that 
was report language. It is not statutory language. But 
nonetheless, our intent is to comply with that report language.
    Mr. Jenkins. Well, I asked the Secretary if it was legally 
binding, and she just said it is the law. So are you trying to 
correct her and say, well----
    Secretary Jewell. He is trying to correct me, and I stand 
corrected. Thank you, Mike.
    Mr. Jenkins. So now what I am hearing and sensing is that 
you do not think it is a requirement of law, and, therefore, 
you may not have to comply fully.
    Mr. Connor. I was just being technically correct as to what 
the language is, and there is a distinction between statutory 
language and report language.
    Mr. Calvert. Let me ask this question for the gentleman. 
Your intent is to comply to the reporting language in the bill.
    Secretary Jewell. Yes.
    Mr. Calvert. And there is no reason not to be transparent 
and to provide the information to the States that have asked 
for this.
    Secretary Jewell. That is correct.
    Mr. Calvert. And by the way, just to the point of Mr. 
Jenkins, these are governors both Democratic and Republican 
that have asked for this information. This is, as it was 
pointed out, not a partisan issue.
    Secretary Jewell. I understand that. I also know there was 
a tremendous amount of work collaborating with the States up 
front, and also a desire to get something done. I know you will 
have an opportunity to meet with Joe Pizarchik, who runs the 
Office of Surface Mining Reclamation and Enforcement. He is 
deeply involved in this, understands it, was a state regulator. 
And I think that we will be much more effective in being able 
to answer the detailed nature of your questions as opposed to 
me----
    Mr. Calvert. We will be meeting with him tomorrow. Mr. 
Joyce.
    Mr. Joyce. Thank you, Mr. Chairman. Madam Secretary, I 
would really like to investigate where exactly this keg is 
right now. [Laughter.]

                              GREAT LAKES

    Mr. Joyce. I know you know how important the Great Lakes 
are. As a matter of fact, to quote you, you once wrote, ``The 
Great Lakes are a monumentally unique national treasure 
containing nearly 95 percent of the United States fresh surface 
water. Formed by receding glaciers, the Great Lakes support a 
thriving and resilient ecosystem rich with fish and abundant 
natural resources.'' I would add rich cultural historic, 
commercial, and industrial resources as well, we certainly 
agree on that point.
    Given all this, I find it disturbing that the President 
again proposed to cut a program that is producing such terrific 
results. If there is any program that we should hold up as a 
model of intra- and intergovernmental and non-governmental 
cooperation that produces results, it is GLRI, the Great Lakes 
Restoration Initiative. Do you have any explanation for why we 
continue to see these proposed cuts to GLRI?
    Ms. Sarri. As you know, that is in the----
    Mr. Joyce. Do you know where the keg is? [Laughter.]
    Ms. Sarri. She has not told me yet. That is actually an EPA 
program, and so I would just encourage you to talk to EPA about 
why the cut was taken. My understanding is that there are some 
carryover balances remaining. That is part of the reason for a 
reduced funding level. But I think EPA is in a better position 
to discuss their budget.
    Mr. Joyce. Thank you. That brings me to my next question. 
The actual cuts proposed by the EPA include $2.1 million for 
the Bureau of Indian Affairs, $400,00 for the National Park 
Service, $11.1 million for the Fish and Wildlife Service, and 
$8.2 million for the USGS. Can you describe for me the 
consequences your agencies face if we were to fund the GLRI at 
the President's proposed levels?
    Ms. Sarri. So just let me talk specifically to the 
Department of Interior's budget because we actually have $69.9 
million. We are very supportive of the work the bureaus are 
doing in the Great Lakes. Obviously the additional money we get 
from the Great Lakes Initiative is incredibly important to our 
bureaus and that kind of cross agency effort. So there will be 
some impacts on it.
    But as you know, it is kind of a competitive allocation 
among the different bureaus that participate or the departments 
that participate. It is not clear what the cuts would be in a 
future budget year since we would have to work on what the 
program would be like in 2017.
    Secretary Jewell. Let me just say, though, that the EPA 
money has been used to address invasive species, water quality, 
and ecosystem health. Without the resources that we have had in 
2016, those are the areas that would be directly impacted if we 
did not get funding from the EPA at an equivalent level.

                               ASIAN CARP

    Mr. Joyce. Beautiful, because that brings me to my next 
question. The U.S. Fish and Wildlife Service has a critical 
role to play in working with the U.S. Army Corps of Engineers 
to help it understand the urgency relating to the movement of 
Asian carp toward Lake Michigan. In 2015, juvenile Asian carp 
advanced 66 miles closer to Lake Michigan.
    It is my understanding that the Army Corps is developing 
what was once called an emergency response plan, but is now 
being referred to as a contingency plan. The U.S. Fish and 
Wildlife Service should play a critical role in developing this 
plan because its fishery biologists understand fish population 
dynamics, and can inform the Army Corps to help ensure the fish 
do not advance beyond Brandon Road Lock and Dam. The U.S. Fish 
and Wildlife Service can alert the Corps and other Federal and 
State agencies to the urgency of new data that may be collected 
in 2016.
    Madam Secretary, what role is the U.S. Fish and Wildlife 
Service playing in developing this contingency plan?
    Secretary Jewell. I am not sure. I will have to double 
check and get back to you for the record because I know they 
have been working closely with the Army Corps and the USGS on 
everything from e-DNA to, you know, various hazing methods to 
stop the fish from going further. But I am not sure 
specifically as it relates to that program, unless one of my 
colleagues knows. So we will get back to you on that.
    [The information follows:]

                               Asian Carp

    The U.S. Fish and Wildlife Service (FWS) and partner agencies of 
the Asian Carp Regional Coordinating Committee (ACRCC) are developing 
contingency response plans to address the potential upstream movement 
of all life stages of Asian carp in the upper Illinois River and 
Chicago Area Waterway System (CAWS), with the goal of increased 
protection for the Great Lakes. FWS serves as co-chair of the ACRCC 
along with the U.S. Environmental Protection Agency and is a member of 
the ACRCC's Monitoring and Response Work Group. The Work Group is 
leading development of the contingency plans as part of the broader 
effort to complete the ACRCC's 2016 Monitoring and Response Plan.
    The contingency plans will include recommendations on detection and 
control tools and deployment strategies for management agencies in the 
event Asian carp are detected in the upper Illinois River or CAWS.

    Mr. Joyce. I really believe this is one of the most 
bipartisan, as I said before, intra-governmental, non-
governmental programs, and we are all working together. We urge 
you to get on top of this issue because we only have once 
chance to do this right, and we have got to stop talking about 
the Great Lakes as a series of lakes and start talking about it 
as a natural treasure because we cannot afford to screw this 
up.
    With that, I yield.
    Secretary Jewell. Thank you.
    Mr. Calvert. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman. To Mr. Joyce, we 
will figure out what is going on. We had legislation, and the 
Army Corps might have been assigned some responsibility because 
it had something to do with navigable waters. We will get to 
the bottom of it.

                            LAW ENFORCEMENT

    Without getting into the specifics of what happened in 
Oregon, because I know that is an ongoing investigation, I want 
to follow up with a few questions in the most general sense.
    I would like to know what the Department of Interior is 
doing to enhance employee safety. I had a discussion with the 
Bureau of Land Management, on this topic, and I had a similar 
discussion with the Forest Service. First responders are quite 
often what the National Parks folks are. Fish and Wildlife 
employees sometimes are responding to an accident. Sometimes 
Interior employees are first on scene to investigate damage to 
a property on Park Service land, or they are checking something 
out that has been reported to them by a hiker in a refuge, or 
they are looking at a flood plain after something has gone 
through our public lands.
    I point this out because we have had fewer employees out 
there working on a lot of these projects, and protecting our 
lands, and making sure that visitors have a safe and good 
experience. They are out there more increasingly alone, farther 
away from help should they need it--whether they become 
injured, or they stumble upon something, or feel that they are 
in an unsafe situation.
    If you could, please tell us what the Department is looking 
at doing to enhance employee protection and personal safety, 
whether it is out checking on a hiker or whatever. Do you have 
the tools that you need? Is this something the committee should 
be requesting you to kind of put together a report on what 
needs to happen?
    We also know damage is done by some individuals in our 
public lands. I was at Voyageurs National Park, and saw where 
somebody decided they get a better view looking at what they 
wanted to by breaking a chain on a picnic table and sawing down 
a tree. The park superintendent thought she was maybe going to 
be able to figure out which camper did that. That is damage to 
public property.
    Are you seeing an increase in damage to public property, 
whether it is things that are clearly unlawful or just people 
just not using common sense? What should we be doing to work 
with you to make sure that damage is not starting to impact 
your budget in a negative way? Your budget dollars are so 
tight. We are trying to work on backlog. The climate has 
changed out there for some of the responsibilities and some of 
the things that the Department of Interior is starting to 
experience now, and the Forest Service, and BLM. What do you 
need?
    Secretary Jewell. I am going to answer at a higher level, 
and then I going to turn it to Kris who oversees our Office of 
Law Enforcement and Security.
    Let me say this, you are right about the kinds of jobs they 
do. They are first responders. I did a hike in Shenandoah up 
Old Rag, and as I was coming down they were launching a rescue. 
They were actually physically going to have to carry somebody 
down a mountain that had slipped and had a bad dislocated 
shoulder. They needed 20 people to be able to do that 
evacuation. They were calling them in from all over, 
volunteers, search and rescue, and so on. That is quite common. 
In fact, on that particular hike it happens multiple times 
every week.
    The Fish and Wildlife Service has relatively few folks, and 
a lot of times what they are doing is ensuring people are 
abiding by the hunting and fishing laws, so really more like 
game wardens. In the case of the Malhuer Refuge, there was one 
person assigned to that refuge, and clearly lots and lots of 
reinforcements had to be called.
    In BLM, we have roughly one law enforcement person per 
million acres in the BLM. Most of the people that are out 
enjoying BLM lands in parts of the West are armed. So when you 
are by yourself patrolling, it is risky. We are deploying GPS 
devices for all of our BLM rangers out in the field so that 
they know we know where they are. In some cases, we are 
patrolling with two together, which means we are patrolling 
half the area we were before, but their safety is obviously of 
paramount importance to us as is public safety.
    I think the situation at Malheur and some of the increasing 
risk we see on public lands is something we need to be very 
aware of, and our people are very vulnerable. We have had 
threats, guns fired in the air where people were doing surveys 
to chase them off the land. We have obviously left. We have had 
situations where armed militias have been called in when we 
have tried to enforce mining laws. That is in the State of 
Oregon also.
    So there is increased heat, I would say. Part of the answer 
to that is going to be working with communities as we have done 
in Harney County before, which I think was very helpful, and as 
we are doing in communities across the West. But our law 
enforcement people could use improved devices like the GPS. I 
would not want to militarize them. That is not what they are 
for.
    As we have more visitation, we have a greater need for law 
enforcement. We are not necessarily able to respond, but we do 
try and have cooperative relationships with local law 
enforcement that helps. But, Kris, do you want to talk more 
specifically?
    Ms. Sarri. Sure, I would be happy to. Thank you very much 
for the question. Within the Office of Policy Management and 
Budget, we have the Office of Law Enforcement and Security. It 
is the office that sets national policy across all our land 
management bureaus, and we look very closely at safety of our 
employees, also working with all the bureaus to do security 
assessments of their facilities.
    We have some increases in the 2017 budget across all of our 
law enforcement bureaus. A couple of other initiatives that we 
are pursuing is along the southwest border obviously working 
closely with CBP, we have a lot of lands where drugs are 
smuggled across the border. We have worked on a southwest radio 
interoperability initiative there so we, working with other 
Federal agencies--Forest Service is part of that--make sure we 
have really good radios in place, and they are interoperable. 
We are looking into how we can expand that as a pilot across 
the Nation.
    We have some increased money in the BLM budget for that 
purpose because they are kind of the governance structure for 
that to support all of the other bureaus. Efforts like that 
where we can improve our technology, get better 
interoperability are also things that both help keep the public 
safe and keep our employees safe as well.
    Ms. McCollum. Thank you, Mr. Chairman.
    Mr. Calvert. A point to Ms. McCollum, we have this growth 
in marijuana groves, not just on the Forest Service property, 
but on BLM property, all kinds of property. I have been told by 
law enforcement it is primarily two major drug cartels coming 
out of Mexico. Every once in a while they shoot each other, and 
people get caught in the crossfire. So it is something we need 
to keep an eye on and to deal with.
    Secretary Jewell. Sometimes they set up booby traps for our 
people, too, including at national parks, like Sequoia and 
Kings Canyon. So it is a high risk.
    Mr. Calvert. Right. And I am hearing a lot about it lately. 
It seems like it is a growing problem, not one that is going 
away.

                            ANTIQUITIES ACT

    I want to talk a little bit about the Antiquities Act. On 
Friday, February 12th, President Obama used his authority under 
the Antiquities Act to establish three new national monuments 
totaling nearly 1.8 million acres in my region of southern 
California. I was driving down the freeway and heard about it 
on the news. Unfortunately I was not provided the courtesy of 
being notified of the President's action by your Department or 
the White House in advance of the announcement. Neither was 
Congressman Cook. By the way, over 70 percent of his district 
was impacted by that decision. He represents the Mojave Desert.
    And I do not care, which Administration it is. Members of 
Congress deserve to be notified when something like that is 
happening where we could at least be prepared for the onslaught 
that comes, and I know that Paul Cook certainly got some, so we 
do not have to read about it in the Washington Post.
    Secretary Jewell. I apologized on the phone. I will do it 
in front of the cameras as well. I am sorry that you did not 
receive a call and neither did Congressman Cook, from the 
Administration.
    Mr. Calvert. As I mentioned in my opening remarks, the 
President has used authority under the Antiquities Act 22 times 
since 2009 to bypass Congress and designate 40 million acres as 
national monuments. So obviously this is going to have some 
fiscal impact, budget impact. How are we going to pay for all 
this?
    Secretary Jewell. In a budget like the BLM budget, we have 
increases for national conservation lands in general. The 
national monuments that are on BLM lands are typically within 
the national conservation lands. The monument designation in 
and of itself does not immediately increase the cost to 
maintain these landscapes, but over time as there is increased 
visitation, there is an expectation we will likely have an 
increased cost.
    We are doing private philanthropy in some cases in some of 
the monuments that have been designated. In fact, in some cases 
the monuments themselves have been a donation to us with 
endowment or support to continue to support what they need as 
they welcome additional visitors. But like national parks and 
monuments that are created by Congress, to the extent that they 
increase costs, those will be reflected in future year 
operating budgets once we have done an assessment of the needs 
and have an operating plan. So to the extent that goes up, we 
would ask for that in a future budget.
    Mr. Calvert. I am going to discuss now the Owyhee National 
Monument in Oregon. A number of groups have been urging the 
Administration to create this 2.5 million acre national 
monument in southeastern Oregon, an area that is larger than 
Rhode Island and Connecticut combined, and even Yellowstone 
National Park. These efforts included high-level meetings with 
the White House Council on Environmental Quality and other 
agencies.
    The proposal and campaign has generated strong opposition 
from the area local residents, local governments, certainly the 
local congressman, and I have heard from him, with Malheur and 
other surrounding counties strongly opposed to this 
designation. Potential restrictions for access and grazing use 
on these lands is a strong concern that was mentioned earlier, 
where multigenerational family ranching make up the backbone of 
the local economy.
    I understand that there are conversations taking place now 
between the BLM and some of the interested parties. There are 
also certainly requests for the Administration to make public 
its position and plans for the Owyhee Canyon lands. I guess 
nobody is hearing anything, you know, the biggest creator of 
fear is silence.
    Are there any Department of Interior personnel assisting 
anyone in the White House, the Council on Environmental 
Quality, or elsewhere in the Administration with technical or 
other support related to the designation of a national monument 
around the Owyhee River in southeastern Oregon?
    Secretary Jewell. As I said to Judge Grasty from Harney 
County and also to Congressman Walden, I am not aware of, you 
know, any efforts that are going on right now with regard to 
Owyhee Canyon lands in our Department. There has been an 
interest expressed by Congressman Blumenauer from the Portland 
area, from Keene Footwear, as part of a live monumental 
campaign. But I have not seen any information, nor have we held 
any community meetings or discussions with people around Owyhee 
Canyon lands to my knowledge. Mike, do you know of any? No?
    Mr. Calvert. Would you please confirm whether any such 
assistance is being given and provide a written response back 
to the committee based upon that conversation so we can have 
that and I can share that with Mr. Walden?
    Secretary Jewell. Yes, I did share it with him yesterday at 
the hearing as well.
    [The information follows:]

                     National Monument Designations

    Designation of monuments under the Antiquities Act is a 
Presidential, not Departmental, action. When examining whether to 
recommend particular monuments for Presidential action, the Department 
engages in consultation with national, state, local, and tribal 
stakeholders, in keeping with the President's commitment.

    Mr. Calvert. Okay, great. Well, thank you. Any other 
questions? Ms. Pingree.

                            INVASIVE SPECIES

    Ms. Pingree. Thank you again, Mr. Chair. Thank you for your 
time in front of the committee and answering such a wide 
diversity of questions. I just want to talk a little bit plants 
in the Park Service.
    As you know, I know you have been to Maine, and I think you 
visited Acadia National Park. This is our centennial as well as 
the Parks, so it is a very exciting year. And we appreciated 
Ranking Member McCollum has been able to visit us. We are 
hoping maybe the chair and other committee members can come to 
one of the most spectacular, most visited parks in the country 
and enjoy our lobster dinner, which is coincident with visiting 
the park. They pretty much just walk up to you when visiting. 
It is the simple things.
    I just want to talk briefly. We talk about so many 
important parts of our spectacularly beautiful national parks, 
but one thing we do concern ourselves with are native plants 
and flowers. I know you are increasingly concerned about 
invasive species and the questioned presence of the emerald ash 
borer and the variety of other things that can interfere with 
keeping our native plants strong and present.
    About a quarter of Acadia's flora is non-native, and 25 
species in the park are listed as rare. So if you would just 
talk briefly about the National Park Service program for native 
plant restoration in our National Research Stewardship Budget. 
Can you tell us a little bit about how you work on this effort, 
where you have had success stories in reversing some of the 
challenges of species lost, and the importance of species in 
our ecosystem overall.
    Secretary Jewell. I will talk at a higher level, and, Kris, 
I do not know if you can come up with numbers specifically on 
this while I am saying a few words.
    This is a huge challenge across the national parks. Emerald 
ash borer, woolly adelgid, which wiped out the hemlocks largely 
in the Smokies. The pine park beetle, which is a native 
species, but because of climate change and a few degrees higher 
temperature, it is wiping out a lot of the pine forests in the 
Rocky Mountains in particular and other parts.
    This is a huge issue, and we cannot keep up. We can do 
damage control. Early detection and rapid response on an 
invasive species is part of our budget here which will be 
across the landscape not specific to the National Park Service. 
The use of Youth Conservation Corps crews and local volunteers 
to actually do some of the hard work on invasive species 
removal is continuing.
    I would say that invasive species in general are winning, 
so it becomes a triage effort. Where can we protect a growth of 
trees and treat those trees or treat in the immediate area when 
we cannot treat the whole landscape, so we are not losing the 
species entirely, but we cannot stop the onslaught, especially 
for some of these insects that are taking advantage of slight 
changes in climate, which would include the tick population you 
mentioned also, just slight increases.
    Kris, do you have any numbers you want to share?
    Ms. Sarri. So the one thing I would also just mention is 
last week we did a framework on early detection and rapid 
response, which is actually very critical in terms of trying to 
have a national framework to look at addressing invasive 
species. But what the Park Service is requesting is $18.3 
million overall for control and management, but I will get back 
to you on the record for specifically what is happening in 
Acadia.
    [The information follows:]

                            Invasive Species

    In FY 2015, the NPS spent $18.3 million in on-the-ground education, 
outreach, detection, and control and monitoring work to combat invasive 
plants and animal species. The NPS plans to continue this level of 
effort in FY 2016 and FY 2017. The National Park Service is working to 
manage invasive species on park lands through a suite of national and 
local programs, each based upon the following strategies: cooperation 
and collaboration, inventory and monitoring, prevention, early 
detection and rapid response, treatment and control, and restoration. 
At the national level, NPS has fostered a successful invasive plant 
management program with the creation of the Exotic Plant Management 
Teams (EPMT). These 15 teams provide highly trained mobile assistance 
in invasive plant management to parks throughout the National Park 
System. The EPMTs serve more than 282 parks over a broad geographic 
area and work to identify, develop, conduct, and evaluate invasive 
exotic species removal projects. The NPS is using various approaches to 
control invasive exotic species populations in parks and to protect 
sensitive resources from destruction by invasive exotic species, 
including integrated pest management supported by current scientific 
information and best management practices. In FY 2015, EPMTs worked 
with 1,331 young people who contributed 100,470 hours to invasive plant 
management control and restoration efforts across the country. In 
addition, EPMTs treated 3,559 acres and inventoried and monitored 
24,150 acres.
    At Acadia National Park almost 25 percent of the park's flora is 
non-native and about 25 species are state-listed as rare plants. As is 
the case for many parks, Acadia has been able to control a number of 
invasive plant species and they have seen a recovery of native plant 
communities. For example, the park began its invasive plant control 
effort 30 years ago by targeting purple loosestrife. At the time, 
purple loosestrife was recognized as one of the most threatening of the 
known invasive species because of the high-value, ecologically-
important wetlands where it was a rapid colonizer. Today, the species 
has been controlled within the boundaries of the park, allowing native 
plants to rebound. Park staff continues to survey and treat new 
occurrences that move into the park from adjacent property.
    The park also has expanded its invasive plant management program 
through partnerships with governmental and non-governmental agencies 
and has been very successful in controlling other high priority 
invasive species, including giant hogweed, spotted knapweed, Japanese 
knotweed, and glossy buckthorn. However, new invasive plant species 
appear on the horizon all of the time so acres under control are a 
moving target. Additionally, any of the acres infested are infested 
with multiple species, and thus are not considered controlled if some 
of the priority species have not yet been addressed. For example, 
purple loosestrife and glossy buckthorn have been controlled, but 
Norway maple has not yet been managed.

    Ms. Pingree. Great, thank you. Thank you, Mr. Chair.
    Mr. Calvert. I will just point out before I go onto Mr. 
Amodei better management would go farther to stop the pine 
beetle. We have tremendous overgrowth in some of the forests in 
the West, and there are just too many trees per acre. That is 
causing distress with the lack of water, which is helping 
increase the problems.
    Mr. Amodei.

                            ANTIQUITIES ACT

    Mr. Amodei. Thanks, Mr. Chairman. Madam Secretary, since 
you are kind of checking into that monument stuff, I would 
appreciate it you could check and see what your folks did, if 
anything, in support of the designation of the Basin Range 
National Monument before the actual designation. So if there 
was any sort of workups or anything else like that, just a 
general description of what you did pre-designation.
    [The information follows:]

                     Basin Range National Monument

    The President designated Basin Range National Monument, located on 
public lands in southeastern Nevada, as a national monument on July 10, 
2015. This national monument--located in one of the most remote and 
undeveloped areas of the state--exemplifies the rich cultural history, 
varied wildlife and vast open spaces with stunning views for which the 
state is known. The designation also preserves current uses of the 
land, including traditional ranching practices and ongoing military 
training operations, while ensuring that the land remains unspoiled for 
future generations.
    Prior to this designation, the Administration engaged in 
consultation with national, state, local, and tribal stakeholders. For 
example, in February 2015, Interior Deputy Secretary Mike Connor and 
Bureau of Land Management (BLM) Director Neil Kornze visited Las Vegas 
at the request of Senator Harry Reid and Congresswoman Dina Titus to 
hear from the community about its vision for conservation in southern 
Nevada.
    The BLM will prepare a management plan for the monument in formal 
cooperation with the State of Nevada, local governments, and tribes. 
The plan will be developed in an open process with maximum public 
involvement.

    Mr. Amodei. And the final point is this. I know you have 
made a point of saying, hey, we work with communities and stuff 
like that. There actually was a meeting before the Basin and 
Range designation, but I would represent to you that the 
attendance at that meeting was highly selective, and did not 
include some of the folks you would assume, counties affected, 
county commissioners, blah, blah, blah, blah.
    And so, while there may have been an indication to you, 
like, listen, we met with folks in the community, that is 
probably a true statement, but it might help to say what is the 
cross-section as opposed to like where do they live. Do they 
actually live in the community, and do they represent, because 
I know you guys are pro-diversity, diverse interests in the 
community.
    So with that, I yield back. Thanks, Mr. Chairman.
    Mr. Calvert. Thank you. Just one quick little comment on 
this pumping issue, Mike, so you will know this issue. 
[Laughter.]

                              DELTA WATER

    Thirty-four days out of 80 from December 1 when the season 
started, the flows through the delta ranged from 20,000 CFS to 
50,000 CFS. You had days where literally 98 percent of the 
water was flowing underneath the Golden Gate Bridge. It begs 
the question, how much water is necessary for a smelt 
population. And, you know, how long is this season where we 
have not been able to pump water. I hope that is over by now. I 
hope that this season is over with the smelt so we can start 
pumping this water.
    You do have the authority once you are convinced, that the 
smelt are no longer near the pumps, where you can pump in 
excess of 5,000 cubic feet per second. In case we do have 
significant storms, we have to take advantage of this. I am 
following this every single day.
    Mr. Connor. I never doubted that for a moment. [Laughter.]
    Mr. Calvert. Okay. All right. Thank you very much. We 
appreciate your coming, Madam Secretary, and have a wonderful 
day.
    Secretary Jewell. Thanks for the hard work of the committee 
and the staff. You guys do a really, really good job. Thanks.
    Mr. Calvert. Thank you. We are adjourned.
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    [
    

                                           Thursday, March 3, 2016.

  BUDGET HEARING--OFFICE OF SURFACE MINING RECLAMATION AND ENFORCEMENT

                               WITNESSES

JOSEPH PIZARCHIK, DIRECTOR, OFFICE OF SURFACE MINING RECLAMATION AND 
    ENFORCEMENT
GLENDA OWENS, DEPUTY DIRECTOR, OFFICE OF SURFACE MINING RECLAMATION AND 
    ENFORCEMENT
RUTH STOKES, BUDGET OFFICER, OFFICE OF SURFACE MINING RECLAMATION AND 
    ENFORCEMENT

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. The hearing will come to order. Good morning.
    Director Pizarchik, at yesterday's hearing, the Secretary 
committed to everyone at this table--sorry. Hold on here. 
Excuse me.
    All right. I have got to start off with my first opening 
statement. Yes. I haven't had my coffee yet.
    The committee will come to order. Good morning, and 
welcome, Director. Thank you for joining us to discuss the 2017 
budget request for the Office of Surface Mining Reclamation and 
Enforcement. I believe fiscal year 2012 was the last time we 
had a budget hearing with you. So thank you for coming back.
    We have seen many similar budget proposals from your office 
since then, and you have seen many similar responses from the 
committee in return. Last year, however, the budget proposed 
the POWER Plus initiative to accelerate Federal funding for the 
reclamation of abandoned mine land areas and to promote 
economic development in those local economies.
    Chairman Rogers, Congressman Jenkins, and I took a look and 
supported the overall concept. Several administrative 
components generated concerns, which prompted a retooled, 
streamlined approach that we thought should be tested in a few 
States before making changes to the underlying law.
    The Subcommittee has high expectations for the success of 
the pilot, including in the fiscal year 2016 Omnibus, and we 
will want to discuss our vision for successful implementation 
today.

                      STATEMENT OF CHAIRMAN ROGERS

    I know that Chairman Rogers would like to be here today, 
but unfortunately, he has some other pressing commitments at 
this time. We ask that his testimony be entered into the 
record.
    [The statement of Chairman Rogers follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Mr. Calvert. As you know, his district in Kentucky is 
experiencing an unemployment crisis, and he asked me to convey 
his thanks for your partnership in implementing this AML pilot 
project.
    Despite these good faith efforts and recognition by the 
administration of the dire straits in coal country, I share in 
the chairman's disappointment that the Administration continues 
to pursue a ``keep it in the ground'' policy when it comes to 
coal. While innovative economic development initiatives are 
part of the solution, the Chairman knows we will not be able to 
turn this situation around or provide meaningful support to the 
10,000 coal miners in his district who are out of work without 
regulatory relief.
    The Stream Protection Rule is a prime example of this 
overreach, and I trust you have seen the letter that Chairman 
Rogers and I sent to Secretary Jewell on February 4th, 
regarding the directives in the fiscal year 2016 Omnibus 
related to this rule. As we discussed with the Secretary 
yesterday, these directives reflect an agreement between 
Congress and the Administration that OSM has not been working 
with the States as partners. We would like to discuss how that 
will change this year.
    It is also timely that we have this hearing today so as we 
may recognize the Budget Officer, Ruth Stokes. Today is her 
last day, and it is only fitting that we offer her our 
gratitude for her many years of service to our country.
    I understand there is some room for interpretation 
regarding whether you are saying good-bye after 38 years versus 
39 years. We will just round it up, just say 39 years, and I 
hope you have some good, independent trips outside of the 
budget cycle ahead of you, and we wish you the best in your 
retirement.
    With that, I would like to yield now to our ranking member 
from Minnesota, Ms. McCollum, if you would like to offer any 
opening remarks?

                    OPENING REMARKS OF MS. MCCOLLUM

    Ms. McCollum. Thank you.
    I would like to welcome the Director to the Subcommittee, 
and I would like to thank you for being here.
    And congratulations to Ms. Stokes, and I wish you all the 
best in your new phase of life. Let us put it that way. I don't 
think women ever totally retire.
    The Office of Surface Mining Reclamation and Enforcement is 
one of the smaller bureaus that the Department of Interior has, 
but it plays a vital role protecting society and our 
environment from the adverse effects of surface coal mining. 
Last year, we provided $90 million for reclamation and economic 
development grants that will all go to three Appalachian 
States. This was a significant funding infusion, increasing the 
budget by 60 percent.
    These funds will support important necessary environmental 
restoration and economic development in some of the Nation's 
most disadvantaged areas. These lands had been ravaged by the 
damaging effects of mountaintop mining.
    The legacy of poor environmental practices and lack of 
restoration has devastated communities, forcing them to contend 
with polluted drinking water, flooding, and the threat of leaky 
sludge dams.
    Now I agree that the Federal Government should step in and 
help these people who have been failed by mining companies that 
spoil the land and abandon their responsibilities. However, I 
do not think the Interior Bill is the appropriate place to fund 
this grant program.
    And Mr. Chairman, Minnesota has a history of mining 
taconite ore and logging. And in the 1930s, after we had almost 
clear cut from northeastern Minnesota all the way to the 
Canadian border and dug open pit mines and devastated our 
rivers, lakes, and streams, we realized we needed to come up 
with another plan. Part of it was to figure out a way to mine 
in a sustainable way. Part of it was to heal back the scars 
that we had created on the surface of Minnesota. And so the 
IRRRB was formed, which is funded very differently than how we 
are talking about funding today.
    But I say this, Mr. Chairman, because I know firsthand the 
devastation that continues from the loss of mining jobs up in 
northern Minnesota, the amount of money the State of Minnesota 
and the Federal Government has had to come in and spend in 
doing land reclamation sometimes when the timber companies and 
mining companies walked away from it.
    So I offer that in the spirit of wanting this to work, but 
I do want to be clear that I think there is another revenue 
stream or other ways in which we can move forward in the work 
that needs to be done in these Appalachian counties.
    And with that, I yield back.
    Mr. Calvert. I thank the gentlelady.
    Director? Oh, excuse me, Director, you are recognized for 
your opening statement.

                 Opening Remarks of Director Pizarchik

    Mr. Pizarchik. Thank you, Mr. Chairman, Ranking Member 
McCollum, and Congressman Jenkins. I appreciate the invitation 
to testify here today on behalf of the Administration's fiscal 
year 2017 budget request for the Office of Surface Mining 
Reclamation and Enforcement.
    The Surface Mining Control and Reclamation Act of 1977 
established OSMRE for two basic purposes. Our primary 
obligation is to ensure coal mines are operated in accordance 
with the law to protect citizens and the environment during 
mining, and to restore the land and water after mining. The 
second basic purpose is to implement an abandoned mine land 
program to address the hazards and environmental damage caused 
from historic coal mining.
    SMCRA strikes a balance between protecting people and the 
environment while enough coal is mined to meet our energy 
needs, but prohibits the issuance of permits to mine coal where 
the land and water cannot be restored.
    Nearly 39 years have passed since SMCRA came into play, and 
coal remains an important fuel. It is used to generate about 34 
percent of our nation's electricity. OSMRE is committed to 
proper implementation of the SMCRA, together with the States 
and Tribes.
    SMCRA has been a success at improving land reclamation, but 
when it comes to protecting our water and streams, we have 
significant opportunities to do better. We know more today than 
was known 40 years ago, and we continue to strive to completely 
implement the law to protect the people and the environment.
    The States, Tribes, and OSMRE have been successful 
restoring abandoned mine lands. For example, over 380,000 acres 
of high priority abandoned coal mines have been reclaimed. To 
put that in perspective, if all of those abandoned mine lands 
were in one place, it would cover an area about 10 times larger 
than Washington, D.C.
    Similarly, there were 3,443,188 feet of dangerous high 
walls, basically manmade cliffs, that were created by coal 
mining and abandoned mine lands that have been eliminated. If 
all of those high walls were lined up end to end, they would 
stretch clear from Washington, D.C. to Detroit, Michigan.
    We can take great pride in what has been accomplished, but 
it will take several billion dollars more to complete the job 
of reclaiming the abandoned coal mines. Please remember every 
community that has polluted waters or rivers or dangerous pits 
has been waiting at least 4 years to have their environment 
restored.
    In fiscal year 2016, we gave the States and Tribes $224.6 
million of abandoned mine reclamation funds, but we were 
required to withhold more than $13 million of their money 
because of sequestration. The people of coal country should not 
be shortchanged by sequestration when we have their money.
    In this case, the Budget Control Act imposes impacts on 
some of our most needy people, and it does so in a way that 
actually, in my opinion, counteracts the goals of the Budget 
Control Act. I urge you to end this penalty on coal communities 
because since that law came into effect, we have been forced to 
withhold almost $71 million of money that we collected from the 
industry to provide to coal country, and there is, in my mind, 
no good reason why we should continue to do so. We ought to get 
that money on the ground where it can be used.
    Standing in stark contrast to the sequester is the $90 
million, Mr. Chairman, that you referenced regarding the AML 
economic development funds provided in the Omnibus Bill. I 
commend Chairman Rogers and Congress for their efforts to help 
coal country communities. I commend each of you who voted for 
this appropriation. Your actions in this regard truly give 
meaning to the phrase of ``Government of the people, by the 
people, for the people.''
    Working together, we can pass a budget that supports 
responsible coal mining and reclamation, and which protects 
coal miners and their families who have been abandoned by the 
mining companies.
    The 2017 budget request totals $157.9 million in 
discretionary spending, a decrease of $82.6 million from the 
2016 enacted, and that is because of the one-time $90 million 
pilot project for grants to three Appalachian states for the 
reclamation of AML sites in conjunction with economic and 
community development. We believe our 2017 proposal more than 
offsets that with the $1 billion legislative proposal to 
promote reclamation of abandoned mine lands, to accelerate the 
disbursement of that money out of the AML fund.
    I again, commend Chairman Rogers and everyone who has 
joined him in sponsoring the RECLAIM Act. I think that is a 
very good step in the direction to help these communities that 
need assistance. And more importantly, we have their money.
    The discretionary budget provides full funding for the 
State and Tribal regulatory grants. It enables OSMRE to address 
existing legal obligations and demands, such as technical 
assistance to the States and tribes to help them do their jobs, 
to meet increased NEPA workload requirements for environmental 
assessments and environmental impact statements for mine plans 
and that area of evolving law, and to process State program 
amendments. It also invests in technology for the future. It 
proposes to expand the coal mine geographic information system 
and to enhance digitization of underground mine maps in order 
to protect miners and the public from the dangers of the 
abandoned underground coal mines.
    We propose to expand reforestation of our former mine lands 
to create job opportunities for our youth. We know that we have 
well in excess of 1 million acres of ground across the country 
that had been formerly forested, but it is basically grassland 
since mining and reclamation.
    On the abandoned mines, we propose $914.4 million in 
permanent appropriations. Of that is the $200 million a year 
that we propose to accelerate from the disbursement of the AML 
fund for power & projects. We propose funding the United Mine 
Workers of America Health and Benefit Trust Funds and for the 
1974 pension plans for a total of $540.1 million, which 
includes the $375.4 million for the new proposal. That will 
provide healthcare for people who are losing their healthcare 
because of various bankruptcies in the coal industry. It will 
provide funding to OSMRE to provide to the Pension Benefit 
Guaranty Trust Corporation to shore up the 1974 pension plan, 
which is on the verge of insolvency and where the median 
retirement benefit is $270 a month.
    On this proposal and the legislative proposal to revitalize 
our communities for accelerating that disbursal, again I look 
forward to working with Chairman Rogers and every Member of 
Congress to accelerate the disbursement of that money out of 
the fund.
    There are also three other proposed changes to the current 
law. One would eliminate the payments to certified States and 
Tribes. Those are States and Tribes that have certified they 
have completed the reclamation of all of their abandoned coal 
mines. That is projected to save about $520 million over the 
next 10 years.
    There is a legislative proposal to restore the reclamation 
fee to the original levels from 1977, and that would generate 
about $49 million additional in 2017 that would go to the 
States in 2018 to reclaim high-priority abandoned coal mine 
sites.
    And there is a proposal to establish a hard rock AML 
program with a fee so the industry's problems that were created 
prior to the regulation of mining can be addressed, as the coal 
industry is planning to clean up the legacy that it had 
created.
    Finally, on February 4th, Chairman Rogers, Chairman 
Calvert, and others sent a letter to the Secretary raising some 
questions regarding the Stream Protection Rule, and in regards 
to those questions, the number one was ``What is OSMRE's plan 
and schedule for providing the information to the States?''
    We have been collecting the reference documents from the 
proposed rule, and beginning on Monday, we started to upload 
those to regulations.gov to make them available to the States 
who have requested information and anybody else, for that 
matter.
    Earlier this week, we sent a letter to 16 different States 
providing those details. We are not uploading the copyrighted 
material because, by law, if we were to make that available or 
copy it, we would be violating the copyright law. What we have 
provided are explanations and guidance to the States on how 
they can access those copyrighted materials, as well as working 
with them to provide those copyrighted materials in a way we 
can. We have offered the services of our librarian in that 
regard.
    On the second question, it was ``What is the manner we plan 
to accommodate State requests for meeting?'' As I indicated, to 
date we have had, I think, 16 requests from the States to meet.
    In my response to the States that went out earlier this 
week, we have proposed to schedule time at the upcoming 
Interstate Mining Compact Commission in mid April for the 
States and OSMRE to meet. We believe it is the most efficient 
way for everybody to get together. It will allow all the States 
who are planning on being there to have the benefit of having 
that meeting with us without any additional cost or expense.
    And the third question was ``How will the results of the 
meeting be incorporated into the administrative record?'' Our 
plan is to prepare a summary or summaries of that and have it 
included in the administrative record that we are producing for 
that rule.
    With that, Mr. Chairman, the last point is I thank you 
again for the opportunity to be here today. My full statement 
has been provided for the record, and at this point, I am 
available for questions.
    [The statement of Director Pizarchik follows:] 
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
                         STREAM PROTECTION RULE

    Mr. Calvert. Thank you for your testimony.
    Yesterday, we had the Secretary testify, as you know, and 
she committed at this table that the department would fully 
comply with the stream buffer directives in the fiscal year 
2016 Omnibus Appropriations Bill. There were multiple 
opportunities for the Secretary to inform Chairman Rogers and 
this Committee that you sent letters to the States this week 
outlining what information is publicly available and where the 
States may find it if they look in the right places.
    Unfortunately, we were not told until after the hearing, 
and it is not clear as to whether that decision was strategic 
or circumstantial. Regardless, it casts a cloud on what would 
have been a good faith effort to begin to repair a 5-year 
dysfunctional relationship with the States and finally work 
with them as partners. Instead, it appears to be business as 
usual for those who have been working on this issue day in and 
day out.
    Further, as my good friend Ms. McCollum can attest, there 
are times when the laws enacted by Congress may require some 
clarification, especially when there is give and take on both 
sides to reach an agreement. That happens, and we are always 
happy to provide clarification of the offices under our 
jurisdiction so we are all on the same page.
    To quickly review how fiscal year 2016 transpired, the 
Committee directive to OSM started as a directive to stand down 
on the Stream Buffer Rule because OSM failed to work with the 
States as cooperating agencies. For years, OSM has broken its 
word to the States.
    Where Chairman Rogers and I come from, you are only as good 
as your word. And that means something. We are kind of old 
school in that regard. OSM had broken the trust of its State 
partners, and States with both Democratic and Republican 
leadership withdrew from the process as their voices were 
repeatedly ignored.
    The common denominator was OSM. In order to put a final 
appropriations package together for fiscal year 2016, the 
Congress, the White House, the House, the Senate, and the 
Committee as a whole had to agree on how to resolve this issue. 
While there may have been some disagreement on the initial 
approach, the Committee as a whole agreed that OSM needed to 
reengage with the States as partners in this process.
    So, Director, in order to avoid any confusion, any 
ambiguity, or any alternate interpretation of the Committee's 
direction or intent, Chairman Rogers and I and my fellow 
Committee members fully expect you to work with the States as 
cooperating agencies, as you have collectively agreed in 2010.
    The source documents you have, they will now have, not Web 
links and not an address of a library where they may obtain the 
information. The analysis you have, they will have. The 
conclusions you reach, they need to agree with. Equally, the 
conclusions they reach, you need to agree with.
    Otherwise, there isn't going to be a rule. For 5 years, 
OSM's work on this rulemaking has been proven to be a one-way 
street. That is over. The Congress and the Administration have 
agreed that you collectively need to work together.
    I trust that your letters to the States this week serve as 
the first step in the process of information sharing, and April 
18th will be the first of many meetings with the States in 
order to foster a substantial dialogue and exchange of ideas. 
But I need to verify that.
    Can you please do so for the committee? Can you please 
verify for us that the letters this week are the first step to 
reengage in a meaningful partnership with the States, including 
the first exchange of data and the first of many meetings?
    I don't want our first exchange at this table to be one 
where I find you in violation of a directive of this committee.
    Mr. Pizarchik. Thank you, Mr. Chairman.
    We have provided documents and made them available 
beginning last summer when we published the proposed rule. In 
October, we have also extended an invitation for the States to 
reengage on the preparation of the EIS, and we have had at 
least 15 meetings with various States on comments that they 
have provided during the comment period to get more 
clarification on that. Assistant Secretary Schneider has 
visited Alaska and is planning on visiting North Dakota as 
well.
    The letter that I sent out yesterday is another step in our 
process to reengage the States. The States were involved in the 
beginning of the process. They provided many substantive 
comments. Their comments were very helpful in fashioning the 
final EIS, and we again extended the offer to meet with them.
    We did it in October. We did it again yesterday. We will 
continue to attempt to engage with the States and to work with 
them to get their input.
    Mr. Calvert. And they want to work with you. They have made 
it very clear that they want a meaningful partnership, and so 
are you committing that you are going to work with the States 
and have a number of meetings and exchange information with 
them?
    Mr. Pizarchik. We have already extended that invitation 
back in October, and again, the one I sent out yesterday is to 
the 16 States that have requested. But we are willing to meet 
with any of those States because of that special relationship 
that we have between my Agency and the States as the primary 
regulators.
    We will meet with them. If they want to meet before then, 
fine. But we are attempting to get their input and to reengage 
them in it. Right now, I have made the offer, and yesterday I 
spoke with Greg Conrad, the Executive Director of the 
Interstate Mining Compact Commission, and he indicated to me 
that he would be talking with his members to see what their 
response would be.
    We have made the offer. We made the offer in October. We 
made the offer again, and they will have to accept for us to 
have a meaningful exchange. You know, I can only keep offering, 
but I can't have a meaningful exchange if they choose not to 
meet with me.
    Mr. Calvert. Well, I am sure we will be hearing from the 
States to determine what they think.
    Ms. McCollum.
    Ms. McCollum. Not at this time, Mr. Chairman.
    Mr. Calvert. Mr. Jenkins.

                 SPENDING ON THE STREAM PROTECTION RULE

    Mr. Jenkins. Thank you. Thank you, Mr. Chairman.
    Director, thanks for being here.
    The question came up yesterday. The Secretary was asked how 
much money had been spent on the Stream Protection Rule. I 
assume over the last 24 hours you all have had a chance to nail 
down that number, and hopefully, you are prepared to tell us 
how much has been spent on the Stream Protection Rule over 
these last 5, 6, 7, years?
    Mr. Pizarchik. Thank you, Congressman Jenkins.
    Yes, we have been tracking that. There has been interest in 
it. And we have spent approximately $6.5 million for contract 
support on preparing the rule with the draft environmental 
impact statement and the regulatory impact analysis, and then 
we also have spent $4.1 million for our staff time working on 
documents, attending public hearings, responding to comments, 
meeting with the States, et cetera.
    Mr. Jenkins. So, the total amount spent in its entirety 
from its initiation many years ago, OSM has spent $10.5 
million?
    Mr. Pizarchik. Actually, I think it is about $10.6 million.

           STREAM PROTECTION RULE--INFORMATION TO THE STATES

    Mr. Jenkins. Now, back to the issue that the Chairman 
raised. I want to point out the operative words in the language 
that, again, the Secretary yesterday said the Department would 
fully comply with. Those are, as the Chair said reengage, 
meaningful manner, before finalization. Reengage, meaningful, 
and before finalization. I really want there to be emphasis on 
each of those as we move forward.
    The States received this March 1st letter from your office, 
and I have listened to your testimony carefully, and I have 
listened to your answers to the Chairman's questions. I think, 
clearly, you are not satisfying the first two and, hopefully, 
not the third piece of this.
    Number one, the idea that you would send just a letter and 
then simply include over 100 pages of bibliography. Then 
putting it in the laps of the States to say here is a 
conference or here is a document or here is a book or here is a 
study, and if you want to go out and check it out, fine. What 
we said is OSM is directed to provide the States with all 
technical reports, et cetera.
    So my question to you is do you believe, based on this 
letter, based on what has already been uploaded, and based on 
what you say will continue to be uploaded, do you think you 
have complied with the directives of providing all of the data 
and reports? Is all you are going to do is post things, or are 
you going to be packaging up the items that we have asked for, 
and actually send them to the States?
    Mr. Pizarchik. Congressman Jenkins, we had a number of 
requests that came in from the States. And I believe, if I 
remember correctly, a number of them asked for us to provide a 
list first, and then they would decide which ones they wanted 
copies of.
    We have gone beyond that by uploading things to the 
regulations.gov site so they have access to it. We had heard 
some concerns that perhaps some of the Web sites or links that 
were referenced in the published documents were not working. We 
have taken steps to make sure they have access available to all 
of those.
    I am not sure that the States would have appreciated having 
huge volumes of written materials submitted to them. We are 
giving them the opportunity, pursuant to a request, to look at 
what it is they want, and we are working with them to try to 
give them access in a reasonable manner so that they have the 
opportunity to look at these.
    Mr. Jenkins. Well, I will be satisfied if what you are 
describing is that you are allowing the States to decide how 
best they would like to review everything. I think I just heard 
you say if West Virginia, for example, my State, requested all 
of the material pursuant to this in writing, in document form, 
you would provide that?

                  AVAILABILITY OF COPYRIGHTED MATERIAL

    Mr. Pizarchik. We have it already provided and up on the 
Web site or on the plate where every document that is not 
subject to copyright is available for them.
    Mr. Calvert. If the gentleman would yield on that point? 
When you say something that is not subject to copyright, if the 
United States Government enters into an agreement with a 
contractor to provide a technical report, who is it owned by? 
The author of that report or by the United States, who paid for 
that report?
    Mr. Pizarchik. I believe if you are talking about the 
report itself that was prepared by the contractor, I think that 
would be owned by the Government.
    Mr. Calvert. I just want to clarify that. Then a report 
that is done on behalf of the United States Government is owned 
by the Government, and I don't believe that would be subject to 
any copyright rule.
    Mr. Pizarchik. I am not a copyright expert on that. I will 
defer to your judgment on that. But my understanding is that is 
not what we are talking about. Some of the report that we 
prepared references a variety of studies and reports. Some of 
those documents were subject to copyright.
    Mr. Calvert. If those reports are being used to create a 
conclusion in order--which we are talking about, then those 
reports should be made public and made part of the information 
to provide it to the States.
    Mr. Pizarchik. Mr. Chairman, all I can say is in discussing 
this with our lawyers, my understanding is if we were to take 
copyrighted material and make copies of it and distribute it to 
folks, that we would be violating copyright laws.
    Mr. Calvert. I find that----
    Mr. Pizarchik. And I don't think anybody wants us to do 
that. I know I certainly don't want to be doing that.
    Ms. McCollum. Mr. Chairman, maybe we should ask CRS, which 
has a Copyright Division, to get back to this Committee on 
that? Would that be helpful to all of us?
    Mr. Calvert. Yes. I would like to find that out 
specifically.
    Ms. McCollum. Let us direct the committee staff to find 
that out then for us. Thank you, Mr. Chairman.
    Mr. Calvert. If it is information that potentially is being 
withheld, we need to know that. Yes, thank you.
    Mr. Jenkins. In your testimony, you said one of the reasons 
you were pursuing this course is that you didn't think the 
States ``would appreciate'' just sending a lot of material. 
What that tells me is that you would be willing, if they did 
appreciate you sending all of the materials, that you would do 
so.
    So don't suggest you thought what they would appreciate and 
then turn around and say but even if they do want it, we are 
not going to do it.

              STREAM PROTECTION RULE--MEETING WITH STATES

    My next question is the issue of SPR meetings. Part of the 
fundamental operation of this directive is the fact that each 
State is unique, when you go back 30 years and look at why this 
process was formed in the first place. I hear you talking about 
a process, and I want to try to be very clear.
    With regard to your offer of having a group meeting, once 
the States have had a chance over these next weeks and months 
to view 100 pages of bibliography in whatever form they can 
ultimately get the documents in, each State is going to want to 
sit with you and have a discussion and talk about the 
implications for their State. Can you reassure me that it is 
not the position of OSM that the meeting on this particular 
date that you have suggested in April satisfies the meeting 
request requirement of the congressional directive?
    And then if my State of West Virginia wants to reengage--
which they have already sent you a letter that they do--and 
wants to meet after looking at this in April or May or June, 
that you will afford them the individual opportunity and that 
you will not just check the box for the meeting requirement at 
the April meeting?
    Mr. Pizarchik. Thank you for that question. We received 
your State's request I believe yesterday and responded to it. 
And at this point, we have the invitation out to the States to 
meet. We are waiting for them to respond.
    I am still waiting for the States like your State and other 
States to respond to the invitation I sent in October to 
reengage. None of them have responded to that. And at this 
point, you know, we are making our effort to do that, and I 
apologize for making an assumption on what maybe the States 
were thinking.
    We have made all the documents or are making all the 
documents available that are not subject to copyright so they 
have access to those and they have the opportunity to look at 
those documents themselves and to evaluate which ones they want 
to review.
    Mr. Jenkins. Let us go back to the meeting. I hear that we 
have addressed the document. If, after a thorough examination 
of these documents, our State wants to sit down with OSM at an 
appropriate time, one on one, reengage with our State, whether 
that be in April or May or June, to have a substantive 
discussion, are you willing to do that?
    And I just want to make sure that you do not think that you 
can check the meeting requirement box based on this proposed 
April meeting.
    Mr. Pizarchik. Mr. Congressman, in regards to meeting with 
folks from your State, we had the invitation back in October. 
We met with them. My Deputy Director and Assistant Secretary 
met with them. I believe it was in February.
    Mr. Jenkins. But the states didn't have these documents 
back then. We didn't have all the things that you are still 
loading. I understand this needs to be a process. We put it in 
the requirement in the law. You are still uploading it. Even by 
your own admission, the documents are not all up yet.
    You have over 100 pages of bibliographical references. If 
you are really sincere about reengaging and working together, 
give us time to work through the documents, analyze, study 
them, and then sit down with you and talk about the 
implications to our State. Would you do that?
    Mr. Pizarchik. Congressman, many of those documents have 
been available to the States since July.
    Mr. Jenkins. But not all. Have all of them?
    Mr. Pizarchik. Not all, and they will be.
    Mr. Jenkins. Not all of them. Then give us time. Give us 
time.
    Mr. Pizarchik. And we are doing that. We have--they are 
being uploaded. They might even already be done today. I 
haven't checked this morning with the staff on that, but those 
ones that are being uploaded----
    Mr. Jenkins. I have got one more question, Mr. Chair. 
Clearly, you can't bring yourself to say we are going to give 
you a chance to look at all the documents, and give the states 
a chance to sit down with you individually and talk about it. 
You keep talking about what is already up or what OSM is still 
putting up.
    So I will follow up with you, but my clear belief is the 
requirement in the law that Secretary Jewell says you will 
comply with is to reengage, provide all the material, and meet 
with the States individually before finalization.
    I was very concerned during your testimony when I heard 
that you would provide a summary of the engagement from the 
States. What I expect is that the product where States work 
with you--in whatever form or fashion--that the individual 
State's comments are submitted for the administrative 
rulemaking record. Further, you should give substantive 
responses just like a normal comment period.
    Can you assure me that all the States' input, each and 
every State, will be conveyed individually and not in summary 
format? I am reacting to when you said ``prepare summaries and 
put it in the administrative record.'' That clearly does not 
meet with our expectations.
    Will you assure us that it will not be just simply 
summaries, and that you will allow for specific input of the 
comments and then the feedback from each and every State into 
the administrative record?

                  TIMING OF THE STREAM PROTECTION RULE

    Mr. Pizarchik. Congressman Jenkins, as I understand your 
request, basically, you are asking us to reopen the comment 
period, and unfortunately, no, we are not going to reopen the 
comment period. The comment period was open back last summer. 
We extended it. We had the documents available for the States.
    Beginning earlier this year, we got some of the requests 
in. So we are making all those documents available, and the 
links may not have worked on that. We will meet with the 
States. We will obtain their input. But we are not going to 
reopen the comment period, and we are going to get this rule 
done.
    Mr. Jenkins. Well, when will the rule be done?
    Mr. Pizarchik. Our hope is to have it done this summer.
    Mr. Jenkins. Do you know what the date is?
    Mr. Pizarchik. I do not. I have learned many times in this 
process that it is not possible for me to predict when a rule 
will be proposed or finalized on that. There are too many steps 
in the process outside of my control.
    Mr. Jenkins. Thank you, Mr. Chairman.
    Mr. Calvert. Mr. Joyce.

             ECONOMIC IMPACTS OF THE STREAM PROTECTION RULE

    Mr. Joyce. Thank you, Mr. Chairman.
    Director Pizarchik, certainly you recognize that the 
imposition of the proposed Stream Protection Rule has the 
potential impact and regulatory cost that will force thousands 
of miners in Ohio to lose their jobs and companies to go 
bankrupt. What are your plans to cope with the significant 
reclamation liability that will be realized as a result of 
excessive mine defaults?
    Mr. Pizarchik. Mr. Congressman, I would have to disagree 
with your assessment. The Stream Protection Rule is only 
proposed. It has not caused any bankruptcies. It has not caused 
any job losses. It is not in effect yet. We are still working 
on consideration of the comments that we have received on the 
proposed rule, and we will be making changes as appropriate in 
response to the comments that have come in on that.
    Mr. Joyce. None of these companies are going to come back 
into existence.
    Mr. Pizarchik. I believe that if they have gone out of 
business, there are other forces that are at play. There are 
market forces, cheap shale gas. Cheap, plentiful shale gas is 
taking market share away from coal. You have the economic 
downturn around the world. You have the Chinese economy slowing 
down. Their imports are dropping on that. They have been 
overproducing coal.
    This rule has not had any impacts on the industry. This 
rule isn't even final yet. So from the standpoint of any 
impacts or job losses on that, that is not here.
    And then with the analysis that we have completed that was 
peer reviewed by outside experts, our calculations are that 
what was proposed, at most, would be about a wash. It would be 
about 270-some jobs that would be lost over a 21-year period, 
with about 250 or 260 new jobs created over that same 21-year 
period.
    This rule does not have and will not have significant 
adverse impacts on employment.
    Mr. Joyce. That is interesting.
    Mr. Calvert. Will the gentleman yield for a second? Are you 
saying that this regulation, as you interpret it, has no impact 
on employment in coal country?
    Mr. Pizarchik. No.
    Mr. Calvert. Just for the record, we would like to have 
that.
    Mr. Pizarchik. What I have said is that based on the 
assessments that have been performed.
    Mr. Calvert. And you agree with those assessments?
    Mr. Pizarchik. We hired outside experts to perform that 
analysis because we believe that it would be more credible with 
the public and everybody else if those assessments were 
performed by outside experts.
    Mr. Calvert. But you agree with those assessments?
    Mr. Pizarchik. Those assessments are in the draft 
regulatory impact analysis, et cetera. And from the standpoint 
that was proposed and the whole purpose of the rulemaking and 
the proposed process is to get comments on that, that will be 
factored into it. We will see what changes are appropriate to 
be made based on public input.
    Mr. Calvert. I will take that you agree with those 
assessments, and obviously----
    Mr. Pizarchik. I do not disavow them.
    Mr. Calvert [continuing]. The industry, when they 
anticipate a regulatory cost, they must be wrong about that 
because, based upon your assessment, there is no cost.
    Mr. Joyce.

                       BASELINE DATA REQUIREMENTS

    Mr. Joyce. How will the primacy State regulatory agencies 
be able to cope with the added responsibilities and authorities 
being proposed in the Stream Protection Rule? It seems obvious 
that the cost in time and money to the States and the miners 
will be increased as a result of the SPR. How would this not be 
the case?
    Mr. Pizarchik. The way the States can adjust to that is 
they have an option under the rules. They can either gather the 
baseline data to determine what types of resources are in the 
streams out there prior to mining, do the monitoring, et 
cetera, and then ensure that the streams are restored after the 
mining.
    A mining company has the option to choose whether they want 
to mine through the stream or the States can give literal 
interpretation to their existing rules and not allow the 
streams to be eliminated through mining or being buried. And if 
they do that, that is a less effort on their part. They won't 
have to gather as much baseline data. They won't have to get 
into some of the other new standards that are designed to 
protect streams.
    And let us face it, the law has always had a provision in 
it that prohibits permits from being issued where it is not 
possible to restore the land to its original conditions and 
productivity. And land without water or land with polluted 
water does not meet those requirements.
    What we are proposing is to gather the appropriate 
information so that we know what is in these streams before 
mining, the water quality, the critters that are living in it, 
and so we can measure whether the mining reclamation is 
successful or not. And in some areas I am sure that mining will 
be able to be restored, and other areas I am sure that they 
cannot get a permit and should never have gotten a permit to do 
that mining because it does not comply with the Federal legal 
requirements.
    Mr. Joyce. That is why you feel it is necessary to be 
involved in stream biology?
    Mr. Pizarchik. The stream biology is a good indicator of 
what is happening in the stream. If the critters can live in 
the stream prior to mining and during mining and after the 
mining, then we have been successful in the mining reclamation. 
If the critters living in the stream were there before mining, 
but during mining they get wiped out, and after mining, they 
are wiped out, then obviously there was a failure to comply 
with the regulatory and the statutory legal requirements 
governing coal mining reclamation.
    Mr. Joyce. I have exceeded my time, I know, Mr. Chairman. 
Thank you.
    Mr. Calvert. Ms. McCollum.

                     PROTECTION OF WATER RESOURCES

    Ms. McCollum. Thank you, Mr. Chairman.
    I have been part of this discussion for a while now, and 
there is a lot of tension and conflict surrounding the Stream 
Protection Rule. But the basic part of this rule is to protect 
water resources.
    And as we sit around the table, we don't place a value on 
water until it is gone or we can't drink it--Flint, the drought 
in California, some of the other places where water crises have 
happened around the country. Then all of a sudden, water has a 
value.
    Water has a value then because, whether it is for 
agriculture sustaining us through food or whether it is 
sustaining us through drinking water, then we start talking 
about water as a right. And I believe access to clean drinking 
water is a human right.
    Therefore, we have a responsibility to make sure that we 
work with industry, that we work with States, that we work with 
local units of government to protect the ability for all of us 
in this country to have the right to clean drinking water, the 
right to have water available for agriculture, the right to 
have water available for recreation and for fishing, or for the 
health of the fishing industry.
    I believe that right to clean water is at the heart of this 
rule, and I know that there is tension on how we get there. But 
if we don't assess that water does have a value to begin with, 
it is very easy to discount this gift that has been given us 
that is life sustaining.
    I know all of us around the table want to get to the point 
where we find that balance, and it is hard to find it 
sometimes. We must find that balance where industry can move 
forward, agriculture can move forward, recreation can move 
forward. But the bottom line is, future generations will judge 
us on how we protected this basic life source of water.
    The tension is natural, but we have to remember when we 
start this equation we don't have a dollar value on water when 
we talk about it. It is only when it is gone or it is so 
polluted that we can't use it that all of a sudden we say, 
``What happened to the water?''
    Could you tell me a little bit more about the goals and the 
objectives just for public health--forget the recreation for 
now--that you are trying to accomplish?
    Mr. Pizarchik. One of the primary purposes of the rule and 
the standards is to establish what kind of water is out there 
to begin with. And our law has always prohibited causing 
material damage to the hydrologic balance outside the permit 
area. That is a mouthful. But we have never defined that.
    We are proposing to define that based on the existing 
conditions that are out there and to gather the baseline data 
to prevent those water resources from being polluted, and 
protect people's health. We know that in some areas selenium 
can be mobilized by mining. It bioacculumates. It causes 
reproductive problems in the aquatic community, and it can 
cause health problems at too high levels in people. And if 
people are drinking that water or eating those fish that have 
high levels of selenium, it can have adverse impacts.
    There are also any number of studies that purport to show 
that there are adverse health effects near where there is 
extensive coal mining going on. We need to get answers to these 
questions in order to make sure that the people there are not 
being accidentally poisoned or to assure people that there is 
no danger. Whichever the case is, we have to get to the bottom 
of that.
    But protecting the water, taking the measures and requiring 
identification of what is there and to prevent the mining from 
causing pollution that causes those kind of water problems is 
the first step. And we feel that if you protect the most 
sensitive critters that are living in those streams, that you 
are going to be protecting the water so that the people who 
live in those communities are protected as well.
    Ms. McCollum. Thank you, Mr. Chair. And Mr. Chair, we found 
out taconite tailings in our State, from mining, caused cancer, 
and we had to go through a very extensive process.
    So I am actually glad we are being proactive in studying 
these impacts. We have to find a balance, Mr. Jenkins. But we 
have to be proactive because some of the things that are 
lurking out there are potential carcinogens.
    Thank you.

                            UNBIASED SCIENCE

    Mr. Calvert. Thank you. Quick comment, and I am going to 
recognize Mr. Jenkins.
    I used to chair the Environment Committee on Science, and 
one thing we need to make sure of, no matter what your position 
may be in some of the various issues that we have before us, 
that the science is untainted. Because I have seen a lot of 
science on both sides that have a political ramification to it.
    So science is science. It should be unbiased and not for a 
particular purpose.
    Mr. Jenkins.

                    COMPLIANCE WITH OMNIBUS LANGUAGE

    Mr. Jenkins. Thank you, Mr. Chairman.
    I just want to summarize real briefly. I think this hearing 
and having you here is a real opportunity to let us air out and 
have an open discussion about expectations. I just wanted, for 
the record, to make it very clear that I think a Web site, a 
two-page letter with 100 pages of bibliography, a meeting in 
April, and then a summary of comments is not meaningful.
    So, I look forward to working with the Chair of this 
Subcommittee and the full Committee to try to reengage OSM so 
we can reiterate what truly would be a meaningful process to 
satisfy what everybody agrees is mandatory.
    So I think we have cleared up here that, in my opinion, 
what you are proposing does not satisfy the meaningful 
requirement. So we look forward to working with you to try to 
work towards an understanding of what would be meaningful.

                 AML ECONOMIC AND COMMUNITY DEVELOPMENT

    Secondly, relating to AML, the $90 million pilot program. 
One of the questions that has risen is are those projects that 
that money will be able to be used for, are they restricted to 
just those, those pre-1967 sites, or can it be sites post-1967?
    So the $30 million for West Virginia, are the properties 
that a project that has an AML nexus, can the funding be used 
even if it was an abandoned mine from 5 years ago, not 50 years 
ago?
    Mr. Pizarchik. Congressman Jenkins, that is a very good 
point to make. The Surface Mining Act drew the line at August 
3, 1977, when it became effective.
    Mr. Jenkins. '77?
    Mr. Pizarchik. Yes.
    Mr. Jenkins. Are you applying that '77 line for this 
special $90 million project? I am hoping you don't.
    Mr. Pizarchik. I am going to follow the law, and the way 
the Surface Mining Act is written, there are two distinct 
categories. There is Title 5, which deals with active mining. 
That is all mining that has occurred since August 3, 1977, and 
AML money, this $90 million, cannot be used on those types of 
sites.
    The law only allows us to use it for sites that were mined 
and abandoned prior to August 3, 1977. So that is where the 
nexus is, and that is the standard. You know, we have to carry 
out the law, and that is how it is provided.
    Mr. Jenkins. From the follow-up discussion with Chairman 
Rogers and myself, have you all come up with ways in which to 
expedite and facilitate getting projects approved, getting this 
money out there?
    Mr. Pizarchik. We are working on that. And as one of the 
follow-ups, we are drafting guidance to help with that, and we 
are putting together some meetings with the State AML folks, 
with EDA and ARC and the State economic development folks, to 
get everybody together to help identify those projects so they 
can move forward more quickly.
    The process that we use for funding the grants is the 
expedited grant process, and we continue to do that. We will do 
it in a manner that will allow those projects to go as quickly 
forward as possible in light of the various other legal 
requirements that come into play. But, yes.
    Mr. Calvert. If the gentleman would yield for a moment?
    Mr. Jenkins. Yes.
    Mr. Calvert. The pilot made no distinction on the pre-1977 
sites or sites after 1977. So I want to make that clear. So I 
want to make sure that there is a difference between the pilot 
program that has passed in law versus the AML.
    Mr. Pizarchik. Mr. Chairman, we will go back and I will ask 
the lawyer to take a look at it. But my understanding from the 
previous analysis that was performed where the addition was 
made is that it is pre-1977.
    Mr. Calvert. Well, certainly if you want the intent of this 
Committee, the Committee's intent is that the pilot program 
language is what is in law.

                         IMPORTANCE OF SCIENCE

    Mr. Pizarchik. Thank you for sharing that. If I may, on 
your comment about the science, about needing to have a good 
basis. Secretary Huffman from West Virginia several months ago 
had asked for help on assessing some of the science that is out 
there, as whether or not health problems are being caused by 
coal mining in West Virginia.
    And we have reached out to the National Academy of 
Sciences, and we are working with them to try to bring them 
onboard to bring in the appropriate experts to look at the 
science that has been done and evaluate that for the purposes 
of making a determination is that good science or not?

                           AML PILOT PROGRAM

    Mr. Calvert. Mr. Jenkins.
    Mr. Jenkins. Mr. Chairman, thank you for bringing that up, 
and I appreciate your sensitivity. I know you have been fully 
engaged. I share your feelings. We have sat with OSM directly 
to raise our concerns that they are imposing additional 
criteria, standards, and requirements for this pilot project 
that are applicable under traditional AML funds. I know that 
was not the intent. It was not the letter of the law.
    We are trying to politely encourage and prod OSM to not 
treat it in the traditional way, but in the manner in which we 
intended. And we are trying to make progress. But thank you for 
that comment. This was not intended to be restricted to pre-
1977.

             ECONOMIC IMPACTS OF THE STREAM PROTECTION RULE

    My last comment, Mr. Chairman. You raised your attention to 
the jobs issue. This is why this whole issue is so important, 
relating to the stream protection rule, stream buffer zone.
    By their own analysis or by their supposed independent 
analysis, they think that there will be 260 lost jobs 
nationally, 260, and there would be 250 jobs created by 
compliance and that the entire net impact is 10 jobs. We have 
independent studies that suggest that the jobs impact just in 
Appalachia will be 50,000 and 60,000 jobs.
    So when you are talking about a net 10 jobs nationally 
versus just in my neck of the woods, 40,000 and 50,000 jobs, 
there is a gulf of disagreement. That is why we need true 
reengagement, and getting these documents that OSM hasn't been 
willing to share before despite repeated FOIAs. We have got to 
get to the bottom of this. And this idea that we are rushing to 
September of 2016 after 6, 7 years of effort, we know why they 
are rushing. It is obvious.
    But we put directives in the law and Secretary Jewell says 
it is a requirement. OSA needs to reengage. It needs to be 
meaningful before you finalize the rule. So, once again, do not 
finalize until you satisfy what the Secretary agrees is a 
requirement that you must reengage in a meaningful manner. I 
have said it clearly from my perspective here, what you are 
outlining, what you have clearly stated is--in my opinion, is 
not meaningful.
    Mr. Calvert. I thank the gentleman.
    Any additional questions, Ms. McCollum?

        APPLICATION OF AML PROJECT REQUIREMENTS IN PILOT PROGRAM

    Ms. McCollum. Well, not a question, just a comment: I 
understand the discussion about the pilot program, and I get 
the difference between post-1977 and legacy mining. But, for 
the record, I want to reiterate again that this $90 million 
coming out of the Interior budget is concerning to me because 
we have so many unmet needs.
    And I would point out that Minnesota figured out quickly 
that the taconite companies had to be part and parcel of the 
future, of moving forward and being part of the reclamation. 
Appalachia is feeling a lot of pain right now, and I agree that 
we want to see this issue be resolved. But I also want to be 
very clear that funding going forward to do this can't be 
literally at the expense of other communities. Other mining 
communities have figured out other ways to reclaim some of this 
money.
    So I look forward to working with you, Mr. Jenkins.
    Mr. Jenkins. Thank you. Can I very politely--would you 
yield for one moment?
    Ms. McCollum. Yes.
    Mr. Jenkins. Thank you very much.
    The distinction is, in my opinion, this money--and you are 
very appropriate if we were taking money from AML that would be 
potentially used for other projects. The $90 million is not 
coming from AML. While it is going through Interior, this came 
from the Treasury.
    So this is not AML money. It is not taking from Peter for 
Paul. So that is our issue is it is the source of this money. 
While the mechanism involves OSM, it is not traditional AML 
money.
    Ms. McCollum. And I understand that, Mr. Jenkins. But as 
things change and as budget discussions happen, I just want to 
lay a marker that it not come out of Interior.
    Thank you very much.
    And thank you, Mr. Chairman.
    Mr. Calvert. I thank everybody. I apologize. I know that 
this is a very important subject, but we have a BLM hearing 
that is starting right after this, and so I must adjourn this 
hearing.
    Thank you for your attendance. I appreciate it.
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    

                                           Thursday, March 3, 2016.

                       BUREAU OF LAND MANAGEMENT

                                WITNESS

NEIL KORNZE, DIRECTOR, BUREAU OF LAND MANAGEMENT

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. The committee will come to order. We are going 
to have some votes here shortly, so what I want to attempt to 
do is to get through the opening statements, and then we will 
be able to come back for our Q&A after votes.
    I want to say good morning to Director Neil Kornze, and I 
want to welcome him and his wife, Beckett, and their new 3-
year, or 3-month-old baby, I should say. [Laughter.]
    Okay, 3-month-old baby.
    Ms. McCollum. Super cute, you can add that.
    Mr. Calvert. And super cute, as amended.
    Mr. Kornze. Mara and Beckett are right over there.
    Mr. Calvert. Okay. Well, again, good morning. Today we have 
our hearing on the President's budget request for the Bureau of 
Land Management for Fiscal Year 2017. I would like to welcome 
Neil Kornze, the director of Bureau of Land Management, to the 
subcommittee. Thank you for being here.
    As the manager of more than 245 million acres of the 
Nation's land and 700 million acres of its subsurface mineral 
state, BLM is on the forefront of every land management issue 
facing the Nation today. BLMs programs, policies, and 
decisions, especially affect Americans in the West and 
certainly in my own home State of California.
    The President's budget proposes $1.3 billion for BLM for 
Fiscal Year 2017. Overall this is a $7.1 million increase over 
Fiscal Year 2016. However, this seemingly moderate increase 
actually is much larger because of the fee proposals in the 
request.
    We have many topics to discuss today regarding BLM's 
management of public lands and its funding request. I am 
certain we will cover the fee proposals, funding increases for 
hydraulic fracturing, and other oil and gas regulations, and 
the status of the Sage-grouse conservation effort. We will also 
cover the proposed improvement to the Wild Horse and Burro 
Program, and BLM's plans for newly designated national 
monuments in California.
    Once again, I have to express my disappointment with the 
proposals to collect $16.5 million from a new fee for grazing 
permits and $48 million for a new fee for oil and gas 
inspection. We all know that Congress has rejected these 
proposals in the past. I expect that we will reject them in the 
Fiscal Year 2017 budget. The appropriations process is not the 
appropriate forum to debate these issues. They are best left to 
our colleagues in the authorizing committees.
    BLM is proposing a $15.2 million increase to implement new 
rules and regulations for its onshore Oil and Gas Program. 
Well, not all of this is for the new rules. I do find it 
somewhat presumptuous to ask for an increase when the hydraulic 
fracturing rule is stayed and may be for some time, and the 
methane and waste reduction rule is in the early stages of its 
comment period.
    When these two regulations are considered along with the 
proposed changes to the planning process, BLM sure seems to be 
focused on a lot of new regulations these days. Although we did 
not expect to be able to make significant investments in BLM's 
programs when we first started the Fiscal Year 2016 process, I 
am pleased that we were able to do so in a few places.
    Most significant was the $45 million increase for Sage-
grouse conservation. The budget requests an additional $19 
million, including $5 million to implement the National Seed 
Strategy for Fiscal Year 2017. The funding provided last year 
was primarily intended to put into place on-the-ground 
conservation measures to help restore Sage-grouse habitat and 
the sagebrush ecosystem. We will need to know whether progress 
is being made with the existing funding as we wait for the 
request for additional funds.
    Some States continue to have concerns with the resource 
management plans for Sage-grouse and proposed mineral 
withdrawal. Thank you for your letter responding to the 
subcommittee's report language and explaining how BLM worked 
with the States. I encourage you to continue these efforts and 
develop additional guidance, which would help clarify the 
implementation process and provide certainty to the States and 
other partners.
    Before I close, I would like to mention the proposal to 
establish a BLM foundation. This subcommittee is interested in 
this concept. It has proven to be a successful model for the 
Department of Interior and Department of Agriculture agencies. 
It also has the potential to supplement and complement BLM's 
work. However, Congress needs a legislative proposal in order 
to move forward, and I hope that is coming soon.
    Again, I want to thank you for being here today. I look 
forward to your testimony, and I yield to my good friend, Ms. 
McCollum, for her opening remarks.

               Opening Remarks of Ranking Member McCollum

    Ms. McCollum. Thank you, and I would like to welcome 
Director Kornze to the subcommittee. Thank you for being here 
this morning, and for bringing a delightful treat along with 
you, your new child.
    The BLM has one of the most challenging missions within the 
Department of Interior. BLM is responsible for 247 million 
acres of public land and a broad spectrum of natural resources 
that those lands provide. For Fiscal Year 2017, the Agency is 
proposing a modest budget that is $7 million more than Fiscal 
Year 2016 level, while strategically directing funding to the 
high priorities and proposing reasonable user fees to cover the 
cost of oversight.
    The proposed budget continues BLM's commitment to Sage-
grouse conservation, requesting additional funds to restore the 
stage steppe ecosystem. Additionally, the budget requests $5 
million for the National Seed Strategy to support collection 
and research activities for seeds that are critical to BLM's 
ability to restore lands damaged by drought, invasive species, 
and catastrophic wildfires.
    I am also pleased to see that the budget includes an 
increase for cultural resource protection in the Natural 
Conservation Lands. These heritage resources and ecological 
treasures are part of America's history and should be cared for 
and preserved for future generations.
    BLM's budget builds upon the robust investments we made 
last year to the Land and Water Conservation Fund to promote 
protection and conservation of natural landscapes and 
resources. The LWCF also supports access by hunters and 
anglers, which is something Chairman Simpson and I agree is a 
key priority for public lands.
    The budget includes investments for the Oil and Gas 
Program. The Administration once again has proposed new 
authority for BLM to collect onshore oil and gas inspection 
fees. Resulting revenue would cover the cost of BLM's onshore 
inspections and activities to help ensure that the extraction 
operations are safe, environmentally responsible, and ensure a 
fair return to the taxpayer. This new fee authority would also 
bring parity to how the Federal government treats offshore and 
onshore oil and gas inspections.
    Appropriately managing American people's lands and ensuring 
that these precious resources are available for both current 
and future generations is a solemn responsibility you carry 
out, sir. We depend on our public lands for a variety of uses, 
including ranching, energy development, recreation, hunting, 
and conservation. The way we use our public lands have grown 
and changed over the years, and will continue to evolve in the 
future.
    And it is understandable that there will sometimes be 
competing and often conflicting ideas on how we should 
prioritize and use our lands, but these disagreements should be 
discussed and debated peacefully and lawfully. There should be 
no tolerance for threats of violence or intimidation against 
public servants who are truly the caretakers of our lands. No 
one is above the law.
    So, Director, I appreciate the work that you and all the 
employees of the Bureau of Land Management do, and I look 
forward to your testimony. And I thank you for the courtesy of 
an opening statement, Mr. Chairman.
    Mr. Calvert. Thank you. Ms. McCollum, with your 
concurrence, I think we should just recess for a few minutes, 
go and vote, and we will come back for your opening statement. 
So we will be in recess.
    [Recess.]

                   Opening Remarks of Director Kornze

    Mr. Calvert. Reconvene. Director, you may begin your 
opening statement.
    Mr. Kornze. Thank you very much, Chairman, Ranking Member, 
members of the Committee.
    I think as you know, the Bureau of Land Management manages 
13 percent of the Nation's lands and about a third of its 
minerals and soils. We manage these lands under the dual 
framework of multiple use and sustainable yield, which is a 
mandate from Congress, which hits its 40th anniversary this 
year.
    Our professionals throughout the country, but particularly 
in the West, have very hard choices to make every day, and they 
work diligently to make sure that the public has a serious role 
and voice in the work that we do. We are proud to play a major 
role in the Nation's economy supporting oil and gas 
development, all kinds of recreation, ranching, hunting and 
fishing, helium production, forest management, wildland 
firefighting. We even have weather stations, and we work with 
reindeer herders in Alaska. We do a little bit of everything.
    The Agency in total helped support more than 450,000 jobs 
last year. Additionally, we are one of only a handful of 
agencies in the entire government that brings back more revenue 
than we receive in appropriations. In fact, for every dollar 
that you provide to us, we return about five.
    Now, I want to highlight a few areas from our budget, and I 
will move quickly through these, but I will start with greater 
Sage-grouse. This one is for you, Mark. [Laughter.]
    Mr. Amodei. Thank you, Neil.
    Mr. Kornze. The BLM has made great strides in the past year 
helping to lead a West-wide effort with governors from 11 
States to strengthen management of Sage-grouse habitat and 
avoid the need for listing by the U.S. Fish and Wildlife 
Service. But our work is far from done. The President's budget 
asks for a $14 million increase over the $60 million that you 
were very kind and gracious to support us with last year. We 
very much appreciate it.
    We are expanding our BLM conservation efforts partially 
through the work on a national seed strategy. And the basic 
idea there is, getting the right seed to the right place at the 
right time. Too often we have situations where maybe in Burley, 
Idaho they need to restore some lands, but they're sourcing 
seed from eastern Montana or northern Washington State. We need 
to have more seed growers, more diversity than what we're 
offering so that we can come back and come back stronger. 
Collectively, with these requests, the BLM's resources 
dedicated to Sage-grouse conservation will total $79 million in 
Fiscal Year 2017, and represent a critical investment in 
Western communities and Western values.
    Now, on the energy front, the Oil and Gas Program at the 
BLM is performing very well. Industry currently has nearly 4 
years' worth of permits in their hands that they could use 
today. Many people will tell you that there's efforts afoot to 
slow down oil and gas development in this country on behalf of 
agencies like the one that I have the privilege to lead. But we 
have 4 years of permits that we've been working very hard on. 
The backlog is coming down. The front log is growing. We put 4 
million acres of lands available out for lease last year. 
Industry picked upon only 15 percent of those lands.
    Now, at the same time we have a great responsibility to 
ensure that these oil and gas operations are carried out 
responsibly. There's a proposal this year as it was last year 
in the budget ask for permanent support for an inspection 
program. We have about 160 inspectors in this Nation. We need, 
about 220. Having the type of support for a permanent program 
would be essential to achieving many of the goals, not just in 
inspection, but around our larger oil and gas program. I was in 
front of the authorizers yesterday and had a good discussion 
about this issue, and I appreciate your support and hope that 
we can get this done this year.
    National Conservation Lands are another highlight of our 
budget, and I do want to thank you for the $5 million increase 
that you put into last year's budget. These are lands in the 
Nation that people are very excited about. So over the last 20 
years or so, the BLM has been the face of conservation in terms 
of action that Congress has taken and action that the President 
has taken.
    We have nearly 900 conservation units across the country. 
These are places where visitation is heavy. People are excited 
to go there. They are excited to have them near their 
communities, and it's we think part of the best of what we have 
as a Nation, so we appreciate your support for that program. 
And this year we're asking for $50 million in support, which 
really is for the basics.
    We want to have an assigned manager, a full-time staff for 
each of the major units, National Conservation Areas and 
National Monuments. That's step one in addition to all the 
other responsibilities we have in these areas.
    Wild Horses and Burros is another hot topic for us and very 
important for us to figure out the right next steps. In short, 
we have the recommended total population around the West which 
should be just under 30,000 horses. We have about 60,000 horses 
on the range today, and we have another 50,000 horses that we 
have removed and are in pastures or corrals.
    Now, when those horses get removed, we spend up to $50,000 
on that horse over the course of its lifetime. I think there 
are some opportunities for us to be creative, potentially 
looking at tax credits or other programs to incentivize 
adoption. But a specific proposal we have in this year's budget 
is in relation to our productive relationship with the Border 
Patrol. I've actually been to the border, had two or three 
rangers come up on formerly wild horses and burros, and visited 
with those folks. And you can see the freeze brand. And we send 
about 30 horses to the Border Patrol each year.
    But they cannot accept them as an Agency. The individual 
rangers have to adopt them in their personal capacity. And 
also, we are still, because of the way the Wild Horse and Burro 
Act is written, we have to go back and check on them. We have 
to second-guess the Border Patrol's management and care for 
those horses. We'd like to change that, so we have a proposal 
that we're looking for your concurrence in allowing us to 
convey directly horses to other Federal, State, and local 
agencies that have a need for workhorses, and would use them, 
you know, for those purposes.
    So we're trying to take a small step forward, but look for 
other conversations. You know, we're also heavily engaged in 
research, looking at spay and neuter, looking at long-term 
birth control efforts.
    Lastly, I'll mention two other legislative pieces. One is 
the BLM Foundation. Congressman Lowenthal and the ranking 
member were leaders in putting in legislation just a few days 
ago to make that a reality. And we appreciate that support very 
much, and we hope that we can gather some more support and get 
some momentum behind that legislation. I think we can make some 
important differences in some of the bigger programs that 
people care about within the Bureau of Land Management.
    And I will tell you, yesterday at my hearing with the 
authorizers, I got a number of questions about land disposal. 
And we have had a proposal in the budget for a few years for a 
very poorly named act, the Federal Land Transaction 
Facilitation Act, or FLTFA. Basically what this does is allows 
us to take lands that are sold, capture that revenue partially 
for conservation inside the State where it's sold, but also to 
have a source of revenue to work on future land sales. So it's 
a win-win for all parties, and we would be very excited to see 
that reenacted and stood up within this year's Congress.
    I appreciate your time. This committee has been wonderful 
to work with, and I look forward to your questions.
    [The statement of Director Kornze follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
                              SAGE-GROUSE

    Mr. Calvert. I thank you for coming out today, Mr. Kornze, 
and let us just start off, since you brought it up first, I 
will bring it up, too, Sage-grouse. In the omnibus, Congress 
directed BLM to issue guidance to its State offices on how it 
will update Sage-grouse habitat maps, adopt new scientific 
information, and engage partners. I believe guidance would 
allay much of the unnecessary or uncertainty regarding how BLM 
will implement their resource management plans.
    So the first question is, how or has BLM issued any 
guidance.
    Mr. Kornze. We are working on a range of guidance. I 
believe we have 12 different guidance documents that you will 
see in the coming months. We are working closely with the 
Western Governors Association Sage-Grouse Task Force and others 
to make sure that we are getting the right eyes on and thoughts 
into those documents. So we will be moving aggressively over 
the next 3 months or so to make sure that those are all issued.
    Mr. Calvert. How about these maps, the Sage-grouse habitat 
maps? Have you updated those maps? Are you working with the 
States, too?
    Mr. Kornze. We are absolutely working with the States. So 
in the case of the State of Nevada, the Congressman from my 
hometown is sitting to my left. The State of Nevada is working 
with the USGS to update their map. Mr. Coats, I think, is 
leading that effort. And so, we have received a sort of high-
level version of that map, but we do not have the GIS layers 
yet. So we are using it to the degree that we can, but looking 
forward to the formal updated version.
    Mr. Calvert. Well, as you know, we put a significant 
increase in dollars in your budget because for the reason we do 
not want this species listed. We do not want to have you coming 
to us later on and say there is some reason we have to do this. 
We want to do everything we can to make sure that that does not 
happen.
    With that, Ms. McCollum.

                          CHALLENGE COST SHARE

    Ms. McCollum. Thank you, Mr. Chair. Thank you for the 
recognition of Mr. Lowenthal and I having a bill to authorize 
the Foundation for the BLM.
    But I have to say I was disappointed that the budget 
proposes to eliminate the Challenge Cost Share Program.
    This program is in place right now to allow BLM to partner 
with local organizations, to do on-the-ground habitat, 
recreation, and cultural resources work. Can you tell us why 
this program is scheduled to be eliminated? The leverage of 
private funds to help engage the public and the work that you 
do is very important.

                          VENTING AND FLARING

    The other question I have is on the oil and gas rule. The 
Administration on January 22nd proposed a rule that would limit 
the rate of flaring at oil wells on public and tribal lands. In 
addition, the proposed rule would modify the existing royalty 
rate and provisions to better align BLM's authority and to 
enhance flexibility, but the rule would not raise royalty 
rates. So I think of it as a commonsense regulation.
    I did share with this committee a year ago, maybe some of 
you remember, a satellite photo that showed lights flaring from 
the Bakken fields that were almost as bright or brighter than 
the entire Twin Cities metropolitan area. So I think these 
regulations are needed.
    Could you talk about the Challenge Cost Share Program, what 
you are hearing from industry, and what you expect this rule on 
the flaring to be able to accomplish for us? Thank you, Mr. 
Chairman.
    Mr. Kornze. You bet. So the Challenge Cost Share, that 
really comes down to hard choices. Over the last 5 years or so, 
we have lost about 12 percent of our full-time equivalent 
positions in the Agency, so we are stretched. And part of that 
is because the Wild Horse and Burro budget has doubled in size, 
right? It is literally being eaten. We are spending more than 
$50 million a year on housing the horses that have been taken 
off the range, so that is why that is such an important issue 
to get our arms around.

                          CHALLENGE COST-SHARE

    In terms of Challenge Cost Share, it is very productive. 
When we can put money into that, it pays dividends. But at this 
point we have so many needs in terms of Sage-grouse, and 
improving our energy programs, and modernizing, really trying 
to take a leap forward with the Agency and bring it forward. 
And even, you know, sort of eclipse perhaps some of our partner 
agencies in getting information out there and emphasizing the 
ability to access the public lands. So that's on that one.

                          VENTING AND FLARING

    On venting and flaring, the core issue there is that, you 
know, we have more than hundred thousand oil and gas wells on 
public lands. Nearly 400 million dollars' worth of gas is 
wasted each year through venting, through flaring. So some 
States like North Dakota, Colorado, and Wyoming have started to 
step in to this space, and we have been working to have 
regulations that work with theirs and build on their strengths, 
and to make sure that we are sending this energy into a 
productive pathway. It is enough energy if harnessed to power 5 
million different homes, so it is pretty significant, and we 
feel like it needs action.
    There is a royalty provision in that regulation which would 
essentially take off the handcuffs of future secretaries, so it 
is unlikely that this Secretary would be able to use it. But 
currently we are locked at 12 and half percent as a ceiling by 
regulation, and so this would allow future Secretaries to look 
at current economic conditions and figure out if there is a 
reason to adjust up or down. Prior to 1988, the Secretary had 
the ability to do that, and there were often royalties on a 
sliding scale based on production.
    Ms. McCollum. Thank you. Thank you, Mr. Chair.
    Mr. Calvert. Thank you. Mr. Simpson.
    Mr. Simpson. Thank you. I understand that. I mean, wild 
horses and burros, that has been a problem forever. I was under 
the impression that when Jefferson did the Louisiana Purchase, 
he wanted to include Nevada because he said that is a place we 
are going to need to put wild horses and burros eventually, but 
maybe I was wrong on that. [Laughter.]
    I am just kidding.
    Voice. You are mistaken.

    STEENS MOUNTAIN COOPERATIVE MANAGEMENT AND PROTECTION AREA FENCE

    Mr. Simpson. Yeah, I am mistaken. First of all, I 
understand there is an issue that deals with the Steens 
wilderness and fencing that you have been looking at, and are 
going to address Congressman Walden's issue dealing with the 
ranchers and the fencing out there. Is that correct?
    Mr. Kornze. We have been in touch with Congressman Walden 
just this morning, and are working on the NEPA process to 
complete that action and set aside the money to work on the 
fence project.

                              SAGE-GROUSE

    Mr. Simpson. Good. Thank you. Let me talk for just a minute 
about Sage-grouse and focal areas because as I talked to 
governors, at least my governor, and people who worked on the 
Sage-grouse plans and other things for the States, you always 
come to the focal areas, that these were thrown in on top of 
these State plans that they have been working on and that they 
knew nothing about them, et cetera, et cetera, et cetera.
    I have heard a different take on it. The original plans 
that Fish and Wildlife came up with had no disturbance areas, 
and they were pretty large areas, and BLM said we are going to 
have a problem with this. And Fish and Wildlife went back and 
reduced those areas down to the high priority areas that they 
call focal areas. So they are a portion of what would have been 
a much larger no disturbance area. Is that an accurate 
statement?
    Mr. Kornze. That is roughly accurate, yes. The Fish and 
Wildlife Service, we sat down with them and they had very broad 
visions of potentially withdrawing all lands from Sage-grouse. 
And we knew that probably was not a viable path forward, so we 
encouraged them to think on a refined basis. And they came 
forward with the focal areas that we have now.
    Mr. Simpson. How do focal areas impact grazing?
    Mr. Kornze. Focal areas, they do not impact grazing in 
terms of changed standards. What we are doing is in our grazing 
program we have a great need for support there because we have 
18,000 permits nationwide. 6,000 of those are in backlog 
status, right? So what we have to do is we have to prioritize, 
and what our sage-grouse plans say is that the focal areas will 
get priority. That is essentially what it is.
    Mr. Simpson. How do the priority habitat management areas 
impact grazing, and also the general management areas?
    Mr. Kornze. So similarly, we are looking at them as a 
tiered process, so you start in the focal areas. You head to 
the broader priority habitat, and then you go to the general. 
So a lot of what comes out of the Sage-grouse plans is that 
rather than looking at the landscape all the same, we now have 
a way to delineate priorities based on landscape.
    Mr. Simpson. I have got county commissioners and so forth 
and some ranchers that have said that they are going to lose 40 
or 50 percent of their grazing lands, with this sage-grouse 
proposal. Is that accurate?
    Mr. Kornze. I do not think it will be. We have heard some 
concern from the cattle industry, and so one of the things you 
are going to see from us in a few months is we are going to 
have workshops in the western States where we are going to sit 
down with the grazing community and talk through exactly how 
this works. I think it is very workable and, frankly, we spent 
a great deal of time in the finalization steps of the plan 
making sure that the grazing piece in particular was going to 
work for western communities.

                       GRAZING ADMINISTRATION FEE

    Mr. Simpson. As far as the proposed increase that both you 
and the Forest Service have, the $2.50 administration fee for 
AUM, and the potential fee to go up the maximum of 25 percent, 
that has been proposed before, and the committee has rejected 
it. You know, as I talk to cattlemen, they understand that the 
AUM price needs to go up, that there ought to be an increase in 
that. What they would like to see and have repeatedly stated is 
they would like see is, you know, a 5-year, 10-year plan of how 
we are going to increase so it is a gradual sort of increase 
instead of a potential doubling overnight of the fee.
    So far, nobody has ever come back to us with a gradual sort 
of increase in fees, and I would encourage the Administration 
to give us something along those lines that we could look at 
with Resources Committee. So there is a gradual, predictable 
increase in AUM fees because most ranchers understand that it 
has been where it currently is, and that naturally it needs to 
go up. And I think the cattle industry agrees with that.

                       EASTERN SNAKE PLAN AQUIFER

    One last issue. Have you been in contact at all with the 
State of Idaho relative to recharging the Snake River aquifer?
    Mr. Kornze. I am not aware of that issue.
    Mr. Simpson. They are just starting, and I did not know if 
they got to the BLM yet. They have been talking to the BOR, and 
they are going to put forth a recharge plan. And it is not 
fully settled yet, so I would not expect them to have anything 
that you could actually look at yet.
    But recharge areas are going to cross BLM grounds. There 
are issues of rights-of-ways on canals that are going to go 
through BLM property, and that go through there now. But they 
are used for irrigation purposes and those types of activities.
    But I told them that they need to get in touch with the BLM 
and with BOR and start working so that they can have a plan 
that we can look at because I would like to recharge the 
aquifer that is going down substantially. And there are periods 
of time when we have excess water that we just flush down the 
river now because it is just there, and it would be nice to 
recharge that aquifer.
    But I would encourage you and your office to work with the 
State of Idaho and with our office in developing some plans 
that might work.
    Mr. Kornze. I will be happy to look into that.
    Mr. Simpson. Thank you.

                       GRAZING ADMINISTRATION FEE

    Mr. Kornze. And one note on the grazing issue. I appreciate 
the invitation for a broader conversation. I think part of what 
we struggle with is that, with the system having so many 
strains on it with a third of the permits being in backlog 
status. Part of that comes from the fact that the grazing fee 
goes 50 percent back to the county where it was raised, and 50 
percent is range improvements. Zero dollars go to supporting 
the grazing program.
    Mr. Simpson. Right.
    Mr. Kornze. So I think there are a lot of pieces that need 
to be examined.
    Mr. Simpson. Well, we ought to look at that whole program.
    Mr. Kornze. Absolutely.
    Mr. Simpson. Yeah, thank you.
    Mr. Kornze. Thank you.
    Mr. Calvert. Thank you. Mr. Israel.

                         WILD HORSES AND BURROS

    Mr. Israel. Thank you, Mr. Chairman. Thank you, Director.
    Director, the President's budget includes a proposal to 
make it easier for the Department of Interior to transfer wild 
horses to local, and State, and other Federal agencies to be 
used as work animals. I am concerned that if the proposal is 
not effectively implemented, it will simply make it easier for 
those horses to ultimately be sent to slaughter. And I would 
appreciate it if you would tell us what safeguards will be 
instituted so that we know that these horses will remain safe.
    Mr. Kornze. So when folks adopt horses right now, they have 
to sign a contract with us that indicates their intention and 
commitment to not send that horse to be slaughtered or go into 
products related to that. So we could work out something 
similar with these agencies, or if Congress wanted to insert 
language that would make that a requirement, we would welcome 
it.
    Mr. Israel. The proposal as it is currently constructed 
does not have that requirement?
    Mr. Kornze. Well, the proposal says that essentially if you 
are working with a trusted public agency and they are looking 
for a work animal, that we should be able to title that animal 
over.
    Mr. Israel. I want to make sure I understand this. So when 
somebody adopts a wild horse, as I understand what you just 
said, there is a requirement that they commit not to send that 
horse to slaughter. Are you saying that there is a distinction 
if the animal is transferred to a public agency, that 
requirement is not currently----
    Mr. Kornze. It is not in the current language, and we would 
be open to seeing that language.
    Mr. Israel. Thank you, Mr. Chairman. I appreciate it.
    Mr. Calvert. Thank you. Mr. Stewart.

                         COLLABORATIVE EFFORTS

    Mr. Stewart. Thank you, Mr. Chairman, and, Director, thank 
you for many years of service I think the relationship that we 
have developed, we have had opportunities to work together on 
some things, and I thank you for that.
    As we discussed yesterday, I think the prairie dog in 
southern Utah is a good example of some collaborative efforts, 
although we have had some hiccups along the way as a result of 
the lawsuit. We still expect to be able to work with you 
regardless of how that lawsuit may turn out on appeal. And as 
we discussed yesterday as well, we look forward to working with 
you on some of these issues in Washington County with the 
Resource Management Plan. We met with Mr. Ashe after our 
meeting, and I believe there is a pathway for us to have some 
success in addressing concerns of the local officials there as 
well.
    So having said that, I am going to kind of shotgun this if 
we could because there are so many issues that we would like to 
discuss with you, and I will address them very quickly maybe, 
but some of them in a little more detail.

                         WILD HORSES AND BURROS

    I appreciate you bringing up the horses and the burros 
which is, you know, an enormous concern in my district. And if 
you care about horses, you cannot look at these herds and feel 
good about the outcome for these animals. If you care about the 
range, you cannot look at this and feel good about the outcome-
unhealthy herds and some of these horses are starving to death 
as you know, and it is destroying much of the range. So we 
appreciate your concern there, and I know you are sincere in 
that.
    Now, I have a bill, it is several years old now, 
appropriately called the WHOA bill, Wild Horse Oversight Act, 
which deals with allowing some of the States to accept some 
control over these animals, maybe even transferring control of 
these animals to the States. States manage our deer 
populations. They manage elk. They manage turkey, you know. Why 
is the Federal government only and exclusively responsible for 
managing these wild horses and burros?
    Would you support that act? And I know you do not have it 
before you, but I mean just in general principle, would you 
support the idea of the States having more control over these 
animals?
    Mr. Kornze. Well, I think it is an interesting issue, and I 
often explain to people there are three types of animals in 
this country. There is wildlife, which are regulated by 
governors. There are endangered and threatened species, which 
are regulated by the Fish and Wildlife Service. And then there 
are lot of horses and burros.
    Mr. Stewart. And heaven knows these are not endangered, no.
    Mr. Kornze. Yeah. And then there are wild horses and 
burros, which land with the Bureau of Land Management. So I 
think it is an oddity that deserves to be looked at. Part of 
our effort with the language that we put forward this year is 
to see if we can eliminate the sense that working on wild horse 
and burro issues is a third rail of politics.
    Mr. Stewart. Yeah.
    Mr. Kornze. I think there is a lot of commonality to be had 
between both sides of the aisle on this. So we welcome a 
conversation about the road ahead. I do not have that bill in 
front of me, so I cannot comment specifically.
    Mr. Stewart. Yeah, but in general principle it is not 
something you would oppose.
    Mr. Kornze. We need more partners, States, other 
organizations, because we are overwhelmed at this point.

                     NATIONAL MONUMENT DESIGNATIONS

    Mr. Stewart. Okay. Switching subjects quickly if I could, 
and that is, and I am going to repeat myself from yesterday a 
little bit, although I will do it more briefly. And I am not 
doing this because I do not have something to say. I am doing 
this because what I said is what I really believe.
    And that is, you know, if you go to my district, as you and 
I have talked about many times, we talk to miners who are 
losing their jobs. We talk to teachers who are losing their 
jobs because their schools are dying, and the reason their 
schools are dying is because the families are leaving. It is 
not like people suddenly quit having kids. They are still 
having children, but the families are leaving because timber, 
mining, ranching, all of these, you know, these lifestyles, not 
just jobs, but actual lifestyles just do not exist any longer.
    You talk to ranchers I have to elaborate on this just a 
little bit because I always remember this, meeting with a 
rancher. He is an older gentleman, you know, a humble man with 
a humble family. Shows us this piece of paper, as Mr. Simpson, 
I am losing 50 percent of my BLM grazing permits, and he is 
scared to death of the Federal government. You know, he is not 
a rebel. He is not going to go out and join some militia. But 
he is scared of the Federal government and does not know how to 
respond to that.
    And finally a businessman who had a thriving business, and 
now their economy transitioned over to a tourist industry 
economy or tourist based. And now his business is only open 3 
and half months a year. All of that, and this is the key, all 
of that because of one Federal decision to create a monument, 
and those are the impacts because of that. So, you know, as we 
have discussed, we are fearful of another monument being 
created in Utah without the input of those people who will be 
most affected by it.
    I wonder if you would respond to that, if you could, your 
intentions on monuments in Utah. We know what Ms. Jewell said 
yesterday. I would be interested in what you think.
    Mr. Kornze. Well, I think monuments have an important place 
on the landscape. They have been hugely productive for a lot of 
communities, but it is important that those are done through a 
public conversation.
    Mr. Stewart. And I appreciate that because that really is a 
key to this, having that, you know, local input. And it 
concerns me a little bit when we see outside groups who come in 
and claim to be local groups when they are not. And we have 
seen that with some of the tribal interests in this case as 
well as others.
    And I will not describe to you why I am asking this 
question. It would take a little bit too long, so I will just 
ask the question and let you respond to it. And that is, we 
have heard some, I do not want to say rumors, but some thought 
among some of how this potential monument would be managed. And 
my question to you is, would it be lawful to transfer 
management of a monument to an entity outside of the BLM, or 
would the BLM always have to claim management for that 
monument?
    Mr. Kornze. I do not know. Absent direction from Congress, 
I am not sure what authority we would have in that space, so I 
would have to look into the details of what you are putting 
forward here.
    Mr. Stewart. I tell you what. Maybe I will follow up with 
you individually. But can we agree on this, that if the BLM 
were to designate or the Federal government were to designate a 
monument, the default position would be that BLM or some other 
government entity, Federal government entity, would manage that 
monument?
    Mr. Kornze. I am not aware of any situation in which it has 
been done otherwise.
    Mr. Stewart. Otherwise, okay. Would you support in theory a 
situation where someone might, other than the Federal 
government, manage that monument?
    Mr. Kornze. We would need to be talking about something 
specific.

                            ALTON COAL MINE

    Mr. Stewart. Okay, all right. We do not have a clock, Mr. 
Chairman. I am sorry. I will hit one very quickly, and then, 
Neil, ask you to respond, and that is we talked about this 
yesterday as well. We have this one mine who did a very good 
job in restoration and, you know, mitigating some of the 
impacts. And as a result of that, the Sage-grouse moved into an 
area where they did not exist before. And now because of the 
presence of Sage-grouse and because they did the responsible 
thing with restoration, you know, they are probably going to be 
shut down because Sage-grouse now exists. It is as we said, the 
most southern lek that we know.
    What do I say to those guys? I mean, the perverse incentive 
there is ironic beyond my ability to say, well, congratulations 
you did a great job, and now you are going to reap the benefits 
of that. Help me understand what I should say to those folks.
    Mr. Kornze. Well, I think you are referring to the Alton 
Coal Mine.
    Mr. Stewart. Yeah. Yeah.
    Mr. Kornze. And, yeah, this is a tough situation we have, 
you know. There are two serious hurdles to that project. One is 
the pause in the coal program for any project that does not 
currently have a record of decision unless you can fit it into 
various emergency categories. So that is one thing that we have 
discussed that can be looked at. The other is the fact that----
    Mr. Stewart. And by the way as we discussed, we think we 
are okay on that. We think they would fit within the criteria 
of the emergency exception, which is good. But now we come to 
the second one.
    Mr. Kornze. The second one, which is as we work West-wide 
on Sage-grouse issues, you know, one of the key parts of the 
responsibility of the Bureau of Land Management is we have 
multiple use and sustained yield. Those are the two core tenets 
that this Congress asked us to manage on. And part of the 
sustained yield is related to renewable resources, which 
include wildlife habitat.
    And so, you know, during the course of my lifetime, greater 
Sage-grouse populations have dropped 40 percent. And so, 
somewhere that suggests that the BLM and others have perhaps 
not maintained that renewable resource of wildlife habitat to 
the degree it should be.
    And so, as we went through our planning process and worked 
with States to identify the best habitat, one of the places 
that Utah said was the best habitat is this site. And it does, 
in fact, have the southernmost lek in the United States. And 
so, as you identified, you know, I think this presents a very 
hard situation for us to work through.
    Mr. Stewart. And I appreciate what you are saying. I would 
just say in conclusion that this probably is not the only 
example or potential example where someone looks at this going, 
if we restore, if we create habitat, if we help to protect the 
species, well, there may be a negative outcome for us in doing 
that. And if that is the case, I hope we could consider that. 
So thank you.
    And, Mr. Chairman, I yield back.
    Mr. Calvert. Thank you. Mr. Amodei.
    Mr. Amodei. Thank you, Mr. Chairman.
    Voice. Microphone.

                              SILVER PEAK

    Mr. Amodei. Thank you, Mr. Chairman. Neil, thanks for your 
continued willingness to meet with us.
    I am going to start out with a couple of things. I am not 
going to take the committee's time up, but I want to kind of 
highlight them for you because they will be coming to your 
staff.
    We have got a situation in Nevada with the lithium property 
in Silver Peak that has got a little protest going on in terms 
of ownership and transfer. And there are some issues with 
respect to when that can happen and how that can happen that 
emanate through your solicitor's office in Sacramento that I am 
going to be asking you for a briefing for offline----
    Mr. Kornze. Okay.

                              PLANNING 2.0

    Mr. Amodei [continuing]. There is some stuff that we need 
some more facts on.
    Also your Planning 2.0 effort is one that sends a lot of 
information out in terms of stuff that we learn from going 
through the resource management plan updates for the 11 States. 
We want to see where you are going on that. I have read what 
NACO puts out on it, and there are two sides to every story. So 
I would kind of like the other side on that if I could.

                              SAGE GROUSE

    The final one briefing wise is the Secretary laid out a 
deal about science yesterday, and more money in Interior for 
science and stuff like that. And so, I want to pass that on to 
you that we are concerned that a lot of the science about the 
Great Basin, as you well know, Sage hen crossroads of the West, 
the majority of the Great Basin, sagebrush steppe ecosystem. 
And every time I talk to the Desert Research Institute folks 
and the folks in the College of Agriculture at the University, 
and even sometimes NRCS, and even USGS, has anybody been 
talking about these chicken issues from Nevada. And while the 
director has said I am happy to work with them, I have not seen 
much of that. So I want to revisit that and go I am not telling 
you to do what the Nevada science says, but I think they ought 
to have a seat at the table when we are talking about this. So 
we would kind of like a briefing on that, and thank you guys 
for your willingness to do that.
    I want to follow up on the focal area stuff real quick. In 
preparation for the hearing, we asked Fish, and the Forest 
Service, and you guys, where do the boundaries come from. And 
we did that about 60 days ago, and the only response we got was 
from the Forest Service, and I am quoting them, ``Sagebrush 
focal boundaries were given to us by U.S. Fish and Wildlife 
Service.'' Were they given to you by the U.S. Fish and Wildlife 
Service?
    Mr. Kornze. All right. So a range of questions. I will work 
through them quickly.
    Mr. Amodei. No, no, the other ones I want briefings on.
    Mr. Kornze. Okay.
    Mr. Amodei. I do not want you to work on. Your first 
question is, the Forest Service said they got their sagebrush 
focal area boundaries over their real estate from Fish and 
Wildlife Service. Is that true for BLM?
    Mr. Kornze. Yes.
    Mr. Amodei. Okay.
    Mr. Kornze. So we asked the same question, and the Fish and 
Wildlife Service said we got our experts in the room, and this 
is the map that we came out with.
    Mr. Amodei. So it is fair to me, if I want to talk about 
how that got created and where the boundaries are, I need to 
talk to Dan Ashe about it.
    Mr. Kornze. That is right.
    Mr. Amodei. Okay, great. Thank you. I also want to touch on 
Secretary Jewell said, hey, I am talking with Governor 
Sandoval, which is a great thing, and I said, okay, so what is 
the framework for that. Do you have like secretarial discretion 
or whatever? And her answer, I think I heard her say is, well, 
he is kind of highlighting things for me, and I am passing them 
down to Neil, and they are going to John Ruhs, and there you 
go. And that Neil has specific authority under that stuff.
    All well and good in my mind. But when we talk about things 
like maps that were brought up earlier, and it is like, okay, 
we got a new map that has a PJ and an urban overlay to it, and 
the RMP amendment process is not nimble. And I am not saying 
that critically. I am just saying it is as a historical 
observation. We do not amend those things every couple of 
years.
    And when I first go out to the field and I am in three 
district offices, it is like so how do we account for the fact 
that the White Pine Public LandsManagement Act has 15,000 
acres--I believe you had a hand in that--for economic 
development between Ely and McGill. And now we have got one of 
the iterations of map that says that is now chicken habitat.
    It is like before we even get to well, this one was signed 
by the President and this one was signed by the Secretary, you 
know, it is like how do we react to those things because I got 
to pass a new law, lands law, which a lot of us are too old to 
probably see that come to fruition, go amend the RMPs, or one 
of them said, hey, I have got some discretion in that if I find 
it.
    What is the guidance in terms of how these people react to 
things, and not that maps should get smaller because we know 
from instances over the summer that there are areas of habitat 
that were not marked that should be marked. And so, my concern 
is when you talk about real-time stuff, whether it is grazing, 
whether it is whatever, to amend those is not an easy process 
if we look historically. Anything new in the making for 
amending those?
    Mr. Kornze. So very quickly, and part of the mapping I 
think comes down to best available science.
    Mr. Amodei. Right.
    Mr. Kornze. So we wanted the best available information. We 
are excited to be working with the State and USGS on getting I 
think the now third iteration of the Nevada maps.
    Mr. Amodei. Right.
    Mr. Kornze. So and we are waiting for that to be peer 
reviewed, I understand is where it is at with the State of 
Nevada, which is why we only have a high level concept of what 
that map looks like right now.
    The plans themselves are designed to have some flexibility 
in them, you know. So we have priority habitat. We have general 
habitat. But beyond that, there are pathways to development 
based on different criteria in the maps, including disturbance 
calculations. When it comes to, for instance, some of the 
issues that have been litigated in Nevada in White Plain 
County, you know, we have been able to work through the 
allowance in the plan to make certain steps possible.

                              PLANNING 2.0

    And in terms of speed on amending the plans, Planning 2.0 
is, you know, going to feel very obscure. We are looking to 
update our planning regulations. But BLM does not do anything 
without a plan underneath it, and those are taking way too 
long, and way too slow, and they are way too expensive.
    So the concept here is we asked our team, we took some of 
our brightest people and put them in a room and said, figure 
out how to make this work better. And what they came back with 
was counterintuitive, but I think somewhat brilliant, which is 
they said, let us add a couple of extra steps into the process. 
They said, let us start by raising our hand and saying please 
bring your best information and your best science to the table 
so that we do not get surprised by somebody with information 
two-thirds of the way down the road and we have to start over, 
which happens a lot.
    And the other piece is, you would have that information 
call. You would have your scoping meetings to talk about the 
big issues. Then before we get to a draft plan, usually we go 
away. People do not hear much from us between the scoping 
meetings and a draft. We would have a halfway step where we 
would put out a simple, let us say, a 20-page document with 
some meetings where we would describe what we are thinking 
about doing.
    Mr. Amodei. If I might, I will get the rest of that 
offline, but I appreciate that.
    Mr. Kornze. You bet.

                          MINERALS EXAMINATION

    Mr. Amodei. Focal areas are going to require quite a bit of 
minerals examination I understand. The minerals examiner 
population in BLM is not impressive, and it is older than me, 
which there is ``R'' word ``retirement.'' I would like to talk 
to you about that offline in terms of if we got 5,000 of these 
things to do and we have not got a lot of examiners and 
minerals examinations, I just kind of want to get a feeling for 
how that is going to go.
    And with that, I think in view of how much fun we are 
having this morning, I will yield back and look forward to 
talking to you and your folks offline about that. Thank you, 
Mr. Chairman.

                         WILD HORSES AND BURROS

    Mr. Calvert. Thank you. I would just like to get back to 
wild horses and burros real quick. [Laughter.]
    We spent a lot of time on this issue. We spay and neuter 
cats and dogs, and we certainly should be doing that with the 
horses and burros. Where are you at on that? Tell us where you 
are at.
    Mr. Kornze. Some of the research projects that we have 
stood up in the last few years are looking specifically at 
this. Spay and neuter is going to be very important. We do not 
have a drug right now that lasts more than 1 year, and we 
cannot touch all----
    Mr. Calvert. Well, there are things that you can do that 
permanent. [Laughter.]
    Mr. Kornze. Yeah, and that is why we have to look at that, 
right? So at some point maybe we have a drug that lasts for 5 
years or is permanent. But right now we are going to have to 
look at spay and neuter in the short to medium term because it 
is really one of the only tools we have.
    Mr. Calvert. Well, I think that we ought to, I mean, not 
just look at it. I mean, have a broad approach to apply it in 
the field. Do you intend to do that?
    Mr. Kornze. It looks like we may be headed in that 
direction, you know, out of force of necessity.
    Ms. McCollum. Mr. Chair, on this point, between the spaying 
and neutering, is one less expensive and is one quicker? You 
talk about both, so if one is quicker and less expensive to 
make a bigger dent in the population, should you just go with 
one of the forms of permanent birth control for a while?
    Mr. Kornze. That is a great question, and I want to come 
back to you with an answer in terms of speed and cost.
    [The information follows:]

                         Wild Horse and Burros

    Neutering stallions is a quicker and less expensive procedure 
compared to spaying mares. Unfortunately, neutering alone would not be 
an effective means of controlling herd population growth unless most of 
the stallions in a herd were neutered. This would be hard to accomplish 
considering the difficulty of capturing an entire herd in expansive and 
often rugged terrain. The BLM believes that for effective population 
management of wild horse and burro herds, the BLM will need to use 
multiple population growth suppression tools on males and females as 
the conditions on the ground warrant.

    Ms. McCollum. I think I might have an idea, but I will not 
be indelicate at the hearing. Thank you.
    Mr. Calvert. Yeah. Well, obviously we have an over 
population on the range, and Mr. Stewart brought out that this 
is not good for the horses, and it is certainly not good for 
the ranchers, and it is certainly not good for the environment. 
So I would think that is more of a permanent solution. If we 
can start moving in that direction, I think that we should get 
support for that.
    Mr. Kornze. And let me mention quickly that, you know, as I 
look at the $50,000 per horse cost, I think there is room for 
creativity there, right? This is not the Ways and Means 
Committee, but I would imagine that someday I would hope Ways 
and Means or others would look at that and say maybe part of 
that $50,000 could be used to incentivize adoptions. And a fair 
amount of money, whatever is left over after you pay that 
incentive would be savings to the U.S. government.
    It would be good for the rangeland. It would be good for 
the folks that are adopting the horses. So I think there is a--
--
    Mr. Calvert. I think that is part of the solution. I think 
that is certainly worth looking into. But right now we need to 
stop, you know, the number of horses that are being born out on 
the range.
    Any other comments or any other questions? I know we have a 
series of votes. And so, we appreciate your being here, and I 
am sure you will be hearing more from members individually.
    With that, we are adjourned.
    Mr. Kornze. Thank you very much.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    

                           W I T N E S S E S

                              ----------                              
Bavasi, Chris....................................................   125
Connor, Mike.....................................................   149
Dixon, Tony......................................................     1
Fowler, E. A.....................................................    59
Hartz, G. J......................................................    59
Jewell, Hon. Sally...............................................   149
Kornze, Neil.....................................................   331
McSwain, Robert..................................................    59
Owens, Glenda....................................................   289
Pizarchik, Joseph................................................   289
Sarri, Kristen...................................................   149
Smith, Mary......................................................    59
Stokes, Ruth.....................................................   289
Tidwell, Tom.....................................................     1

                               I N D E X

                              ----------                             


                          U.S. Forest Service
                          2017 Budget Request
                    February 24, 2016, Rayburn B-308

                                                                   Page
Abandoned Mine Lands.............................................    15
Airtankers ....................................................27,30,44
Big Horn Sheep...................................................    27
Biography--Antoine ``Tony'' Dixon................................    12
Biography--Chief Tom Tidwell.....................................    11
Budget Cap Adjustment ........................................... 18,26
Climate Change...................................................    56
Collaborative Forest Landscape Restoration (CFLRP)...............    18
Convertible and Non-Convertible Forest Products..................    39
Data Centers.....................................................    40
Data Quality Act.................................................    43
Department of Defense: Wildland Fire Support.....................    34
Emerald Ash Borer................................................    31
Endangered Species Cooperation...................................    57
Every Kid in a Park Initiative...................................    56
Federal Lands ................................................... 20,25
Fire Fighting Technology ........................................ 29,41
Fire Transfer....................................................    17
Forest Roads.....................................................    19
Forest Service Stewardship Program .............................. 24,42
Good Neighbor Authority..........................................    33
Grazing ......................................................... 13,43
Grazing and Water Rights.........................................    14
Grazing Fee Proposal.............................................    35
Hazardous Fuels..................................................    38
Knutson-Vandenburg (K-V) Authority...............................    54
Labor Rule and Overtime for Outfitters and Guides................    13
Land Acquisition.................................................    42
Landscape Scale Restoration Funding..............................    48
Marijuana Eradication............................................    34
Military Aircraft................................................    35
Monongahela National Forest......................................    25
Opening Remarks of Chairman Calvert..............................     1
Opening Remarks of Chief Tidwell.................................     3
Opening Remarks of Ms. McCollum..................................     2
Questions for the Record from Chairman Calvert...................    38
Questions for the Record from Mr. Amodei.........................    44
Questions for the Record from Mr. Israel.........................    56
Questions for the Record from Mr. Jenkins........................    48
Questions for the Record from Mr. Kilmer.........................    54
Questions for the Record from Mr. Stewart........................    43
Questions for the Record from Ms. McCollum.......................    49
Questions for the Record from Ms. Pingree........................    52
Recreation.......................................................    49
Spreading of Invasive Species....................................    32
State Action Plans...............................................    24
State and Volunteer Fire Assistance Funding......................    28
Statement of Chief Tidwell.......................................     5
Stewardship Contracting..........................................    36
Terrestrial Condition Assessment (TCA)...........................    38
Tree Farm System.................................................    52
Unmanned Vehicle Fire Suppression................................    47
Urban and Community Forestry.....................................    32
Watershed Health.................................................    50
White-Nose Syndrome..............................................    22
Wildfire Suppression and State Stewardship.......................    45

                         Indian Health Service
                          2017 Budget Request
                    February 25, 2016, Rayburn B-308

Access to Quality Medical Providers..............................   102
Accurate Data for American Indian/Alaska Native Health...........   115
Advanced Appropriations..........................................    99
Behavioral Health................................................    80
Biography--Elizabeth A. Fowler...................................    73
Biography--Gary J. Hartz.........................................    74
Biography--Mary L. Smith.........................................    72
Biography--Robert G. McSwain.....................................    71
Catastrophic Health Emergency Fund (CHEF)........................   101
Contract Support Costs .....................................  85,86,110
Current Services.................................................    97
Dental ......................................................  85,86,90
Emergency Rooms..................................................   119
Enrollment in Other Federal Health Programs......................    99
Great Plains Area .............................................. 75,110
IHS Employee Settlement..........................................   116
Joint Venture ................................................... 75,83
Measuring Progress  ............................................. 79,86
Medical Inflation................................................    98
Medicare and Medicaid .......................................... 87,119
Mental Health .................................................. 77,113
Offsetting Collections...........................................   101
Opening Remarks of Chairman Calvert..............................    59
Opening Remarks of Mr. McSwain...................................    62
Opening Remarks of Ms. McCollum..................................    60
Operations and Maintenance.......................................   104
Population Growth................................................    98
Purchase/Referred Care .................................... 105,118,119
Questions for the Record from Chairman Calvert...................    93
Questions for the Record from Ms. McCollum.......................   118
Reprogramming....................................................    90
Special Diabetes Program for Indians .......................... 117,120
Staffing and Housing ........................................... 76,108
Staffing of New Facilities.......................................   104
Statement of Mr. McSwain.........................................    65
Strategic Plan...................................................    79
Substance Abuse .............................................. 78,83,89
Substance Abuse: Opioid ..................................... 81,87,122 
Telemedicine.....................................................    86
Unobligated Balances.............................................    97
Urban Health.....................................................   114
Youth Initiatives................................................   121

              Office of Navajo and Hopi Indian Relocation
                          2017 Budget Request
                    February 25, 2016, Rayburn B-308

Annual Range Management Costs....................................   135
Biography--Christopher J. Bavasi.................................   132
Close-out Date ................................................ 133,141
Contracting and Inspection Procedures............................   139
Eligibility Appeals Process ................................... 137,142
Housing Conditions...............................................   139
Housing Program..................................................   136
Judgement Fund...................................................   138
New Lands........................................................   145
Opening Remarks of Chairman Calvert..............................   125
Opening Remarks of Executive Director Bavasi.....................   127
Opening Remarks of Ms. McCollum..................................   126
Planning.........................................................   142
Quarterly Status Reports.........................................   133
Questions for the Record from Chairman Calvert...................   141
Questions for the Record from Mr. Simpson........................   147
Relocation Process ...........................................  140,143
Relocation Report................................................   147
Spider Mound and East Mill Communities...........................   144
Statement of Executive Director Bavasi...........................   128
Status Update....................................................   136
Transfers to Other Federal Agencies..............................   134

                       Department of the Interior
                          2017 Budget Request
                      March 2, 2016, Rayburn B-308

Antiquities Act ............................................... 221,225
Arctic Council--U.S. Chairmanship 2015-2017......................   283
Asian Carp .................................................... 218,219
Basin Range National Monument....................................   225
Biography--Kristen Sarri.........................................   186
Biography--Mike Connor...........................................   185
Biography--Secretary Sally Jewell................................   184
BSEE Well Control Rule...........................................   227
Budget Request...................................................   155
Bureau of Indian Education.......................................   195
Bureau of Indian Education: Construction ...................... 193-232
Bureau of Indian Education: Reprogramming........................   195
Bureau of Land Management: Changes to Resource Management........   280
California Drought...............................................   190
Climate Change ................................................ 201,282
Coastal Climate Resilience Fund..................................   206
Delta Water......................................................   226
Endangered Species Act ........................................ 214-230
Federal Coal Leasing Program .......................... 231,268,269,278
Federal Impacts ............................................... 207-208
Grand Canyon National Park.......................................   190
Great Lakes......................................................   217
Great Lakes Science Center.......................................   276
Increasing Visitation............................................   272
Invasive Species .......................................... 193,223,224
Land and Water Conservation Fund (LWCF) ........................239,240
Land Buy-Back Program............................................   204
Land Titles......................................................   212
Landsat 9........................................................   257
Law Enforcement................................................ 219-262 
National Heritage Areas..........................................   189
National Monument Designations .................................208-223
National Park Service: Centennial................................   244
National Park Service: Director, Jon Jarvis......................   254
Online Systems for Department of Interior........................   271
Opening Remarks of Chairman Calvert..............................   149
Opening Remarks of Chairman Rogers...............................   152
Opening Remarks of Mrs. Lowey....................................   154
Opening Remarks of Ms. McCollum..................................   151
Opening Remarks of Secretary Jewell..............................   155
Payments in Lieu of Taxes (PILT).................................   234
Pensions for Coal Miners.........................................   215
Public Lands Initiative..........................................   209
Public Lands: Management and Planning Authority..................   278
Puget Sound......................................................   205
Questions for the Record from Chairman Calvert...................   227
Questions for the Record from Mr. Joyce..........................   274
Questions for the Record from Mr. Kilmer.........................   286
Questions for the Record from Mr. Rogers.........................   268
Questions for the Record from Mr. Simpson........................   270
Questions for the Record from Mr. Stewart........................   278
Questions for the Record from Ms. McCollum.......................   282
Sage Grouse ............................................196,213,236,270
Salton Sea.......................................................   258
Science Coordination.............................................   212
Statement of Secretary Sally Jewell..............................   158
Steens Wilderness................................................   196
Stream Protection Rule ................................ 187,198,215,238
Tick-Borne Diseases..............................................   201
Tiwahe Initiative................................................   195
Tribal Broadband Access..........................................   286
USGS Earthquake Early Warning System .......................... 256,279
Violence Against Women Act.......................................   203
Water Quality Monitoring.........................................   274
Wildfire Funding .............................................. 235,270
Wildland Fire....................................................   196
Wildlife Trafficking.............................................   210
Wildlife Traps ................................................ 188,189
Wolves ....................................................  197,201,202





      Office of Surface Mining Reclamation and Enforcement (OSMRE)
                          2017 Budget Request
                      March 3, 2016, Rayburn B-308

AML Pilot Program ......................................... 316,320,328
AML Pilot Program: Application of Project Requirements...........   317
AML Pilot Program: Economic and Community Development............   315
Availability of Copyrighted Material.............................   308
Baseline Data Requirements.......................................   312
Biography--Director Joseph Pizarchik.............................   302
Biography--Glenda H. Owens.......................................   303
Biography--Ruth E. Stokes........................................   304
Compliance with Omnibus Language.................................   314
Duplicative Oversight............................................   327
Importance of Science............................................   316
New Budget Initiatives...........................................   320
Offsite Impacts..................................................   327
Opening Remarks of Chairman Calvert..............................   289
Opening Remarks of Director Pizarchik............................   293
Opening Remarks of Ms. McCollum..................................   292
President's Request to Hire More Federal Inspectors..............   318
Protection of Water Resources....................................   313
Questions for the Record from Chairman Calvert...................   318
Questions for the Record from Mr. Jenkins........................   327
Questions for the Record from Mr. Joyce..........................   324
State Bonding Requirements.......................................   321
Statement of Chairman Rogers.....................................   290
Statement of Director Pizarchik..................................   297
Stream Protection Rule .................................... 305,322,324
Stream Protection Rule: Economic Impacts ...................... 311-316
Stream Protection Rule: Information to States....................   307
Stream Protection Rule: Meeting with States......................   309
Stream Protection Rule: Spending.................................   307
Stream Protection Rule: Timing...................................   310
Unbiased Science.................................................   314

                       Bureau of Land Management
                          2017 Budget Request
                      March 3, 2016, Rayburn B-308

Alton Coal Mine..................................................   352
Aquifer Recharge in Idaho........................................   372
Biography--Director Neil Kornze..................................   344
Challenge Cost-Share .........................................  345,346
Collaborative Efforts............................................   350
Cost of Litigation...............................................   368
Data Center Consolidation........................................   369
Eastern Snake Plan Aquifer.......................................   348
Grazing Administration Fee .................................... 348,349
Land Acquisition.................................................   370
Law Enforcement..................................................   369
Minerals Examination.............................................   356
National Monument Designations ................................ 351,369
Native Plants/National Seed Strategy.............................   362
Opening Remarks of Chairman Calvert..............................   331
Opening Remarks of Director Kornze...............................   333
Opening Remarks of Ms. McCollum..................................   332
Planning 2.0 ...................................................353,355
Questions for the Record from Chairman Calvert...................   358
Questions for the Record from Mr. Simpson........................   372
Questions for the Record from Mr. Stewart........................   374
Resource Management Plan Changes.................................   374
Sage Grouse ....................................... 345,347,353,358,373
Silver Peak......................................................   353
Statement of Director Kornze.....................................   337
Steens Mountain CMPA Fence.......................................   347
Venting and Flaring ......................................... . 345,346
Wild Horses and Burros ................................ 349,350,356,364





</pre></body></html>
